<html>
<title> - MISCELLANEOUS NATIONAL FOREST BILLS</title>
<body><pre>[Senate Hearing 109-582]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-582
 
                  MISCELLANEOUS NATIONAL FOREST BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2466

TO AUTHORIZE AND DIRECT THE EXCHANGE AND CONVEYANCE OF CERTAIN NATIONAL 
            FOREST LAND AND OTHER LAND IN SOUTHEAST ARIZONA

                                S. 2567

 TO MAINTAIN THE RURAL HERITAGE OF THE EASTERN SIERRA AND ENHANCE THE 
    REGION'S TOURISM ECONOMY BY DESIGNATING CERTAIN PUBLIC LANDS AS 
WILDERNESS AND CERTAIN RIVERS AS WILD AND SCENIC RIVERS IN THE STATE OF 
                   CALIFORNIA AND FOR OTHER PURPOSES

                                S. 2788

 TO DIRECT THE EXCHANGE OF CERTAIN LAND IN GRAND, SAN JUAN AND UINTAH 
                 COUNTIES, UTAH, AND FOR OTHER PURPOSES

                               __________

                              MAY 24, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-946                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Andrews, John W., Associate Director, Utah School and 
  Institutional Trust Lands Administration.......................    34
Bennett, Hon. Robert F., U.S. Senator From Utah..................     1
Boxer, Hon. Barbara, U.S. Senator From California................     7
Calvert, Chad, Deputy Assistant Secretary for Land and Minerals 
  Management, Department of the Interior.........................    10
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Feinstein, Hon. Dianne, U.S. Senator From California.............     9
Hing, Michael, Mayor of Superior, AZ.............................    24
Holtrop, Joel, Deputy Chief, National Forest System, Department 
  of Agriculture.................................................    17
Kamala, Laura, Director of Utah Programs, Grand Canyon Trust, 
  Castle Valley, UT..............................................    30
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     3
McKeon, Hon. Howard P. ``Buck'', U.S. Representative From 
  California.....................................................    10
Williams, Bill, Vice President, Health, Safety, Environment and 
  Construction, Resolution Copper Company, LLC, Phoenix, AZ......    27

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    45

                              Appendix II

Additional material submitted for the record.....................    53


                  MISCELLANEOUS NATIONAL FOREST BILLS

                              ----------                              


                        WEDNESDAY, MAY 24, 2006

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 2:36 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon. I want to welcome all of our 
witnesses who are here to testify today. While we only have a 
few bills to take testimony on, I see we have a lot of 
witnesses who are here to help us understand the strengths and 
the weaknesses of these bills.
    It appears we are going to have three panels today. I first 
will call our Senate panel. Senator Kyl is with us to testify 
on S. 2466, the Southern Arizona Land Exchange; Senator Barbara 
Boxer is here to testify on S. 2567, the Hoover Wilderness 
expansion proposal; and Senator Robert Bennett is here to 
testify on S. 2788, the Utah Recreational Land Exchange.
    I'll then ask the administration to come forward to testify 
on all three bills. I want to thank Joel Holtrop, Deputy Chief 
of the Forest Service for the National Forest System, and Chad 
Calvert, the Deputy Assistant Secretary for Land and Mineral 
Management at the Department of the Interior, who are with us 
today.
    And finally, we have five witnesses who are here to testify 
on two bills I have already mentioned. We have Michael Hing, 
mayor of the town of Superior, AZ; along with Mr. Bill 
Williams, vice president for health and safety, environment and 
construction, from Resolution Copper Company, both here to 
testify on S. 2466, the Southern Arizona Land Exchange bill 
that Senator Kyl has introduced.
    Well, with no particular order in mind, I guess we'll start 
and work our way across the table.
    Senator Bennett.

       STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman, for 
your consideration and for your attention to these bills. You 
are no stranger to the issue of School Trust Lands in Western 
States. The question of trying to consolidate the School Trust 
Lands into economically viable clusters and at the same time 
turn over intelligent management to the Federal agencies that 
manage the land around the School Trust Lands is one that has 
been going on virtually all of my life.
    When my father was the Senator from Utah, first elected in 
1950, he sponsored some land exchange bills. They didn't get 
very far. The process continued when Scott Matheson, the 
Democratic Governor of the State of Utah made a significant 
effort to try to get things done in terms of land exchange. 
That didn't go very far. This has a long history. We finally 
broke through with the assistance of Secretary Babbitt, 
Governor Levitt and this Congress. We got some land exchanges 
going and we want to keep that going. And I believe that S. 
2788, the bill that I have proposed along with Senator Hatch, 
will accomplish that purpose.
    The legislation represents the consensus and compromised 
views across the State of Utah. Local communities, the 
recreation community, the environmental community have all had 
input into this bill, and as far as I know, all have support 
for the bill. Given the historical controversy over land use 
bills in Utah, that's saying something, to get that kind of 
consensus. It directs the exchange of approximately 40,000 
acres of land that is currently under BLM management for the 
same number of acres that are currently under SITLA management. 
SITLA stands for the School and Institutional Trust Lands 
Administration, and as you know, all of the trust lands are, by 
law, set aside for use for Utah schools.
    The final valuation will be made with an appraisal process 
to make sure that it is, in fact, an equal value exchange that 
fulfills the mandates of the BLM. The land exchange will 
consolidate BLM ownership of the wilderness area and several 
wilderness study areas and also land along the Colorado River 
corridor. These areas contain nationally recognized scenic 
vistas and some significant archeological and historic 
resources, along with the recreation lands that are enjoyed by 
hundreds of thousands of people every year. The bill provides 
what I believe is a common-sense way to value the minerals that 
are located in the lands to be exchanged. It contemplates the 
uncertainty involved with mineral appraisal and gives 
assurances that the public will not be shortchanged by an 
under-valuation of these lands.
    I can go into the detail of how that is done, if you 
prefer, but basically, it holds the Federal Government harmless 
if, at some future time, some magnificent windfall is 
discovered in some of these lands that are exchanged and the 
State of Utah would pay the Federal Government at some point in 
the future.
    Senator Craig. Well, Bob, I have reviewed that and I find 
it unique and I think very equitable. I think it's creative on 
your part, and everyone involved, on how to handle values. It 
certainly offsets the phenomenal difficulty of attempting to 
appraise and understand values that may not be there now, but 
could be there in the future.
    Senator Bennett. We were determined to try to slay that 
particular dragon because too often land exchange bills have 
been held up over the valuation issue. And we thought if we 
could solve that, then we could get on with that which 
everybody thinks is in the best interest of Utah's school 
children as well as the Land Management Agency. So, Mr. 
Chairman, I thank you for the opportunity to testify and hope 
that the committee will look favorably upon our effort.
    Senator Craig. Surely, you and any of the other Senators 
who want to stay, who might want to ask questions of the 
administration, feel free to do so. We have some questions and 
we'll pursue them, but thank you. Now let me turn to----
    Senator Bennett. Thank you, Mr. Chairman, I'll leave you my 
proxy.
    Senator Craig. I'll use it wisely. Thank you.
    Senator Kyl.

            STATEMENT OF HON. JON KYL, U.S. SENATOR 
                          FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. Let me begin by 
thanking you for chairing this subcommittee. You have enormous 
responsibility that affects millions of people in the western 
United States in particular, and as you noted from this full 
room here today, there are a lot of people who are counting on 
action on the legislation that's been introduced here, and I 
appreciate your attention to it and that of your staff and that 
of the minority as well.
    You noted that we are going to hear testimony later from 
Mayor Hing of Superior and Bill Williams of the Resolution 
Copper Company with respect to the land exchange in the State 
of Arizona that will involve the Resolution Copper Company. 
Just a note at the outset. My full statement will be in the 
record, but the bill before you, as is usually the case here, 
has been the result of painstaking negotiation and compromise 
by all of the affected interests and I can tell you that the 
Federal--and I also thank the Federal Government officials, 
some of whom will be here today, they've worked very closely 
with the sponsors of this. They will testify, I believe, in 
support, but with some recommendations of things that will need 
to be modified. We'll continue to work with them, of course, on 
those matters.
    But it also has the support of the Governor of the State of 
Arizona, the Pinal County Board of Supervisors, the Supervision 
Area Land Trust--Superstition Area Land Trust, Arizona Game and 
Fish Department and the Access Fund, just to name a few. And I 
will ask that both their statements and a resolution of the San 
Carlos Apache Tribe be included in the record.
    I met with representatives of the San Carlos Apache Tribe 
for the first time yesterday. They expressed to me that they 
have some issues, some cultural and historic issues with this 
land exchange. I hope to be able to continue to work with them, 
but their resolution should be a matter of interest to the 
committee as well.
    Just briefly, this involves a little over 3,000 acres of 
land, commonly called Oak Flat, which is controlled by the 
Forest Service near the town of Superior. That will be traded 
to the Resolution Copper Company, which hopes to explore and 
develop a significant, very deep copper mine under that land. 
They, in turn, will provide to the U.S. Government, the Forest 
Service and the Department of the Interior over 5,500 acres of 
very environmentally significant land, land which, for example, 
includes a riparian area of the San Pedro River, which is a 
nationally recognized migratory bird corridor, a very high 
value riparian habitat for endangered and threatened species, 
the largest, last remaining, mesquite bosk in Arizona, 
magnificent canyons and forests that are home to other wildlife 
and game species. And there's a variety of environmental groups 
that have long advocated for the acquisition for the public of 
these lands, including the Sonoran Institute, the Nature 
Conservancy, Trust for Public Lands and Arizona Audubon.
    The requirement for the transfer of the land is partially 
because Resolution Copper not only believes there is perhaps 
one of the largest ore bodies ever discovered in the United 
States or in North America underlying this land, but right now, 
the land patterns in the area are, as is frequently the case, 
checkerboarded. It lies within a mining district. It's adjacent 
to and intermingled with Resolution Copper's existing private 
land and the Magma Mine, which is in the same vicinity. And 75 
percent of it is blanketed with un-patented mining claims that 
are held by Resolution.
    So, this can minimize the conflict between the public and 
the private use of that, as well as provide an enormous asset 
to the Federal Government in over 5,500 acres of these 
environmentally sensitive lands. One of the most interesting 
features is a place called Apache Leap on the west side of Oak 
Flat. The stories may be apocryphal, but they dealt with large 
numbers of Apache, particularly women and children, leaping off 
the cliff to avoid capture by the people who were pursuing 
them. There is a great deal of obsidian at the bottom and those 
are thought to be the tears of the Apache who cried at their 
fate.
    The campground there is going to be replaced at Resolution 
Copper's expense and the town of Superior will have the 
opportunity to acquire about 200 acres to include the town's 
cemetery and land near its airport for expansion there. There 
will also be recreation and public purpose conveyance of about 
2,000 acres from the BLM to the Arizona Parks Department for 
the creation of a new State park, which focused on rock 
climbing. And this is one of the more innovative solutions to a 
problem that was brought to the attention of the copper company 
when rock climbers indicated that this was one of the world 
class rock climbing areas and they did not want to be denied 
access to the area. Well, they were provided some limited 
access to the area and an expert was brought in and identified 
another area that will be perhaps equally good and that will be 
developed as part of the State park so that the rock climbers 
will continue to have access to first class climbing 
opportunities.
    Just a note about the appraisals. As Senator Bennett noted, 
we're well aware of the need to make absolutely certain that 
the public receives its fair benefits, and as a result the 
usual appraisal standards for Federal land acquisitions and 
uniform standards of professional appraisal practice will be 
applied here. There are also a couple of innovative things that 
are done to appraise the Federal land as if encumbered by--or I 
should say, excluding the encumbrance of the mining claims that 
would devalue the property.
    So, it's going to be as if those potential easements--the 
conservation easement and the mining claims--are not a factor, 
so that the full value of the Federal land will be determined 
and it is that value that will be put against the land that the 
Resolution Copper Company will be offering up to the Federal 
Government.
    I know that you will have other questions Mr. Chairman, but 
this is one of those great win-win-win situations for everybody 
within the State, and I look forward to working with the 
committee to answer any questions or work out any issues that 
may come up in the future. But we're very, very pleased that 
all of the parties have gotten together and offered such a 
great opportunity for improvement in the State of Arizona.
    [The prepared statement of Senator Kyl follows:]

 Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona, on S. 
                                  2466

    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to testify regarding S. 2466, the Southeast Arizona Land 
Exchange and Conservation Act of 2006. I introduced this bill, on 
behalf of myself and Senator McCain, in late March. It is a modified 
version of S. 1122, which we introduced in May of last year under the 
same title. This bill directs an important land exchange in our home 
state of Arizona. It is the culmination of negotiation with federal, 
state, and local officials, community, recreation, and conservation 
groups and other stakeholders. It will allow for the protection of some 
of the most environmentally sensitive lands in Arizona, enhance outdoor 
recreation opportunities, and provide a much-needed economic engine for 
the people of Superior, Arizona and the surrounding communities.
    Let me briefly lay out the details. The exchange conveys 
approximately 3,025 acres of land controlled by the Forest Service to 
Resolution Copper Company. The acreage commonly called ``Oak Flat'' 
will to be traded to Resolution Copper to facilitate future 
exploration, and possible development, of a large copper ore deposit 
discovered some 7,000 feet below the surface. Oak Flat is intermingled 
with, or abuts, private lands already owned by Resolution Copper 
Company. Approximately 75 percent of the Oak Flat federal parcel is 
already blanketed by unpatented mining claims. Given the ownership 
patterns; the public safety issues that may be associated with mining 
activities, and the significant investment Resolution Copper must make 
to even determine whether development of a mine is feasible, it makes 
sense, Mr. Chairman, for Resolution to acquire the entire mining area.
    However, we also recognize that there are resource values 
associated with Oak Flat that would come into private ownership and, to 
the extent we can, we should protect and or replace these resources. 
This bill accomplishes that goal.
    The Apache Leap Escarpment, a spectacular cliff area and important 
cultural resource site comprising approximate 562 acres on the western 
side of the federal parcel, is an area deserving of protection. The 
bill requires that a permanent conservation easement be placed over 
this area protecting the surface from mining and development.
    The Oak Flat Campground, consisting of 14 rustic tent/RV sites, is 
located on the north side of the parcel, adjacent to U.S. Highway 60. 
Recognizing that the campground is used by the community and others, we 
are requiring that this campground be replaced on the Globe Ranger 
District at Resolution Copper's expense. Public access to this 
campground will not immediately terminate on enactment of the 
legislation: The bill allows for continued public access to the 
campground for two years after enactment.
    We also heard from the public that climbing and bouldering were 
important recreational resources at the site. For this reason, we 
included a placeholder in S. 1122 for additional climbing provisions as 
a good faith offer to the climbing community to work with us and the 
proponent of this land exchange, Resolution Copper Company, to address 
the loss of public access to climbing at Oak Flat in a way that does 
not compromise public safety. I am happy to announce that discussions 
over the last eight months have been fruitful. Some of the climbing 
will remain open at Oak Flat temporarily and climbing areas on 
Resolution Copper's private land will be accessible through a license 
agreement executed by Resolution Copper and Access Fund, a national 
advocacy climbing organization. Access Fund has formally endorsed the 
exchange as a result.
    I am also pleased to report that representatives of Resolution 
Copper, working in cooperation with climbers and federal land managers, 
have found an additional climbing gem about 20 miles from Oak Flat, 
near Hayden and Kearny, Arizona in the Tam O'Shanter Mountains. 
``Tamo,'' as it is now nicknamed, has the quality of rock and the 
elevation and diversity of cliffs, climbing walls, and boulders that 
rock climbers seek. Couple these characteristics with Arizona's mild 
weather and this site has the potential to be a four season climbing 
destination and tourism draw for Arizona.
    Recognizing this potential, Arizona State Parks, Resolution Copper, 
and the Bureau of Land Management, in cooperation with the communities 
and other mining interests, have been working together on a proposal to 
turn ``Tamo'' into Arizona's newest state park. This proposed state 
park would place a special emphasis on rock climbing, but would also 
have opportunities for camping and other outdoor recreation.
    To turn ``Tamo'' into a state park is not an easy task. Currently, 
Arizona State Parks lacks the legal authority to acquire ``Tamo,'' but 
it is seeking it through the Arizona state legislature. I am pleased to 
report that a state bill containing this authority is working its way 
through the Arizona state legislature and has the overwhelming support 
of the Sierra Club, Access Fund, and ASARCO, a mining company operating 
in the vicinity. The stakeholders tell me this issue and others 
concerning access to the site are close to being resolved. For this 
reason, the bill includes language that would facilitate a recreation 
and public purposes conveyance of ``Tamo'' to Arizona State Parks. This 
conveyance, of course, would be subject to solving these issues.
    In return for conveying the federal land to Resolution Copper, the 
Forest Service and Bureau of Land Management will receive eight parcels 
of private land, totaling 5,539 acres. These parcels have been 
identified, and are strongly endorsed for acquisition by the Arizona 
Audubon Society, Nature Conservancy, Trust for Public Land, Sonoran 
Institute, Arizona Game and Fish Department and numerous others. They 
include lands along the San Pedro River, an important internationally 
recognized migratory bird corridor, riparian and wetland habitat for 
threatened and endangered animal and plant species, including the 
southwestern willow flycatcher and the hedgehog cactus, and magnificent 
canyons and forest that are home to big game species. Most of the 
parcels are in holdings that will allow for more effective management 
of the federal land. It is in the public interest to bring these 
conservation lands into federal ownership for the enjoyment of future 
generations.
    Although the focus of this bill is the land exchange between 
Resolution Copper and the United States, it also includes provisions 
allowing for the conveyance of federal lands to the town of Superior. 
These lands include the town cemetery, lands around the town airport, 
and a federal reversionary interest that exists at the airport site. 
These lands are included in the proposed exchange to assist the town in 
providing for its municipal needs and expanding and diversifying its 
economic development.
    Though I have described the many benefits of the exchange, Mr. 
Chairman, you may be asking why we are legislating this land exchange. 
There are many reasons, but I would like to highlight a few: First and 
foremost, as this exchange is assembled it can only be accomplished 
legislatively. The Forest Service does not have the authority to convey 
away federal land in order to acquire private land outside the 
boundaries of the National Forest System no matter how ecologically 
significant. Second, this bill provides additional safeguards to ensure 
this land exchange is fair and in the pubic interest.
    I will highlight some of the bill's safeguards: First, it requires 
that all appraisals follow standard federal appraisal practice and be 
performed in accordance with appraisal standards promulgated by the 
U.S. Department of Justice. All appraisals must also be reviewed and 
approved by the Secretary of Agriculture. Second, to ensure that the 
United States gets full value for the federal parcel it is exchanging, 
the federal parcel will be appraised to include the copper ore and 
appraised as if unencumbered by Resolution Copper's mining claims, 
which would detract from the market value of the land. This is 
significant given the fact that 75 percent of the land is encumbered by 
mining claims. Third, the Apache Leap Conservation Easement is 
expressly not included in determining the value of the federal land, 
preventing any possibility that this easement would further devalue the 
federal land. I believe by following the standard appraisal practices 
and including these safeguards in the valuation process, the United 
States, and ultimately the taxpayer, will receive full value for both 
the land and the minerals it contains.
    I also want to note that I met with the San Carlos Apache Tribe 
yesterday. For the first time, the Tribe expressed to me that they have 
Apache cultural practices and traditions associated with portions of 
the Oak Flat federal parcel that they are concerned may be affected by 
this land exchange. I will work with the Tribe to try to find common 
ground to address these concerns.
    With enactment of this legislation, we can preserve lands that 
advance the important public objectives of protecting wildlife habitat, 
cultural resources, the watershed, and recreation opportunities, while 
generating economic and employment opportunities for state and local 
residents. It is advantageous to our environment and for our economy. 
Thank you again for holding this hearing and extending to me the 
opportunity to testify.

    Senator Craig. Well, Jon, thank you very much for bringing 
this to the committee. We will continue to work with you as we 
work with the administration to sort out any difficulties on 
the margins we may have before we move this legislation. Again, 
thank you.
    And now let me turn to Senator Barbara Boxer. Senator Boxer 
brings to us almost an anomaly. And I say that with a smile on 
my face, Barbara, because rarely does an environmental, or if 
you will, a wilderness bill come before this committee without 
controversy. And my staff tells me that it is, as best we can 
tell, without, at the moment, controversy. Please proceed.

         STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Boxer. Thank you so much. I just want to say to you 
and your staff thank you so much for all the work you do with 
us--not just on this, but on so many other issues--and I wanted 
to thank you particularly for your work on the Northern 
California Coastal Wild Heritage Wilderness Act, which the 
Senate passed with your leadership, and we're just waiting for 
the House to act. It's another one of those bills that is, as 
Jon Kyl says, a win-win, because it's not controversial.
    And let me quickly say, I would like to put my full 
statement in the record.
    Senator Craig. Without objection, it'll become a part of 
the record.
    Senator Boxer. I'm going to be very brief, but I do want to 
lay out a few wonderful things and show you some beautiful 
pictures. This is S. 2567, a bill introduced by myself and 
Senator Feinstein. It's called the Eastern Sierra Rural 
Heritage and Economic Enhancement Act.
    Senator Craig. Very creative.
    Senator Boxer. Yes. Because, as you know, in your State as 
well as mine, beautiful areas attract tourism, and tourism is 
really one of our greatest economic businesses in California.
    In April, I introduced this bill with Senator Feinstein, 
and then Representative Buck McKean, whose congressional 
district contains these special lands, introduced the companion 
bills. So this is a breakthrough because this is bipartisan. 
Buck is a Republican and Diane and I are Democrats, in case you 
weren't aware of that, Mr. Chairman. And what is so wonderful 
is we have the administration on our side as well. So, it's all 
very good.
    What I want to do is show you some of these treasures, just 
for our fun, just to show you what we're looking at protecting.
    Here's our first picture. The bill makes considerable 
additions to the existing Hoover Wilderness Area which border 
on Yosemite National Park. These additions will protect the 
stunning High Sierra landscape of 11,000-foot snow-capped peaks 
and valleys, lush meadows and deep forest that people around 
the world associate with the eastern Sierra.
    They're home to an abundance of wildlife, including--that 
is breathtaking--including black bear, mountain lion, mule 
deer, water fowl and bald eagles. This land provides much more 
than just visual beauty, however, it is a recreational 
paradise. Here is one of those happy recreators going fishing 
here.
    Year after year, hikers enjoy the approximately 9 miles of 
the Pacific Crest National Scenic Trail that runs through the 
wilderness. Fishing anglers enjoy the clear lakes and streams 
that support a number of species of wild trout. The bill 
protects areas adjacent to the Emigrant Wilderness Area 
including another 2 miles of the Pacific Crest Trail.
    And then the legislation designates about 24 miles of the 
Amargosa River as a wild and scenic river and here you see 
pictures of that. The only river flowing into Death Valley, the 
Amargosa is an ecologically important river in a very dry 
desert region. We can see the birds, the bird watchers abound 
in the area, coming from far and wide. So, I guess our last 
picture--I think if anyone ever questioned God's greatness, all 
they have to do is look at these photographs. Thank you, Jeff, 
very much for that.
    Senator Craig. That's spectacular.
    Senator Boxer. I know, it's just breathtaking, so we want 
to protect it forever, Congressman McKean, Diane and I, and I 
hope all of us here today. What a great, great heritage it 
would be for us.
    The last thing I want to do is just put some statements in 
the record with your permission. I'll tell you what they are. 
The statement of Representative Buck McKean, the resolution of 
support from the Mono County Board of Supervisors, the 
resolution of support from the Inyo County Board of 
Supervisors, a letter of support from the mayor of Mammoth 
Lakes, a list of 171 local businesses who support this bill, 
and here's the best one, I saved it for last for you, Mr. 
Chairman, a resolution of support from the Mono County 
Republican Central Committee. I thought it would make you 
smile.
    Senator Craig. I'll have to check out the legitimacy of 
that one.
    [Laughter.]
    Senator Boxer. We have so much support. We are thrilled to 
be here. And, again, we want to just thank you and your staff 
for your willingness to work with us. I look forward to 
celebrating when we all know that this is preserved for our 
grandkids and their kids and their kids.
    [The prepared statements of Senators Boxer and Feinstein 
and Representative McKean follow:]

Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California, 
                               on S. 2567

    Thank you, Chairman Craig. Let me begin by thanking you for your 
great work on the Northern California Coastal Wild Heritage Wilderness 
Act you and your staff have been very helpful over the last few years 
on that effort and helped assure a swift Senate passage last year.
    Today, I want to talk about a very special place--the Eastern 
Sierra--and a very special, bipartisan, bicameral, administration 
supported effort--``the Eastern Sierra Rural Heritage and Economic 
Enhancement Act.''
    In April, I introduced this bill with Senator Feinstein. 
Representative Buck McKeon, whose congressional district contains these 
special lands, introduced the companion bill in the House.
    This bill will provide protection for thousands of some of the most 
pristine, wild, and beautiful acres in California's wild Eastern 
Sierra.
    I would like to take a few moments and show you some of these 
natural treasures.
    CHART--HOOVER My bill makes considerable additions to the existing 
Hoover Wilderness areas, which border on Yosemite National Park.
    CHART--HOOVER These additions will protect the stunning High Sierra 
landscape of 11,000 foot snow-capped peaks and-valleys, lush meadows 
and deep forests that people around the world associate with the 
Eastern Sierra.
    CHART--HOOVER These areas are also home to an abundance of 
wildlife, including black bear, mountain lion, mule deer, waterfowl, 
and bald eagles.
    CHART--HOOVER--HIKER This land provides more than just visual 
beauty however, it is also a recreational paradise.
    Year after year, hikers enjoy the approximately nine miles of the 
Pacific Crest National Scenic Trail that runs through this wilderness.
    CHART--HOOVER--FISHING Anglers enjoy the clear lakes and streams 
that support a number of species of wild trout.
    The bill will also protect areas adjacent to the Emigrant 
Wilderness area, including another two miles of the Pacific Crest 
Trail.
    CHART--AMARGOSA My legislation will also designate about 24 miles 
of the Amargosa River as a Wild and Scenic River.
    CHART--AMARGOSA As the only river flowing into Death Valley, the 
Amargosa is an ecologically-important river in a dry desert area.
    CHART--AMARGOSA Birds and birdwatchers abound in this area, both 
coming from far and wide to enjoy the river.
    In short, Mr. President, these places are not just California's 
natural treasures, they are America's natural treasures.
    And that is why they deserve the highest level of protection 
possible. That is what this bill does.
    I was proud to include most of these lands in my California Wild 
Heritage Act that I reintroduced in March of this year.
    I thank you for holding this hearing and I look forward to working 
with you and all my colleagues, to protect these special places 
forever.
                                 ______
                                 
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                         California, on S. 2567

    I want to thank the Public Lands and Forests Subcommittee for 
considering S. 2567, the Eastern Sierra Rural Heritage and Economic 
Enhancement Act. I am proud to serve as an original cosponsor of this 
important legislation along with my colleagues Senator Boxer and 
Congressman Buck McKeon. I want to commend Senator Boxer and 
Congressman McKeon for their leadership on this issue.
    This legislation expands the Hoover and Emigrant wilderness areas 
in Mono County and provides wild and scenic status for portions of the 
Amargosa River in Inyo County. Notably, this bill is a product of 
extensive local discussions resulting in broadly supported local 
agreements.
    In the Eastern Sierra in Mono County, Congressman McKeon brought 
together local stakeholders to resolve a longstanding land use dispute 
in this beautiful portion of his Congressional District. The result was 
an agreement between local snowmobilers and local wilderness advocates 
that is unanimously supported by the Mono County Board of Supervisors.
    In Inyo County, local residents worked with the County Board of 
Supervisors to develop a plan to permanently protect the natural values 
of the Amargosa River, a spectacular and rare desert river. Again, the 
legislation reflects the proposal approved by the Inyo County Board of 
Supervisors.
    The Forest Service and the Bureau of Land Management have long 
recommended the land and river in this legislation for wilderness and 
wild & scenic designations, respectively. As such, these areas are 
already managed in a manner consistent with the wilderness and wild & 
scenic designations the legislation provides. This reassures me that 
grazing, horsepacking, and currently allowed recreational activities 
will be unaffected by this legislation.
    Before supporting any wilderness legislation, I explore closely 
whether or not the designation will affect private property owners or 
in any way hinder fire suppression. In this case, there are no private 
inholdings within or adjacent to the wilderness designated by this 
legislation. Similarly, the Forest Service has indicated that there are 
no fuels treatment projects planned for this high elevation area. 
Furthermore, the bill contains language reiterating that the Wilderness 
Act provides land managers with the discretion to use any means 
necessary to fight and prevent wildfires.
    I believe passage of this legislation will help maintain the rural, 
outdoors lifestyle that local citizens currently enjoy. The legislation 
protects scenic wonders in the Eastern Sierra and the world class 
outdoor recreational opportunities that draw visitors from all over the 
world to this beautiful region every year. This legislation will also 
help ensure that visitors will continue to come to the Eastern Sierra 
and contribute to the region's tourism-based economy.
    I look forward to working with my colleagues on this committee to 
ensure that this legislation is enacted as soon as possible.
                                 ______
                                 
      Prepared Statement of Hon. Howard P. ``Buck'' McKeon, U.S. 
               Representative From California, on S. 2567

    Mr. Chairman, today I take pleasure in voicing my support for the 
Eastern Sierra Rural Heritage and Economic Enhancement Act.
    As you are aware, I am fortunate enough to claim the majority of 
California's Eastern Sierra Mountains as part of my district. The 
Eastern Sierra Rural Heritage and Economic Enhancement Act will protect 
some of the most pristine land in California for the enjoyment of my 
constituents in the 25th District, and the visitors we welcome to the 
Eastern Sierra's each year.
    This legislation calls for three wilderness additions: the Hoover 
Wilderness Addition, the Emigrant Wilderness Addition, and the Amargosa 
Wild and Scenic River Addition. The Hoover Wilderness Addition rests 
between Yosemite National Park, the existing Hoover Wilderness, and the 
Emigrant Wilderness, and designates 39,680 acres of 11,000 foot 
mountain peaks, glacial valleys, alpine lakes, and conifer forests as 
protected wilderness area. The Emigrant Wilderness addition lies 
adjacent to the existing Emigrant Wilderness, and claims two miles of 
the Pacific Crest Trail. The Amargosa Wild an Scenic River Addition 
designates a twenty-four mile stretch of river as protected, and 
divides the section into three parts: wild, scenic, and recreational.
    Given the popularity of these areas, it is necessary to find a 
compromise between protection of the land and local wildlife, and 
recreational sport. This legislation provides such a compromise, 
affording land for recreation and preservation. Preserving wilderness 
areas for future generations is imperative, and this bill as an 
opportunity to do so.
    Mr. Chairman, this legislation is the result of a great deal of 
compromise, cooperation, and support. Assistance from the Mono County 
Board of Supervisors which claims the Hoover and Emigrant Wilderness 
Addition, and the Inyo County Board of Supervisors which claims the 
Amargosa River Addition has been vital to the introduction of this 
legislation. This bill required compromise and cooperation between the 
local environmental community and the Bureau of Land Management, and I 
am pleased with the agreement that has been reached by both parties. 
Energetic support from Senators Dianne Feinstein and Barbara Boxer, as 
well as my constituents in the 25th District make it a distinct 
pleasure to introduce this legislation in the House, and I encourage 
strong support of the Eastern Sierra Rural Heritage and Economic 
Enhancement Act.

    Senator Craig. Senator Boxer, thank you very much for 
bringing this to the committee, it obviously will be a 
phenomenal addition to that wilderness. But without question, 
not only did you have a good photographer at hand, but the 
subject is phenomenal. Thank you.
    Well, we appreciate the Senators' input. Now, let us turn 
to the second panel: Chad Calvert, Deputy Assistant Secretary, 
Land and Minerals Management, Department of the Interior; along 
with Joel Holtrop, Deputy Chief, National Forest Systems, 
Department of Agriculture. Gentlemen.
    Chad, please proceed.

          STATEMENT OF CHAD CALVERT, DEPUTY ASSISTANT 
 SECRETARY FOR LAND AND MINERALS MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Calvert. All right. Thank you, Senator. I'm the Deputy 
Assistant Secretary for Land and Minerals Management, 
Department of the Interior, and I'm here to testify on two of 
the bills before us today, to give the perspective of the 
Interior Department and for the Bureau of Land Management. The 
first bill is S. 2466, the Southeast Arizona Land Exchange and 
the second is S. 2788, the Utah Recreational Land Exchange Act. 
And for simplicity's sake, I'll just refer to these as the 
Arizona bill and the Utah bill.
    Generally, let me begin by saying that both of these bills 
represent really remarkable achievements in negotiation and 
compromise. They bring together many interests and will make 
positive changes for all of the interested parties.
    The Arizona bill will facilitate the opening of a new 
copper mine to employ thousands of Arizonans. The addition of 
the minerals to our economy will benefit both the State and the 
Nation. This bill will also give public lands to provide 
additional wildlife habitat and recreation.
    For the BLM, it will add more than 3,000 acres along the 
San Pedro River near Mammoth to be managed for purposes similar 
to those in the San Pedro Riparian National Conservation Area. 
It will also add lands to BLM's Las Cienegas National 
Conservation Area in southern Arizona. It's 950 acres, 56 acres 
identified in the Sonoita Valley Acquisition Planning Area, 
which was created by the bill sponsored by Congressman Colby, 
which passed both the Senate and the House unanimously in the 
106th Congress. The Arizona bill also will replace the existing 
recreation area with more than 2,000 acres of land for a new 
State park dedicated to rock climbing, and this was an 
important part of the impressive compromise achieved by the 
bill.
    The Utah bill is also an impressive proposal that brings 
together several counties, the State and the State School 
Trust, and a number of environmental groups with a common 
purpose of improving land tenure in eastern Utah. The BLM 
manages nearly 23 million acres of land in Utah. This bill 
would exchange roughly 34,000 acres of that for approximately 
45,000 acres of land managed by the School Trust.
    Generally, the exchange will block up ownership patterns 
and provide more uniform management. The lands we acquired for 
the United States have primarily recreation, wildlife, riparian 
and cultural values. Lands to be conveyed are primarily mineral 
lands with some economic and agricultural development 
opportunities. The Department supports the purposes of both of 
these bills. We do have some concerns with a couple of 
provisions that mostly relate to management and/or public 
expectations, and these concerns are discussed in detail in my 
written statement. I would just take a moment to highlight a 
couple of them.
    With regards to the Arizona bill, our primary concern 
relates to the exchange valuation. The Department appreciates 
the desire of the sponsors to ensure that the entire package of 
lands gets exchanged. It's important to note that the 
requirement in section 5(b)(2) for the Department of the 
Interior to pay an equalization in cash if the value of non-
Federal land exceeds that of the Federal may actually inject 
uncertainty into the exchange. As stated in the written 
testimony I provided, in this instance, a more certain remedy, 
if this equalization problem arises, would be a simple 
authority to reduce the lands to be exchanged to bring them 
into an equal value situation.
    The other principal concern relates to the Dripping Springs 
parcel that would be conveyed to the State of Arizona 
ultimately. Because there is an expectation from the bill that 
a rock climbing area would be developed, we would prefer that 
all the lands go straight to the State, so the acquired parcel 
is not directed through the Bureau of Land Management for 
simplicity's sake.
    Throughout the Utah bill, the Department has worked very 
closely with the House Resources Committee and the proponents 
of the bill for almost a year. The bill introduced here by 
Senator Bennett reflects a lot of the progress that has been 
made. We've worked through a number of very difficult issues 
and I appreciate the proponents' and the committee staffs' 
patience and willingness to work with us. Nearly all of the 
administration's concerns have been addressed. We feel 
comfortable that the bill can be implemented according to the 
expectations of the sponsors.
    The most thorny issue, as Senator Bennett mentioned, has 
been valuation function, and the bill proposes some alternative 
methods of valuation that are addressed in more detail in my 
written statement. The Department's position on appraisals and 
valuation is laid out in the Secretary's policy concerning land 
valuation exchanges dated December 30, 2004, which is attached 
to my testimony for your review.
    The positions in my statement have been both reviewed and 
approved by the appraisal services directorate at the 
Department of the Interior, the Inspector General and the 
Office of Management and Budget. I am happy to answer any 
questions you might have.
    [The prepared statement of Mr. Calvert follows:]

Prepared Statement of Chad Calvert, Deputy Assistant Secretary for Land 
    and Minerals Management, Department of the Interior, on S. 2788

    Thank you for the opportunity to testify on S. 2788, the Utah 
Recreational Land Exchange Act. The bill would legislate a large-scale 
land exchange between the Bureau of Land Management (BLM) and the State 
of Utah. We strongly support the completion of major land exchanges 
with the State of Utah. We look forward to working with the sponsors 
and the Committee on S. 2788 and could support the bill with some 
additional modifications. As a matter of policy, we support working 
with states to resolve land tenure and land transfer issues that 
advance worthwhile public policy objectives. A great deal of progress 
has been made on this legislation over the last eight months and the 
bill as introduced in the Senate reflects much of that work.

                               BACKGROUND

    The Utah School and Institutional Trust Lands Administration 
(SITLA) manages approximately 3.5 million acres of land and 4.5 million 
acres of mineral estate within the State of Utah primarily for the 
benefit of the schools of the State of Utah. Many of these parcels are 
scattered and interspersed with public lands managed by the BLM.
    Managing 22.87 million acres of land within the State of Utah, the 
BLM's mission is to sustain the health, diversity, and productivity of 
the public lands for the use and enjoyment of present and future 
generations. As the nation's largest Federal land manager, the BLM 
administers the public lands for a wide range of multiple uses, 
including energy production, recreation, livestock grazing, 
conservation use, forestry and open space. The Federal Land Policy and 
Management Act (FLPMA) provides the BLM with a clear multiple-use 
mandate which the BLM implements through its land use planning process.
    Section 206 of FLPMA provides the BLM with the authority to 
undertake land exchanges. Exchanges allow the BLM to acquire 
environmentally-sensitive lands while transferring public lands into 
private ownership for local needs and the consolidation of scattered 
tracts. Over the past five years, throughout the bureau, nearly 550,000 
acres of public lands were disposed of through exchange, while 370,000 
acres were acquired by the BLM through this process. During this same 
time period in Utah, the BLM has disposed of 110,178 acres while 
acquiring 112,842 acres through exchange. The vast majority of this was 
completed under the direction of Congress through the Utah West Desert 
Land Exchange Act (Public Law 106-301).

                                S. 2788

    S. 2788 directs the exchange of approximately 40,000 acres of lands 
managed by SITLA for approximately 40,000 acres of BLM-managed Federal 
lands. Many of the lands that the State is proposing to transfer to the 
BLM are lands that the BLM has a high degree of interest in acquiring 
because they would consolidate Federal ownership within wilderness 
study areas, Areas of Critical Environmental Concern, or other 
sensitive lands. Among these are:

  <bullet> 640 acres on the eastern boundary of Arches National Park 
        which will provide important viewshed protections;
  <bullet> 1,280 acres and 420 acres along the Colorado River west and 
        east of Moab which includes Corona Arch and other popular 
        recreation sites within the BLM's Colorado Riverway Management 
        Area;
  <bullet> 4,500 Acres within the Castle Valley watershed which also 
        has important wildlife habitat and scenic values;
  <bullet> 2,560 acres of land currently leased by the BLM and Grand 
        County from the State for recreation-related activities 
        associated with the Sand Flats Recreation Area and the famous 
        Slickrock Mountain Bike Trail; and,
  <bullet> 800 acres within the Nine Mile Canyon containing significant 
        cultural and recreational resources.

    We support the provisions of the bill that establish a phasing 
process for the transfer of lands from SITLA to the BLM. This will 
allow BLM to prioritize the use of Federal resources in the appraisal 
and review process on the lands with the highest resource value for 
acquisition.
    The bill also identifies a number of parcels for transfer to SITLA 
from the BLM. Some of these would improve manageability and encourage 
appropriate local development, including:

  <bullet> 2,800 acres of scattered parcels near the town of Green 
        River which are suitable for private agricultural development; 
        and
  <bullet> 80 acres adjacent to Canyonlands Field municipal airport 
        operated by Grand County, Utah which are suitable for private 
        development.

    In addition, some of the lands identified for transfer to SITLA 
from the BLM have high energy potential.

                            VALUATION ISSUES

    In December of 2004, former Secretary of the Interior Norton issued 
policy guidance to all of the bureaus on legislative exchanges and land 
valuation issues. A copy of that guidance (Secretary of the Interior 
Order No. 3258) is included for the record. This policy was developed 
to ensure that land transactions are conducted with integrity and earn 
public confidence.
    The policy states that all real property appraisals performed by 
the Department shall conform to nationally recognized appraisal 
standards (i.e., the Uniform Appraisal Standards for Federal Land 
Acquisitions (UASFLA) and the Uniform Standards of Professional 
Appraisal Practice (USPAP)). Accordingly, the policy specifically 
prohibits the use by the Department of alternative methods of valuation 
in appraisals. However, the policy recognizes there may be times when 
Congress will direct, or the Department will propose, the use of 
alternative methods of valuation other than, or in addition to a 
standard appraisal. Under the policy guidance, if Congress directs the 
Department to use an alternative method of valuation in a specific 
transaction, the Department will expressly describe the alternative 
method of valuation applied; explain how the alternative method of 
valuation differs from appraisal methods applied under the Uniform 
Appraisal Standards or the Uniform Standards of Professional Appraisal 
Practice; and, if so directed by Congress, provide this material to the 
appropriate committees prior to or after completion of the transaction, 
as required by the direction.
    The Department's Inspector General has commented on the 
Department's appraisal reform efforts. In testimony given before the 
Senate Committee on Finance, he commended the Department for the 
significant changes it has made to the land appraisal program and 
process.
    As stated, there are circumstances in which the Congress or the 
Administration may decide that alternative methods of valuation are 
appropriate for achieving worthwhile public policy objectives. It is 
our duty to be clear and transparent about the details of proposed 
exchanges and to be clear that an alternative method of valuation is 
being used.
    S. 2788 is not an Administration legislative proposal. It is a 
legislative proposal from Congress. Its stated purpose is to facilitate 
the exchange of certain Federal lands for non-Federal lands to further 
the public interest by exchanging Federal land that has limited 
recreational and conservation resources and acquiring State trust land 
with important recreational, scenic, and conservation resources for 
permanent public management and use. To meet these legitimate public 
policy objectives, Congress may determine that alternative methods of 
valuation are consistent with the intent of the legislation.
    S. 2788 directs that all appraisals shall be in accordance with the 
requirements of FLPMA and with the BLM's regulations governing 
appraisals. The bill further directs the use of two alternative methods 
of valuation for two different purposes. I will describe the 
Department's view of each of these and the relative benefits or risks 
of using these methods.
    Sec. 5(b)(4) requires that, for Federal lands that are not under 
mineral lease at the time of appraisal, such lands shall be valued 
without regard to the presence of any minerals that are subject to 
leasing under the Mineral Leasing Act of 1920. This provision would not 
affect the appraisals for lands that contain no mineral values. 
Additionally, it would not affect the appraisals for those lands that 
are already under Federal mineral lease. Rather, this provision would 
modify a standard appraisal by directing a reduction in the value of 
any eligible parcel by the value of any present minerals which are 
subject to leasing under the Mineral Leasing Act of 1920, but not under 
lease. For such lands, the transaction value would be reduced by the 
value of those. minerals. In exchange for this reduction in value, the 
State or its successors in interest to the property (by virtue of 
covenant language in Section 5(b)(4)(B)) would have to agree to pay the 
United States 50% of whatever bonus or rentals are paid to the State 
for any mineral development in the future; and an amount equal to the 
Federal royalties that would have otherwise been collected by any 
future mineral development conducted pursuant to the Mineral Leasing 
Act, minus amounts that would have otherwise been due to the State 
under Section 35 of that Act.
    This is a complicated methodology that departs from a standard 
appraisal and valuation practice. We note that currently under standard 
appraisals oil shale, the mineral that, in addition to oil and gas, is 
likely to be found in the unleased lands that would be convey to the 
State, does not factor into the value because there are no comparable 
oil shale transactions, or there is no reasonably foreseeable oil shale 
development on the property. The result of using a standard appraisal 
process might therefore be that properties with significant oil shale 
resources will probably have no additional value attributed to them by 
virtue of the presence of this resource. This could lead to the 
criticism that the United States is ``giving away'' potentially 
millions of dollars in oil shale. The material purpose of the 
provisions contained in section 5(b)(4) is to address that risk by 
ensuring that the United States receives the value for any future oil 
shale or other leasable mineral development it would have received if 
the Federal government had retained the lands and leased them.
    We would like to work with the Committee to further refine this 
section. In particular, we would like the bill to clarify that under 
Section 5(b)(4), the royalty rate for which the State would compensate 
the Federal government in the event that currently unleased minerals 
are eventually developed is the standard Federal onshore rate 
established at the time the resource is developed. Also, it may be more 
appropriate to narrow the scope of this provision expressly to oil 
shale and allow for an appraisal that would capture the value of any 
other leasable minerals according to general appraisal standards. In 
addition, as currently drafted, the provision conditions the use of the 
alternative method of valuation on an agreement the State would make 
after conveyance of the lands. The lands, however, cannot be conveyed 
until they are valued.
    The second alternative method of valuation is found in Sec. 
5(b)(6)(B). This provision would apply only to parcels under Federal 
mineral lease at the time of the appraisal. Clause (ii) in that 
subparagraph would direct the BLM to reduce the value of an applicable 
appraisal by an amount equal to what would be the State's share under 
Section 35 of the Mineral Leasing Act. A standard appraisal would 
identify the value of the parcel based on a net present value of the 
future royalty stream. That valued revenue stream would comprise the 
entire Federal collection, without an offset or reduction for the 
portion of the revenue stream that the Federal government remits to a 
state. It is the Department's understanding that this provision is 
included to recognize that the Mineral Leasing Act currently provides 
that 50% of all the money received by the United States in accordance 
with Section 35 of the Mineral Leasing Act shall be paid to the State 
within the boundaries of which the leased lands or deposits are or were 
located.
    This provision would reduce the net present valuation by an amount 
equal to what would be the State's share under the Mineral Leasing Act.
    The overall result of the proposed valuation methods will be a 
greater number of Federal acres exchanged for a lesser number of state 
acres. This may be the desired outcome given Congress' stated public 
policy objectives.

                             OTHER CONCERNS

    The Department opposes section 5(d) of the bill requiring a 
``resource report'' on the lands to be transferred out of Federal 
ownership. Under S. 2788 the Secretary has no discretion regarding the 
lands to be transferred out of Federal ownership; therefore the intent 
and usefulness of this section is unclear. Resource reports on the 
parcels will be time-consuming and costly, will delay the purposes of 
the bill, and will not ultimately affect the directed exchange. We urge 
the Committee to delete this provision.
    Additionally, the Department has serious concerns with section 
6(a)(2)(B) which places permanent withdrawals from the mineral leasing 
and mineral materials laws' on certain state parcels once they are 
transferred to the Federal government. We would support the short term 
withdrawals envisioned in 6(a)(2)(A) because they are consistent with 
the present public planning process. Generally the Department prefers 
to identify lands for permanent withdrawal from mineral entry or 
leasing through the public land use planning process because it gives 
all interested parties an opportunity to be heard. A short-term 
withdrawal of these lands from mineral leasing would preserve the 
option of more permanent withdrawal for any final record of decision. 
This is standard BLM practice.
    We would like the opportunity to continue to fine tune some 
technical provisions, including section 4(a), to insure that the 
implementation of the exchange is correctly and appropriately 
completed.
    Finally, we understand that the current maps created by the BLM, 
dated March 16, 2006, are works in progress. We look forward to the 
opportunity to finalize these in the coming weeks in coordination with 
the sponsors and the Committee.

                               CONCLUSION

    The Department of the Interior supports the intent of this 
legislation. Large-scale land exchanges can resolve management issues, 
improve public access, and facilitate greater resource protection, and 
we support such exchanges. To that end, we are ready to work with the 
Committee and the sponsor to resolve remaining issues in the bill. I 
would be happy to answer any questions.
                                 ______
                                 
                        Department of the Interior,
                                   Office of the Secretary,
                                 Washington, DC, December 30, 2004.
                             order no. 3258

Subject: Policy Guidance Concerning Land Valuation and Legislative 
Exchanges

    Sec. 1 Purpose. This Order provides policy for land valuation 
issues, real property appraisals, and legislative land exchanges.
    Sec. 2 Background. During the past year, the Department has taken 
significant steps to ensure that land transactions are conducted with 
integrity and earn public confidence. These steps include implementing 
reforms to improve the management of real property appraisals, 
establishing the Appraisal Services Directorate, and issuing the Land 
Transaction Principles. This Order provides the following: (a) a policy 
on alternative methods of valuation (AMV) that addresses the need to 
comport with nationally applicable appraisal standards; (b) a policy on 
appraisals prepared for third (i. e., non-Federal) parties; and (c) a 
policy on legislative exchanges that reinforces existing Departmental 
guidance and further provides for a Departmental determination on how 
to review such proposals internally to ensure appropriate coordination 
and decision making. The legislative exchange policy also underscores 
the importance of adhering to applicable appraisal standards in 
developing applicable legislative provisions.
    Sec. 3 Authority. The policy in this Order is being issued in 
accordance with the Uniform Appraisal Standards for Federal Land 
Acquisitions and the Uniform Standards of Professional Appraisal 
Practice.
    Sec. 4 Policy.
    a. Alternative Methods of Valuation.
    (1) All real property appraisals performed by the Department shall 
conform to nationally recognized appraisal standards (i. e., the 
Uniform Appraisal Standards for Federal Land Acquisitions and the 
Uniform Standards of Professional Appraisal Practice, as applicable). 
Accordingly, the use of public interest value, contingent valuation, 
habitat equivalency analysis, and any other AMV in appraisals is 
expressly prohibited.
    (2) If Congress directs the Department to utilize AMV other than or 
in addition to an appraisal in a specific transaction, the Department 
shall (a) expressly describe the AMV applied; (b) using the assistance 
of the Appraisal Services Directorate (ASD), explain how the AMV differ 
from appraisal methods applied under UASFLA or USPAP; and (c) upon 
Congressional direction, provide this material to the appropriate 
committees prior to or after completion of the transaction, in 
accordance with such direction.
    (3) Requirement for Congressional Authorization or Notification.
    (a) If the Department proposes to utilize AMV other than or in 
addition to an appraisal in a specific transaction that requires 
Congressional authorization, the Department shall expressly describe to 
the appropriate committees of Congress the AMV applied and, using the 
assistance of the ASD, explain how they differ from appraisal methods 
applied under UASFLA or USPAP.
    (b) If the Department proposes to utilize AMV other than or in 
addition to an appraisal in a specific transaction that does not 
require Congressional authorization, the Department shall notify the 
appropriate committees of Congress and the Office of the Inspector 
General prior to the completion of the transaction and, upon 
Congressional direction, explain, using the assistance of the ASD, to 
the appropriate committees how the AMV differ from appraisal methods 
applied under UASFLA or USPAP.
    (4) The Associate Director, ASD, has overall authority and 
responsibility to ensure the effective implementation of this policy, 
in coordination with the Office of the Special Trustee for American 
Indians (OST), as applicable, and the Office of Congressional and 
Legislative Affairs (OCL).
    b. Appraisals Prepared for Third (i.e., non-Federal) Parties.
    (1) Appraisals prepared for third (i. e., non-Federal) parties may 
assist in achieving mutually beneficial outcomes for the Department and 
the proponent. The Department of the Interior, however, is not 
obligated to review land transaction proposals supported by such 
appraisals that do not comport with its land management missions, 
priorities, and plans.
    (2) Upon bureau request, the Department, acting through the ASD or 
the OST, as applicable, shall review a third party appraisal if: (a) 
the third party consults with ASD or OST prior to the initiation of the 
appraisal on the scope of work and the selection of the appraiser, and 
agree that ASD or OST, as applicable, is both the client for and an 
intended user of the appraisal; (b) a senior bureau or Departmental 
manager (i. e., Senior Executive Service level in the field or 
headquarters, as applicable) has transmitted the appraisal with a 
determination that the land transaction proposal supported by the 
appraisal comports with applicable missions, priorities, and plans; and 
(c) ASD or OST, as applicable, has determined that the appraisal was 
prepared by a certified appraiser and meets applicable appraisal 
standards.
    (3) ASD or OST review of an appraisal does not create an 
expectation that such appraisal will be approved.
    (4) In cases where an appraisal is reviewed by ASD or OST, a second 
appraisal may be required. If so, ASD or OST shall conduct or oversee 
that appraisal, which shall be performed in accordance with procedures 
determined by ASD or OST, as applicable.
    (5) The Associate Director, ASD, has overall authority and 
responsibility to ensure the implementation of this policy in 
coordination with OST, as applicable, and the OCL.
    c. Legislative Exchanges.
    (1) All officials and employees of the Department shall adhere to 
461 DM I, which addresses requests for information, drafting, or other 
assistance regarding legislation from sources outside the Department, 
and specifically requires coordination with the Legislative Counsel in 
OCL.
    (2) Similar coordination with the OCL shall occur on legislative 
exchange proposals initiated by any entity, official, or employee of 
the Department.
    (3) The OCL shall determine the appropriate means for the review of 
each legislative exchange proposal, including the involvement of 
appropriate policy officials of other offices (e.g., the ASD or the OST 
as appropriate, and the Solicitor).
    (4) Appropriate documentation shall support the key provisions of 
all legislative exchange proposals.
    (5) All appraisals used in legislative exchanges shall conform to 
nationally recognized appraisal standards (i. e., the Uniform Appraisal 
Standards for Federal Land Acquisitions and the Uniform Standards of 
Professional Appraisal Practice, as applicable). When the Department 
proposes the application of alternative methods of valuation other than 
or in addition to an appraisal for a legislative exchange, it shall 
expressly describe the alternative methods of valuation and explain how 
they differ from methods utilized in an appraisal consistent with 
nationally recognized appraisal standards (i. e., the Uniform Appraisal 
Standards for Federal Land Acquisitions and the Uniform Standards of 
Professional Appraisal Practice, as applicable).
    (6) The Director, OCL, has overall authority and responsibility to 
ensure the effective implementation of this policy, in coordination 
with the Associate Director, ASD, as applicable.
    Sec. 5 Expiration Date. This Order is effective immediately. It 
will remain in effect until its provisions are converted to the 
Departmental Manual or until it is amended, superseded, or revoked, 
whichever occurs first. In the absence of any of the foregoing actions, 
the provisions of this Order will terminate and be considered obsolete 
on July 30, 2006.

                                            Gale A. Norton,
                                         Secretary of the Interior.

    Senator Craig. Chad, thank you very much.
    Joel, please proceed.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
               SYSTEM, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman, thank you for the opportunity to 
appear before you today in order to provide the Department's 
views.
    S. 2466, The Southeast Arizona Land Exchange and 
Conservation Act. I will limit my remarks to the provisions of 
the bill directly related to the National Forest System lands 
and will defer to the Department of the Interior on provisions 
relating to the lands managed by the Bureau of Land Management.
    S. 2466 directs the Secretary of Agriculture to convey to 
Resolution Copper Mining, the 3,025-acre Oak Flat parcel, all 
right, title, and interest of the United States, including a 
562-acre conservation easement for the Apache Leap escarpment. 
This conservation easement would provide permanent protection 
for the parcel from surface disturbance and ensure future 
public access and use. The bill directs simultaneous conveyance 
from Resolution Copper to the U.S. Secretary of Agriculture 
five parcels of land.
    S. 2466 also directs the Secretary of Agriculture to convey 
to the town of Superior, upon receipt of a request, the 30-acre 
town cemetery, approximately 181 acres adjacent to the Superior 
airport, and Federal reversionary interest in the 265-acre 
airport site already owned by the town.
    The Department believes the acquisition of the non-Federal 
parcels to be managed by the Forest Service is in the public 
interest and would provide protection for riparian habitat and 
water rights, archeological sites, lands along a permanently 
flowing stream, a year-round pond and an endangered cactus 
species. In this context, the Department supports the exchange 
as well as the valuation provisions. We would like to work with 
the Subcommittee and the bill sponsors on several 
recommendations and amendments such as:
    In section 4(a), which requires the Secretary to convey to 
Resolution Copper all right, title, and interest of the United 
States in and to the Federal land. However, it only requires 
Resolution Copper to convey to the Secretary of the Interior 
title to the non-Federal lands. To avoid any ambiguity in the 
nature of the titles to be conveyed by the United States and 
Resolution Copper, the titles should be described the same. So, 
we recommend, for instance, section 4(a) be amended to require 
Resolution Copper to also convey all right, title and interest 
to the non-Federal land.
    Section 8(a) also directs the Secretary to design and 
construct a campground on the Globe Ranger District as a 
replacement for the Oak Flat campground. Preliminary 
indications are that it may be difficult to find a suitable 
replacement within the Globe Ranger District. In order to 
ensure an appropriate campground replacement site can be 
located, we recommend the Secretary be provided the latitude to 
select a site within the Tonto National Forest, recognizing the 
desirability of doing it near the town of Superior as much as 
possible. We are also concerned that the $500,000 Resolution 
Copper is directed to pay for the replacement campground is 
unlikely to be sufficient, and suggest the legislation's 
directed payment protect the taxpayer's interest by reflecting 
the total costs of the campground replacement.
    We would like to work with the Subcommittee and the bill 
sponsors to work on these and other recommendations.
    Regarding S. 2567, The Eastern Sierra Rural Heritage and 
Economic Enhancement Act, this act provides for the designation 
of 39,680 acres of the Humboldt-Toiyabe National Forest as an 
addition to the Hoover Wilderness Area and 640 acres of the 
Humboldt-Toiyabe National Forest as an addition to the Emigrant 
Wilderness Area.
    The Act also provides for the continued operation and 
maintenance of the Piute Cabin, located in the western portion 
of the Hoover Wilderness Addition, as well as providing the 
appropriate direction for fire, insect and disease management 
activities, livestock grazing and fish and wildlife management.
    The West Hoover area contains the headwaters of the West 
Walker River with outstanding examples of East-side Sierra Pine 
Forest, leading up to the alpine crest of the Sierras. In 
addition, portions of the Pacific Crest Trail traverse through 
the area. The area is replete with high mountain meadows, 
craggy mountain crests, and fishable streams, as we saw in the 
pictures from Senator Boxer.
    The Department supports the designation of the wilderness 
additions since it is consistent with the Humboldt-Toiyabe 
Forest Plan direction, which recommended the area for 
wilderness designation.
    Section 5 of S. 2567 provides for the designation of 
approximately 24 miles of the Amargosa River under the Wild and 
Scenic Rivers Act. Four separate segments of the Amargosa would 
be designated under S. 2567. The Amargosa is the only free-
flowing river in the Death Valley area and as such provides a 
rare and lush riparian space. These 24 miles flow through lands 
managed by the Bureau of Land Management, and the BLM supports 
the designation, which is consistent with BLM planning and has 
strong local backing. The wild and scenic river designations in 
this bill are the result of a community-based effort, and an 
excellent example of cooperative conservation. This concludes 
my statement and I would be happy to answer any questions you 
may have.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
       System, Department of Agriculture, on S. 2466 and S. 2567

    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to appear before you today in order to provide the 
Department's view on S. 2466 and S. 2657.

 S. 2466--THE SOUTHEAST ARIZONA LAND EXCHANGE AND CONSERVATION ACT OF 
                                  2006

    I will limit my remarks to the provisions of the bill directly 
related to the National Forest System lands and will defer to the 
Department of the Interior on provisions relating to the lands managed 
by the Bureau of Land Management.
    S. 2466 directs the Secretary of Agriculture to convey to 
Resolution Copper Mining, LLC the 3,025 acre ``Oak Flat'' Parcel all 
right, title, and interest of the United States, including a 562 acre 
conservation easement for the Apache Leap escarpment. This conservation 
easement would provide permanent protection for the parcel from surface 
disturbance and ensure future public access and use. The bill directs 
simultaneous conveyance from Resolution Copper to the United States, 
Secretary of Agriculture the following five parcels of land: The 147-
acre Turkey Creek parcel in Gila County; the 148-acre Tangle Creek 
parcel in Yavapai County; the 149.3-acre Cave Creek parcel in Maricopa 
County; and the-266 acre JI Ranch parcel in Pinal County (all located 
within the Tonto National Forest); and the 640-acre East Clear Creek 
parcel in Coconino County located within the Coconino National Forest.
    S. 2466 also directs the Secretary of Agriculture to convey to the 
town of Superior, upon receipt of a request, the 30-acre town cemetery, 
approximately 181 acres adjacent to the Superior airport, and Federal 
reversionary interest in the 265-acre airport site already owned by the 
town.
    It is our understanding that upon completion of the land exchange, 
Resolution Copper would explore the possibility of developing a very 
deep copper mine within the Oak Flat parcel.
    The Department believes the acquisition of the non-federal parcels 
to be managed by the Forest Service is in the public interest and would 
provide protection for riparian habitat and water rights, archeological 
sites, lands along a permanently flowing stream, a year round pond and 
an endangered cactus species. In this context, the Department supports 
the exchange as well as the valuation provisions. We would like to work 
with the Subcommittee and the bill sponsors on several recommendations 
and amendments as follows:
    Section 4(a) requires the Secretary to convey to Resolution Copper 
all right, title, and interest of the United States in and to the 
Federal land. However it only requires Resolution Copper to convey to 
the Secretary or Secretary of Interior title to the non-Federal Lands. 
To avoid any ambiguity in the nature of the titles to be conveyed by 
the United States and Resolution Copper the titles should be described 
the same. We recommend Section 4(a) be amended to require Resolution 
Copper to also convey all right, title and interest to the non-Federal 
land.
    Section 4(c)(1) states that ``Not later than 60 days before 
carrying out the land exchange . . . , on receipt of a request from the 
town, the Secretary of Agriculture shall convey to the town . . . .'' 
Based on our experiences in land exchanges, standard land exchange 
procedures will not accommodate this prescribed time frame. Generally, 
requests for appraisal services and instructions to the appraiser are 
issued early in the exchange or sale process and many months in advance 
of closing. Normally, any request from the town would have to come 
before the request for appraisal services is issued by the Forest to 
determine the value of the parcels. To allow these parcels to be 
considered in the exchange, and to facilitate a timely conveyance to 
the town, we recommend that any appraisal of the lands be conducted 
concurrently with the appraisal of the lands identified in the 
exchange.
    Section 8(a) also directs the Secretary to design and construct a 
campground on the Globe Ranger District as a replacement for the Oak 
Flat campground. Preliminary indications are that it may be difficult 
to find a suitable replacement within the Globe Ranger District. In 
order to insure an appropriate campground replacement site can be 
located, we recommend the Secretary be provided the latitude to select 
a site within the Tonto National Forest. We are also concerned that the 
$500,000 Resolution Copper is directed to pay for the replacement 
campground is unlikely to be sufficient, and suggest the legislation's 
directed payment protect the taxpayer's interest by reflecting the 
total costs of the campground replacement.
    Section 8(c)(3) identifies areas to be closed to public use on 
enactment of the Act. Both recreational and exploratory mining uses of 
the area have coexisted for many years. When mining activities make 
public safety an issue, temporary closures are made. We would recommend 
the area closure be negotiated based on the needs expressed in mining 
plans of operations during the period between bill enactment and 
consummation of the exchange.
    We would like to work with the Subcommittee and the bill sponsors 
to insure the maps described in the bill are referenced and dated 
properly as well as some additional technically minor amendments as 
described in the attachment to this statement.
s. 2567--the eastern sierra rural heritage and economic enhancement act
    S. 2567 provides for the designation of 39,680 acres of the 
Humboldt-Toiyabe National Forest as an addition to the Hoover 
Wilderness Area and 640 acres of the Humboldt-Toiyabe National Forest 
as an addition to the Emigrant Wilderness Area.
    S. 2567 also provides for the continued operation and maintenance 
of the Piute Cabin located in the western portion of the Hoover 
Wilderness Addition as well as providing the appropriate direction for 
fire, insect and disease management activities, livestock grazing and 
fish and wildlife management.
    The West Hoover area contains the headwaters of the West Walker 
River with outstanding examples of East-side Sierra Pine Forest leading 
up to the alpine crest of the Sierra's. In addition, portions of the 
Pacific Crest Trail, a nationally significant National Scenic Trail 
traverse through the area before entering Yosemite National Park. The 
area is replete with high mountain meadows, craggy mountain crests, and 
fishable streams.
    The Department supports the designation of the wilderness additions 
since it is consistent with the Humboldt-Toiyabe Forest Plan direction 
which recommended the areas for wilderness designation.
    Section 5 of S. 2567 provides for the designation of approximately 
24 miles of the Amargosa River under the Wild and Scenic Rivers Act. 
Four separate segments of the Amargosa would be designated under S. 
2567 including one wild segments, two scenic segments and one 
recreational segment. The Amargosa, the ``Crown Jewel of the Mojave 
Desert,'' is the only free flowing river in the Death valley area and 
as such provides a rare and lush riparian space. These 24 miles flow 
through lands managed by the Bureau of Land Management (BLM). The BLM 
supports the designation which is consistent with BLM planning and has 
strong local backing. The wild and scenic river designations in this 
bill are the result of a community based effort, and excellent example 
of cooperative conservation.
    This concludes my statement and I would be happy to answer any 
questions you may have.
                                 ______
                                 
        Attachment to the Department of Agriculture's Statement 
                         Pertaining to S. 2466

    In Section 4(c)(1)(B)--Conveyance of Land to Town, in addition to 
the reversionary clause in the existing deed, there are some reserved 
mineral interests on the airport land. To eliminate potential future 
issues, we recommend amending the provision by inserting after the 
reversionary interest ``and any reserved mineral interest . . .''
    In Section 4(e)(2)(c) states that ``any other cost agreed to by 
Resolution Copper and the Secretary of Agriculture'' shall be the 
responsibility of Resolution Copper. To clarify that Resolution Copper 
is willing to pay costs of processing the exchange, we recommend 
including reasonable reimbursement to both the Secretary of Agriculture 
and Secretary of the Interior for the agency costs of processing this 
exchange.
    In Section 5(a)(4) we recommend amending the provision by adding 
the following language at the end of the clause: ``. . .and any other 
interests associated with the 1872 Mining Act.''
    Section 8(a) requires the Secretary to operate the Oak Flat 
Campground for two years or less if a replacement campground is 
constructed. However, Section 8(c) directs the Secretary to manage the 
Oak Flats area for public access until the land is transferred. We 
recommend Section 8(a) be amended to ``until the land is transferred.''

    Senator Craig. Gentlemen, thank you both. Let me ask a 
couple of questions here. Chad, as it relates to S. 2466, I'm a 
little confused with the testimony about wanting to be 
responsible for a parcel that would go to the State of Arizona 
for State parks for up to 5 years. I understand that a good 
portion of the land, 2,000 acres out of 2,160 acres that will 
become State park is currently BLM; yet I hear the BLM is 
concerned about maintaining responsibility for lands it already 
has responsibility to manage.
    While I can understand your concern about having to build 
or reconstruct a road in there, it seems a small price to pay 
when the agency is getting 2 acres for every 1 acre you're 
giving up. When did the Department of the Interior, or for that 
matter the BLM, begin assessing land exchange based on what is 
good for the BLM instead of what is good for the public?
    Mr. Calvert. Well, thank you, Mr. Chairman. That's a good 
question. Actually, the 2,000 acres the BLM currently manages 
is obviously not the problem for the BLM. The question that we 
have is, there is an expectation in the bill that a climbing 
park will be developed and BLM does not have the capacity to 
develop or manage or oversee a climbing park in that area right 
now. Really, the concern is about the 160 acres coming in and 
then passing along and it was simply our preference that that 
happened immediately, and if the conveyance of the 2,000 acres 
is to be envisioned as it is in the bill, that it just all 
happen at once and not have the BLM holding onto some land that 
is to be developed as a climbing park.
    Senator Craig. OK. Well, I think you can see my concern, 
because I recognize that agencies hold land in trust for the 
citizens and not necessarily for the benefit of the agencies 
and I was having a little more difficult time understanding 
that, if you will.
    On S. 2788, the Utah Recreational Land Exchange, I 
understand that there have been substantial negotiations on the 
House side of this legislation. Has the Department been 
involved in those negotiations and have changes occurred to 
address the Department's concern?
    Mr. Calvert. Yes, sir, as I've said, we've been working 
with the committee and with the sponsors of the bill on the 
House side to address a number of issues we raised in testimony 
last year. We have made considerable progress and a number of 
provisions of the bill have been modified substantially to 
address the concerns that we had that were primarily raised by 
the our Solicitor's Office and our Office of Appraisal.
    Senator Craig. OK. Under the provisions dealing with 
valuation of un-leased minerals, the Department of the 
Interior, and therefore the U.S. Government, would receive 
exactly what they would receive if those lands were leased by 
the BLM under the Mineral Leasing Act or under acts where the 
Federal Government receives royalties. Is this accurate and why 
would there be any concern over such a provision other than it 
is different than trying to appraise unknown minerals?
    Mr. Calvert. Thank you, because this is one of the issues 
we grappled with for months. And I think Senator Bennett put it 
best in saying this was a compromise achieved to meet a need. 
And the need is, how do you value. Primarily what we were 
concerned with was oil shale. There are massive oil shale 
resources in eastern Utah that would probably have no value in 
an appraisal because they are not foreseeable in the 
development and there would be no comparables by which to 
compare the property to. So this compromise was put together in 
an effort to hold the Federal Government harmless in the event 
that oil shale is developed because it wouldn't show up in a--
likely show up in an appraisal. We worked with them and the 
Secretary. Policy on appraisals is set up in such a way that we 
prefer using the standards, the appraisal standards, but where 
there may be an alternate method of valuation, such as here, it 
is simply our duty to tell you how we read it and how it would 
be implemented and how it might differ from standards and I 
think we tried to do that in the written statement for you.
    Senator Craig. I think you have, and I'll leave it at that. 
I understand that there is a uniqueness to this, a newness, and 
I think it was very creative. The unknown is out there, yet 
there is a reality that some day it may be of substantial 
value, and if there is one thing that you are responsible for, 
that's making sure that the public trust is held whole here, 
and I appreciate that.
    Joel, let me turn to you on S. 2466, the Arizona Resolution 
Copper Exchange. I see the Forest Service is concerned with the 
time allowed to identify and construct a replacement campground 
and the restriction that it be located in the Globe District. 
I'm told that two potential sites have already been identified 
and that, as part of the exchange, the Forest Service will be 
receiving the JI Ranch Parcel just up the road from Oak Flat, 
which was a water source that the Oak Flat site does not have. 
Can you provide me a detailed description of why you think it 
could take more than 2 years to get this done?
    Mr. Holtrop. I'd be happy to do so. And, actually, my 
understanding is there are three sites that the Forest is 
indicating to me that they are considering as potential sites 
on the Globe Ranger District. The circumstance is, each one of 
those parcels, including the JI Ranch Parcel, each one of those 
sites do have some issues associated with them. They might be 
issues around having the access necessary to access the 
campground. There are some issues around hazardous materials 
from former, prior mining activities in the area with a couple 
of cases. And then there are circumstances around cultural or 
heritage sites that would need to be mitigated along with the 
development of the campground. So it's the thought that we 
would need to do the NEPA analysis to select the most 
appropriate site to do the associated environmental analysis, 
including looking at the heritage sites, and then the site 
design, perhaps an access road design, contracting for all 
that. I thought it was appropriate to at least express a 
concern that the 2 years might be a short period of time for 
all of those steps to be taken.
    Senator Craig. Can you tell me when the last time was that 
a private entity has proposed to pay a half a million dollars 
to build a new campground in the National Forest System?
    Mr. Holtrop. I'm not aware of any time that that's 
happened.
    Senator Craig. I didn't think you were. And neither am I. 
And I think this is obviously a due diligence and a commitment 
on the part of the private entity to do the right thing.
    The Eastern Sierra Rural Heritage and Economic Enhancement 
Act, I'm fascinated by the title. Per the statement of the act, 
if I understand it, the Forest Service was directed in the 
early 1980's to manage this area as if it were wilderness until 
the Humboldt-Toiyabe National Forest plan was completed. Then, 
in the 1986 forest plan, the area was recommended to be 
designated as a wilderness. If I am correct, it has been 
managed as a wilderness since then. In fact, the September 2000 
Clinton administration roadless map showed this as wilderness. 
Thus, I am struggling to understand what the economic 
enhancement could be if this legislation is passed.
    The question is this, if Congress were to earmark $2 
million each year to manage the wilderness addition without 
increasing the overall recreation wilderness and heritage 
budget, a line item, how would that affect the agency's ability 
to manage other wildernesses?
    Mr. Holtrop. Well, maybe one of the best ways to think 
about the effect that that might have is the entire recreation 
and heritage and wilderness budget for the Humboldt-Toiyabe 
National Forest in this year is $2.3 million. Obviously, if $2 
million were earmarked without any additional increase for the 
management of the areas around the Hoover Wilderness addition, 
that would leave $300,000 remaining for the rest of the 
recreation, wilderness and heritage programs of the Humboldt-
Toiyabe that are currently requiring about $2.3 million. So, it 
would have an effect on the Humboldt-Toiyabe.
    We would almost certainly make a decision not to have the 
Humboldt-Toiyabe National Forest accept all of that additional 
responsibility, so it would be spread to the other areas, 
either throughout the inter-mountain region, or perhaps more 
likely, nationally. So it would have an effect on our ability 
to manage the rest of the system.
    Senator Craig. OK, if it is wilderness, and it hasn't had 
the title put to it, it's a wilderness study area. How much 
change will occur? How much more additional expense will occur 
if Congress so designates?
    Mr. Holtrop. I'm not aware that there would be significant 
additional expense because we are, as you indicated, instructed 
in our managing the area as wilderness at this time. The formal 
designation, there might be some additional expenses of signing 
and posting and boundaries and some of those types of things. 
There's an ongoing issue that--again, I'm not sure the formal 
designation changes the management of snowmobile use adjacent 
to the area, but that would be something that would continue to 
be an issue for us. But the actual designation would probably 
have a very limited impact on the use of the area.
    The Hoover Wilderness, the existing Hoover Wilderness is an 
area that is under a quota system, a recreation quota system on 
the trailheads. What would likely occur if this legislation 
were to pass, we would look at that quota system and add the 
trailheads that have been added to that and there may be some 
redistribution of the use. Those quotas on the trailheads 
generally fill up to capacity on weekends during the summers 
and early fall. So there might be some redistribution.
    Senator Craig. Well, I'm curious, because I understand when 
you hang a sign up you get greater attention, but I'm also 
curious as to how much the current use levels would change 
based on the reality of what we're actually proposing to do 
here, or is being proposed, from what it is to what it would 
be.
    Mr. Holtrop. I would certainly think that use that is local 
and regional in context, to those who are already aware of the 
area and recognize it as an area being managed as wilderness, 
would have--there would be very little difference with the 
wilderness designation. I would also think that there may be 
some national perspective, or people just traveling through the 
area, recognizing it as a nationally designated area. There may 
be some additional interest because of that.
    Senator Craig. Some of that happens. Well, gentlemen, thank 
you both. We'll work with you as we move toward a mark-up on 
these bills, too, and, of course, with the sponsors to make 
sure we get it right. We thank you both.
    OK. Now, let me call our final panel up. Mayor Michael 
Hing, mayor, town of Superior, AZ; Ms. Laura Kamala, director, 
Utah Lands--excuse me, director of Utah programs, Grand Canyon 
Trust, Castle Valley, UT; Bill Williams, vice president for 
health, safety, environment and construction, Resolution Copper 
Company, Phoenix, AZ; and John Anderson, associate director, 
School and Institutional Trust Lands Administration, Salt Lake 
City, UT.
    Mayor, we'll start with you. Please proceed.

               STATEMENT OF MICHAEL HING, MAYOR, 
                      TOWN OF SUPERIOR, AZ

    Mr. Hing. Thank you, Mr. Chairman. I am Michael Hing, mayor 
of Superior, AZ. I am pleased to submit this testimony on 
behalf of the town of Superior concerning S. 2466.
    My roots in Superior are deep. I was born and raised there. 
My grandparents opened their grocery store in the 1920's and I 
operate it now, with other members of my family. As a small 
businessman and active community member, I witnessed the town's 
success during boom times and its decline during busts. I plan 
to usher in a positive future for the town, and this land 
exchange is critical to that future.
    Please allow me to explain what I mean. When the Magma Mine 
was operating, our town was prospering and grew to 7,500 
people. Jobs were plentiful and Superior made a name for 
itself. But we depended on the mine for our well-being. Then, 
in 1987, Magma closed. Our community was devastated. The 
effects are lingering to this day. Our population shrank by 
more than half, to 3,500 residents. Major social problems 
surfaced as employment plummeted and people lost hope. Crime 
and drug use skyrocketed. Schools for our children lost 
funding, compromising our ability to provide a solid education. 
The mine left an environmental mess for others to clean up.
    As mayor, I've absorbed important lessons from witnessing 
that civic trauma. I know to never rely completely on mining 
again. Our economy needs to be diversified.
    That's why I am so pleased that Resolution Copper Company 
has come to Superior. The company's discovered a significant 
ore body 7,000 feet below the old Magma Mine. With such a major 
discovery, Resolution could've swept into Superior with a 
flourish of promises and new mining jobs and then abandoned us 
when the ore was exhausted. From the day company 
representatives first arrived, they looked to the town's 
future. They approached me with ways to build up our economy 
and to do it right. The company is just in the early stages of 
eventually extracting the ore, but its representatives are 
already helping the town plan for the day the mine closes.
    The company works with the schools, boosting math and 
science education to elementary-age children and providing 
summer jobs and college scholarships to our older youth. They 
have spent and are continuing to spend millions in voluntary 
efforts to clean up, reclaim and improve their lands and 
facilities. They have helped arrange economic development 
meetings with the Arizona Department of Commerce to shape an 
affordable plan that will diversify our economy in mining 
services, manufacturing, tourism, recreation and other 
businesses. They have hired local contractors, provided job 
training to local citizens. They are working to beef up our 
infrastructure, including establishing Superior as a wireless 
Internet zone. If the land exchange legislation is successful, 
Superior will gain valuable property and we can use it for even 
more economic development. In short, from the beginning, 
Resolution has worked with Superior and other communities with 
a vision of sustainable development.
    The company's willingness to build Superior's future is 
very important to our partnership. But even more important, 
company officials have been completely transparent about their 
operations. The company formed a citizens' committee to help 
town residents stay informed of company activities and give our 
input. They routinely ask our opinions and include us in 
critical decisions.
    I testify before you today as a partner with Resolution. 
The land exchange legislation before you is critical to our 
shared vision of the future. Resolution must complete the land 
exchange before it invests $2 billion in mine development.
    I will not bore you today with every detail of the 
exchange, which will streamline the now-fragmented ownership of 
3,000 acres in the Oak Flat area. Suffice it to say that the 
town, the State, the Governor, and members of our congressional 
delegation, including Senator Jon Kyl and Senator John McCain 
and Representative Rick Renzi, agree that Resolution Copper 
should acquire the land, including campgrounds and rock-
climbing areas. In return, the non-Federal properties that 
Resolution has assembled to convey to the United States for the 
exchange are spectacular in its contribution to wildlife 
habitat, protection of streams and other water resources, 
endangered species habitat, land conservation, and 
opportunities for recreation.
    Allow me to explain some of the other environmental 
benefits of S. 2466, which will include for Superior, 
surrounding communities and the State of Arizona.
    First, section 6 of S. 2466 permanently protects the Apache 
Leap escarpment, an environmental landmark above Superior that 
dominates our landscape. The Superstition Land Trust and 
Resolution Copper, working with the town, support the language 
of S. 2466, which ensures that the Apache Leap escarpment is 
never disturbed by development and remains as it is today. 
Additionally, Resolution will spend up to $250,000 to provide 
public access, trails, or trailheads to Apache Leap, if the 
Land Trust, local Indian tribes and town deem it appropriate.
    Second, Resolution, the town, and the U.S. Forest Service 
have been working together to identify a new campground or 
campgrounds for an existing 14-site Forest Service campground 
at Oak Flat. S. 2466 requires the Secretary of Agriculture to 
design and construct one or more replacements in the Globe 
Ranger District, and requires Resolution to pay up to $500,000 
for them.
    Third, Resolution will compensate for the loss of 
recreational rock climbing at Oak Flats. The company funded a 
large-scale search to find a bigger and better climbing area. 
The resulting find, less than 20 miles away, at Tam O'Shanter 
Peak, has sparked interest from climbers all over the world. 
The Arizona State Parks Board and the Arizona Legislature have 
recognized this incredible find and are pursuing a new State 
park there to devote to climbing. A bill is moving through the 
Arizona Legislature to authorize the park's creation, assuming 
that S. 2466 is enacted.
    The land exchange also creates a new economic opportunities 
for Superior, which, as you can see from the map attached to 
testimony, is largely surrounded by the Tonto National Forest. 
S. 2466 provides the town with an opportunity to acquire some 
of the adjacent property from the United States to meet 
anticipated growth.
    Also, the town's 30-acre cemetery is located on an isolated 
parcel of Federal land managed by the Tonto National Forest. 
While hundreds of our forefathers have been buried there for 
the past century, no authorization exists for our cemetery. S. 
2466 will allow the town to acquire the parcel at fair market 
value from the Forest Service.
    Additionally, the town owns a 265-acre parcel, which has a 
small landing strip. The property has a reversionary interest, 
so if it ever stops being used as an airport, it will be 
returned to the U.S. Government. The town wants to acquire the 
reversionary interest, and S. 2466 provides for a sale of the 
interest to the town at fair market value. Moreover, S. 2466 
provides that the town may acquire up to 181 additional acres 
of land contiguous to the airport, also at fair market value, 
and in a manner that provides the United States with manageable 
boundaries on retained parcels. These airport parcels represent 
a significant opportunity for the town in terms of future 
growth, economic diversification and development. The future 
airport use has been protected by the Arizona Department of 
Transportation. The Department's 5-year capital improvement 
plan includes the ability to relocate the airport if we choose.
    Finally, S. 2466 provides that if any land offered by 
Resolution exceeds the appraised value of the Federal Oak Flat 
parcel, any excess value can be applied to the town's purchase 
of the cemetery and airport parcels. Both Resolution and the 
town are anxious for the town to acquire these properties.
    Mr. Chairman, as our Governor has stated, the new mine is 
projected to produce 1,000 jobs during construction and 400 to 
600 permanent jobs, plus more than a 1,000 related and indirect 
jobs. The economic impact of the new mine will allow us to grow 
in a way that ensures our future for our children and 
grandchildren. The possibilities the mine holds for Superior 
and Arizona are among the many reasons that Governor Napolitano 
is joining us in strongly supported this land exchange.
    Thank you for the opportunity to testify today. And I would 
like to thank the members of our congressional delegation, 
including Senator Kyl, Senator McCain, and Representative Rick 
Renzi, for their efforts in bringing this legislation to 
fruition and our State delegation for providing this, the 
creation of a State park. The town of Superior urges your 
thoughtful consideration and timely passage of S. 2466, so that 
the land exchange, which is so important to our future, can be 
implemented at the earliest possible date. Thank you.
    Senator Craig. Mayor, thank you very much.
    Mr. Williams, please proceed.

 STATEMENT OF BILL WILLIAMS, VICE PRESIDENT, RESOLUTION COPPER 
                   COMPANY, LLC, PHOENIX, AZ

    Mr. Williams. Mr. Chairman, thank you for the opportunity 
to appear before you. My name is Bill Williams, I am the vice 
president for Resolution Copper. I am here in support of S. 
2466 and I'd like to take a few moments to describe to you the 
activities and the efforts that we've been engaged in over the 
last several years to get us to this stage, and hopefully be 
able to describe to you how we've tried to address the best 
interests of all parties involved.
    I know you have my written comments, so I'll just focus on 
a few key points.
    Senator Craig. If you would, please, yes. All of your full 
statements will be a part of record, so brevity is appreciated.
    Mr. Williams. Thank you. The purpose of this bill, of 
course, is to authorize the land exchange between Resolution 
Copper and the U.S. Government, the Forest Service and BLM. 
There are about 5,500 acres of Resolution property to be 
exchanged for about 3,025 acres of Forest Service lands, known 
as Oak Flats.
    And I'll point to the map here and just ask Mr. Poe to 
point out the town of Superior. The yellow area is our property 
and the green area that he's describing right there is actually 
the Oak Flats boundary limits. So, you can see that the 
property is directly adjacent to, and in some cases underneath 
or around--the ore body is around our property.
    Mining has been in the area, as you've heard, for almost 
100 years. The Magma Copper operations ran until 1996 and over 
the course of their operations produced some 25 million tons of 
copper. In about 1996 those operations shut down, and after 
that operation ceased to exist, further exploration was 
undertaken by my company looking for a deposit or looking at a 
deposit that was, again, near and underneath the old Magma 
mine. The scale of this ore deposit, as we currently see it, is 
quite significant. As you've heard before, it may be one of the 
world class ore deposits.
    However, it's risky. There's both technical risk and 
financial risk associated with this, as you've heard. Our 
depths are below 7,000 feet below surface. Rock temperatures in 
the mine, as we've measured with the drilling, exceed 180 
degrees Fahrenheit. So, it would be both technically 
challenging and financially challenging. But if we're 
successful, we expect that we will see some 200 to 400 full-
time employment jobs, more than 1,000 construction jobs during 
the period of construction, and at least 1,500, and perhaps 
more, service industry jobs that will be associated with the 
mining itself.
    However, we need to secure that property to be able to move 
the project forward. The Forest Service property, as I've 
indicated, is both adjacent to and intermingled with our own 
property. Consolidation of our holdings for this operation will 
promote an efficient operation for exploration and potential 
development and will ensure public safety occurs during the 
time that we're active on the site.
    We understand that we have an obligation to offer lands 
that are of great value to the public, at least as great as the 
property that we receive. And I'd like to highlight, on the 
next map, eight parcels which we bring to the table for 
exchange purposes.
    The first is 7 miles of river bottom and riparian lands 
along the San Pedro River. Quite a unique environmental habitat 
in of itself. Two miles of riparian aquatic habitat along the 
Clear Creek and Coconino National Forest, one of Arizona's 
largest and perhaps most ancient mesquite forests. Almost 1,000 
acres of diverse grassland in the Appleton-Whittell Research 
Ranch. This property is jointly managed by the Forest Service, 
BLM and the Audubon Society. Four parcels in the Tonto National 
Forest, which have very significant riparian and ecological and 
cultural and historic amenities, including a population of the 
endangered Arizona hedgehog cactus, and 160 acres, as you've 
heard, for rock climbing and perhaps another 160 acres to come 
in.
    In summary, the gain for the people of United States is 
river bottoms and sensitive riparian lands, habitat and 
potential habitat for threatened, endangered and sensitive 
species, public recreational opportunities, cultural historic 
resources, habitat for a large variety of flora and fauna and a 
year-round water resource.
    Sir, we also, though, understand that the appraisal process 
is a sensitive matter. The appraisal process will be under the 
control of the Forest Service and under the direction of the 
Secretary of Agriculture with the final approval resting there. 
All appraisals will be conducted in accordance with U.S. 
standards, appraisal standards. And even though mineral 
appraisal is difficult, we don't want any allegations that the 
taxpayers may not be getting full, unrestricted value. 
Therefore, all the land will be appraised as if no mineral 
existed on property.
    I'd like to just close, sir, by indicating that we think we 
have engaged in an effort to engage stakeholders around the 
area. We're aware that there are a few issues that remain both 
with the Federal Government as well as with the Apache Nation. 
I'm confident that we have the people in place and the process 
is in place to resolve those issues. Thank you for your time, 
and thank you for the courtesy of your staff. I am happy to 
answer questions.
    [The prepared statement of Mr. Williams follows:]

Prepared Statement of Bill Williams, Vice President, Resolution Copper 
                        Mining, LLC, on S. 2466,

    Mr. Chairman and Members of the Subcommittee, my name is Bill 
Williams, and I am Vice President of the Resolution Copper Company, a 
limited liability corporation headquartered in Superior, Arizona. I am 
here in support of S. 2466, and to briefly describe the activities and 
efforts we have engaged in over the past several years to insure that 
the land exchange and other provisions of S. 2466 are in the best 
interest of all the parties involved, and the general public.
    The primary purpose of S. 2466 is to authorize, direct and expedite 
a land exchange between Resolution Copper and the U.S. Forest Service 
and Bureau of Land Management. The goal of the land exchange, from our 
perspective, is for us to acquire approximately 3,025 acres of National 
Forest land known as Oak Flat. As you can see on the map attached at 
the end of my testimony, Oak Flat either abuts, or is heavily 
intermingled with, private land which Resolution Copper already owns. 
That private land was the site of the Magma underground copper mine, 
which operated from 1912 to 1996 and produced 25 million tons of copper 
ore. After the Magma Mine was shut down in 1996, further exploratory 
drilling revealed the existence of a potentially very significant, and 
large, copper deposit located not just under our old mine, but also 
under the intermingled National Forest lands we are seeking to acquire 
in the exchange. As our Governor, Janet Napolitano, has indicated in 
endorsing our land exchange, if the copper ore body we have discovered 
can be developed into a mine, it will generate nearly 1,000 
construction jobs; 400 permanent, high quality technical jobs; and 
nearly 1,500 service related provisions.
    Despite the fact that we currently hold unpatented Federal mining 
claims on most of the National Forest land we are seeking to acquire, 
the fragmented and interspersed nature of our lands and the National 
Forest lands makes it far preferable for us to own and control all the 
land where we could potentially be mining in the future. Developing an 
underground mine--this one would be a mile and a half beneath the 
surface--is an extremely expensive and financially risky proposition--
involving $200-400 million in exploration and feasibility work . . . 
and $1 billion, or more, before mine construction is finished, and 
minerals are produced in commercial quantities. We want to own the land 
on which we will operate, because fragmented land ownership simply does 
not promote efficient mine permitting and development. In addition, as 
we will be intensively using the National Forest land for exploration 
and mine development, it will become unusable by the general public due 
to safety and operational concerns. In summary, Mr. Chairman, for 
safety and many other reasons, we would like to own and control the 
lands where we will be exploring, and hopefully re-opening, our mine.
    Now, we realize that when we are asking to take land out of public 
ownership, it is our duty, both under existing law and policy, to try 
and return to the public lands that have even greater public values 
than the lands we are receiving. We think we have done that.
    As S. 2466 now stands, Resolution Copper has either purchased or 
optioned 8 parcels of land, totaling approximately 5,539 acres, to 
convey to the United States in the exchange. Whereas most of the Oak 
Flat parcel, as its name implies, is relatively flat, and has no 
permanent water--the 8 parcels we have assembled for exchange are 
exceptionally rich in ecological, recreational and other values . . . 
and many of them have significant water resources. Their attributes 
include: 1) seven miles of river bottom and riparian land along both 
sides of the free flowing San Pedro River; 2) two miles of riparian and 
aquatic habitat along East Clear Creek in the Coconino National Forest; 
3) one of the largest, and possibly most ancient, mesquite forests (or 
bosques) in Arizona; 4) almost 1000 acres of extremely diverse 
grassland habitat in the Appleton-Whittell Research Ranch--which is an 
existing preserve jointly managed by the Forest Service, BLM and 
Audubon Society inside the Las Cienegas National Conservation Area; 5) 
four inholdings in the Tonto National Forest which have very 
significant riparian, ecological, cultural, historic and recreational 
amenities, including populations of the endangered Arizona hedgehog 
cactus and a rare pond fed by a year-round stream; and 6) a 160 acre 
parcel with cliffs for rock climbing that will be added to the proposed 
rock climbing State Park which S. 2466 will help establish. We are 
still working at acquiring a ninth parcel, which will be added to our 
exchange package, and to the rock climbing State Park, if we are 
successful.
    All told, therefore, this land exchange will result in very 
significant net gains to the United States in: 1) river bottoms and 
sensitive riparian lands; 2) habitat, or potential habitat, for 
threatened, endangered and sensitive species; 3) public recreational 
opportunities; 4) cultural and historic resources; 5) habitat for 
innumerable species of flora and fauna; and 6) year-round water 
resources--a rarity in many parts of Arizona.
    At this point, I would like to submit letters for your record from 
Arizona Audubon, the Trust for Public Land, the Nature Conservancy, the 
Sonoran Institute, the Arizona Game and Fish Department, and the 
Superstition Area Land Trust further describing the ecological and 
other benefits of the lands we have acquired for this exchange, and 
strongly endorsing their acquisition by the public.
    Mr. Chairman, we have also agreed to several provisions in S. 2466 
which are designed to insure that the taxpayers get full fair market 
value in this land exchange . . . and that any facilities or activities 
we displace in acquiring the Oak Flat land are adequately replaced or 
improved upon. I will briefly describe those provisions in the order 
they appear in S. 2466:

  <bullet> Subsection 5(a) of S. 2466 provides that all appraisals will 
        be conducted in accordance with U.S. appraisal standards, and 
        in accordance with Forest Service issued appraisal 
        instructions. Further, the appraisals must be formally reviewed 
        and approved by the Secretary of Agriculture, meaning that the 
        appraisal process will be under the Forest Service and 
        Secretary's of Agriculture's complete supervision and control.
  <bullet> We realize that mineral appraisals can be difficult, 
        especially where unpatented Federal mining claims are involved. 
        Accordingly, we have agreed in subparagraph 5(a)(4) of S. 2466 
        to have the Oak Flat parcel, which is 75% overlain by our 
        mining claims, appraised as if our mining claims do not exist. 
        We believe that is an extremely significant concession on our 
        part. We agreed to it because we do not want any allegations 
        that the taxpayers are not getting full, unrestricted fair 
        market value for the land they are giving up in the exchange.
  <bullet> To protect the portion of the Oak Flat parcel that comprises 
        the famous Apache Leap--a dramatic cliff area that is the 
        scenic backdrop to Superior, Arizona--we have agreed in Section 
        6 of the bill to a permanent 562 acre conservation easement 
        that will prevent us from ever disturbing the surface area of 
        Apache Leap. We have also agreed to have the entire 562 acre 
        conservation easement area appraised as if the easement were 
        not required. Once again, that guarantees that the United 
        States will receive full, unrestricted value for its land.
  <bullet> Another issue which arose in our deliberations was the 
        replacement of the Forest Service's Oak Flat Campground, which 
        has 16 developed campsites on the land we are seeking to 
        acquire. To address that, subsection 8(a) of the bill provides 
        for a replacement campground or campgrounds, with Resolution 
        Copper paying up to $500,000 of the costs thereof.
  <bullet> Lastly, Mr. Chairman, we are aware that the Oak Flat area, 
        as well as areas of our existing private land adjacent to Oak 
        Flat, are areas currently used for rock climbing. To 
        accommodate the loss of rock climbing, we have agreed to three 
        separate actions. First, subsection 8(b) of S. 2466 facilitates 
        the establishment of a new State Park in the Arizona State 
        Parks System near Hayden and Kearny, Arizona,

    The Park will be dedicated to rock climbing and other outdoor 
recreation. To assist in the Park's establishment, we have agreed to 
pay up to $500,000 for a road to access the Park . . . and as 
previously mentioned, we have already optioned a 160 acre parcel of 
land for inclusion in the Park, and are working on acquiring a second 
160 acre parcel.
    To further accommodate rock climbing, we have just signed a private 
license agreement with the Access Fund, which is an organization 
representing U.S. rock climbers. The license authorizes continued rock 
climbing on two parcels of our existing private land, and one parcel we 
will acquire from the Forest Service. In that regard, I would like to 
submit a letter we have just received from the Access Fund endorsing 
the bill
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions the Subcommittee might have.

    Senator Craig. Mr. Williams, thank you very much.
    Now, let us turn to you, Laura.

  STATEMENT OF LAURA KAMALA, DIRECTOR OF UTAH PROGRAMS, GRAND 
                CANYON TRUST, CASTLE VALLEY, UT

    Ms. Kamala. Mr. Chairman, thank you for the opportunity to 
speak on behalf of S. 2788, the Utah Recreational Land Exchange 
Act, which my organization strongly supports.
    The Grand Canyon Trust, now in our 21st year, is a non-
profit conservation organization headquartered in Flagstaff, AZ 
with an office in Moab, UT. Our mission is to protect and 
restore the Colorado Plateau, its spectacular landscapes, 
flowing rivers, clean air, diversity of plants and animals, and 
areas of solitude and beauty.
    S. 2788 will protect valuable recreational lands, critical 
watersheds, cultural resources, essential wildlife habitat, 
lands of extraordinary scenic beauty and lands in Wilderness 
Study Areas by conveying sensitive State-owned lands in the 
Colorado River corridor and near Dinosaur National Monument and 
in the Butte cliffs to the Bureau of Land Management. This area 
is currently a checkerboard of Federal lands and Utah State 
Trust Lands, which the State is mandated to manage for benefits 
of Utah's school children by raising dollars for the Permanent 
School Fund. This is accomplished primarily through leasing the 
lands for minerals development or selling the lands for private 
development. Since conservation dollars cannot keep pace with 
the disposition of State lands, the proposed land exchange is 
the only viable way to keep such a broad and cherished 
landscape from becoming fragmented. Preservation of this 
landscape is in the interest of members of the Grand Canyon 
Trust and the American public, since the existing Federal 
estate in southeast Utah is a national treasure.
    I would also like to submit, if I may, to you, Mr. 
Chairman, a copy of this book by the photographer, Tom Till, 
``In the Land of Moab'', which illustrates many of the 
properties that are proposed for exchange.
    Senator Craig. Thank you. We'll make that a part of the 
record.
    Ms. Kamala. In addition, protecting the above stated land 
values is consistent with Grand County's economy, which is 
based on tourism. In 2005, the Governor's Office of Planning 
and Budget reported the tourism industry provided $100 million 
to Grand County's economy, which is significant for a small 
Utah town. And I've also heard from business owners in town, 
this year, that their business is up 10 to 15 percent.
    SITLA, or Utah State Trust Lands, will receive Federal oil 
and gas development property in Uintah County, slated for 
development regardless of ownership, ensuring new revenues for 
the beneficiaries. We support this public benefit for education 
in the State of Utah. In Uintah County, minerals development is 
the primary force in the local economy.
    Cooperating with Grand Canyon Trust, Southern Utah 
Wilderness Alliance and Utah Wilderness Coalition, Utah State 
Trust Lands vetted the proposed exchange lands, and these 
groups now approve of the map and the selected lands. Grand 
Canyon Trust also worked with The Nature Conservancy and the 
Utah Natural Heritage Program to map threatened, endangered and 
sensitive species, both plant and animal, on the proposed 
exchange lands, and using current data, we found no habitat 
overlap on lands that SITLA would acquire for development, 
while TES species do exist on lands being conveyed to the BLM, 
where they would better protected under Federal law.
    Since the House hearing on the proposed legislation in 
September 2005, Grand Canyon Trust has attended meetings of the 
House Subcommittee on Forests and Forest Health and we are very 
grateful to the staff and the agencies for their cooperation 
with one another and the many hours of time that were devoted 
to making a better bill, which is reflected in S. 2788.
    Grand Canyon Trust supports the fair and equal exchange of 
values for the trade. We also support the rolling conveyance of 
the lands as provided in the legislation.
    There have been numerous acquisitions of SITLA lands in 
Grand County in recent years by individuals and conservation 
organizations for the purpose of preserving open space and 
recreational lands, for protecting watersheds and wildlife 
habitat. This reflects a very strong desire and commitment of 
private resources for protecting this spectacular landscape.
    As Director of the Southeastern Branch of Utah Open Lands, 
I was deeply engaged in several conservation initiatives, 
raising millions of dollars to purchase SITLA lands. In the 
current economy, it has become difficult to procure funding for 
conservation initiatives, and legislative land exchanges are 
now a very important conservation tool.
    The Grand Canyon Trust also supports the withdrawal of oil 
and gas leasing on BLM lands in the Castle Valley municipal 
watershed where 5,280 acres of SITLA lands are slated to be 
conveyed to the BLM. The town of Castle Valley has a Sole 
Source Aquifer designation from the Environmental Protection 
Agency and a Pristine Water designation from the Utah 
Department of Environmental Quality. Recent hydrological 
studies by the Utah Geological Survey show that the aquifer is 
vulnerable to contamination due to fractured geology. We also 
support oil and gas leasing withdrawals on recreational lands 
in the exchange where mineral values are low to negligible, as 
under section 6(a)(2)(b) of the bill.
    And in closing, Mr. Chairman, the Utah Recreational Land 
Exchange Act has a very broad coalition of support, from rural 
Republican county commissioners to conservation organizations. 
In the State of Utah it is rare to have consensus of this kind 
for a public lands proposal. Our colleagues at The Nature 
Conservancy, Utah Open Lands, Red Rock Forests, and the 
Southern Utah Wilderness Alliance are supporting this bill, S. 
2788. Grand, Uintah and San Juan counties, the town of Castle 
Valley, the city of Moab, the Governor's Task Force on Outdoor 
Recreation, Utah Guides and Outfitters and tourist-dependent 
businesses in southeast Utah all support the legislation. The 
Grand Canyon Trust believes that S. 2788 provides the 
opportunity for a successful legislative land exchange to take 
place and we look forward to that eventual outcome. Thank you, 
again, for the opportunity to speak.
    [The prepared statement of Ms. Kamala follows:]

    Prepared Statement of Laura Kamala, Director of Utah Programs, 
                     Grand Canyon Trust, on S. 2788

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to speak on behalf of S. 2788 the Utah Recreational Land 
Exchange Act of 2006, which my organization strongly supports.
    The Grand Canyon Trust, now in our 21st year, is a non-profit 
conservation organization headquartered in Flagstaff, Arizona with an 
office in Moab, Utah. Our mission is to protect and restore the 
Colorado Plateau--its spectacular landscapes, flowing rivers, clean 
air, diversity of plants and animals, and areas of solitude and beauty.
    S. 2788 the Utah Recreational Land Exchange Act of 2006 will 
protect valuable recreational lands, critical watersheds, cultural 
resources, essential wildlife habitat, lands of extraordinary scenic 
beauty and lands in Wilderness Study Areas by conveying sensitive 
state-owned lands in the Colorado River corridor to the Bureau of Land 
Management. The area is currently a checkerboard of federal lands and 
Utah State Trust Lands (SITLA) which the state is mandated to manage 
for benefit of Utah's school children by raising dollars for the 
Permanent School Fund. This is accomplished primarily through leasing 
the lands for minerals development or selling the lands for private 
development. Since conservation dollars cannot keep pace with the 
disposition of state lands, the proposed land exchange is the only 
viable way to keep such a broad and cherished landscape from becoming 
fragmented. Preservation of this landscape is in the interest of 
members of the Grand Canyon Trust and the American public, since the 
existing federal estate in southeast Utah is a national treasure.
    In addition, protecting the above stated land values is consistent 
with Grand County's economy, which is based on tourism. In 2005, the 
Governor's Office of Planning and Budget reported that the tourism 
industry provided $100 million dollars to Grand County's economy. This 
year, tourism related business owners have told me their business is up 
10 to 15 percent.
    SITLA will receive federal oil and gas development property in 
Uintah County, slated for development regardless of ownership, ensuring 
new revenues for their beneficiaries. We support this public benefit 
for education in the state of Utah. In Uintah County, minerals 
development is the primary force in the local economy.
    Cooperating with Grand Canyon Trust, Southern Utah Wilderness 
Alliance and Utah Wilderness Coalition, SITLA vetted the proposed 
exchange lands and these groups now approve of the selected lands. 
Grand Canyon Trust worked with The Nature Conservancy and the Utah 
Natural Heritage Program to map TES (Threatened, Endangered, Sensitive) 
species, both plant and animal, on the proposed exchange lands. Using 
current data, we found no habitat overlap on lands SITLA would acquire 
for development while TES species do exist on lands being conveyed to 
BLM where they would ostensibly have better protection under federal 
laws.
    Since the House hearing on the proposed legislation in September 
2005, Grand Canyon Trust has attended meetings of the House 
Subcommittee on Forests and Forest Health. Committee staff and 
officials from Department of the Interior, Bureau of Land Management 
and Utah State Trust Lands have revised HR 2069 the Utah Recreational 
Land Exchange Act of 2005, to address issues raised at the House 
hearing. We are grateful to the staff and agencies for their 
cooperation with one another and many hours of time devoted to drafting 
a better bill which is reflected in S. 2788.
    Grand Canyon Trust supports the fair and equal exchange of values 
for the trade. We also support rolling conveyance of the lands as 
provided in the legislation.

                             THE LANDSCAPE

    In southeast Utah, the spectacular 1200 square mile basin of 
Canyonlands National Park lies at the geographic heart of the Colorado 
Plateau. Here, 300 million years of geologic history are revealed in 
the deep canyons of the Colorado and Green Rivers. The downward cutting 
movement of the rivers and their tributaries, through layers of 
sedimentary rock, continues to form one of the largest and most 
intricate canyon systems on earth. Upstream on the Green River are 
Labyrinth and Stillwater Canyons, and on the Colorado River, the twin 
jewels of Arches National Park and Westwater Canyon. S. 2788 will 
consolidate federal lands for consistent management in this landscape 
of the Colorado River corridor.
    This extraordinary geologic province is filled with the greatest 
density of natural arches in the world; Morning Glory Arch and Corona 
Arch will be conveyed to the federal estate in the proposed exchange. 
Pinnacles, rock fins, grottos, balanced rocks, hoodoos and natural 
bridges abound, sheltering a richness of species in diverse habitats. 
Mountain ranges provide watersheds that give life to the adjacent 
desert country. Vast expanses of bare red rock are broken by lush 
riparian areas, ephemeral pools, grassland and sage steppes. In this 
land of extremes, temperature fluctuations of 50 degrees in one day are 
common, animals and plants have evolved unique adaptations to survive 
and many of these species are endemic to the region. In addition, 
southeast Utah contains one of the world's great archaeological 
districts where priceless treasures from the past are abundant. S. 2788 
will convey lands like these to the BLM where they can be managed to 
protect their values for the American public.

                          CONSERVATION VALUES

    There have been numerous acquisitions of SITLA lands in Grand 
County in recent years by individuals and conservation organizations 
for the purposes of preserving open space and recreational lands, for 
protecting watersheds and wildlife habitat. This reflects a very strong 
desire and commitment of private resources for protecting this 
spectacular landscape. Lands offered in the exchange will have higher 
or lower conservation values; it is the appraiser's job to determine 
these values. Developers and even Off Highway Vehicle groups have 
outbid conservationists and purchased SITLA lands in the area for their 
private uses. Conservation sales can be comparable sales in a very 
competitive market.
    As Director of the Southeastern Branch of Utah Open Lands, I was 
deeply engaged in several conservation initiatives, raising millions of 
dollars to purchase SITLA lands. In the current economy it has become 
difficult to procure funding for conservation initiatives, legislative 
land exchanges are now a very important conservation tool. 
Approximately 350,000 acres of SITLA lands remain in Grand County and 
some naturally possess conservation values, such as those adjacent to 
Arches National Park. It would be impossible to purchase all sensitive 
SITLA lands to protect them, therefore the Grand Canyon Trust and other 
conservation organizations working in the state support successful land 
exchange legislation as a common sense solution for protecting these 
important landscapes.

                      MANAGEMENT OF CONVEYED LANDS

    Southeast Utah's living Eden of canyons mesas and deep river gorges 
attracts recreational users from all over the world who come to hike, 
mountain bike, climb, run rivers, ride horses, ski and explore via 
jeeps and all-terrain vehicles. In recent years, an exponential 
increase in visitation to the public lands has demonstrated the 
necessity for good planning to accommodate the multiple use mandates on 
federal lands.
    The Moab BLM Field Office is currently revising its Resource 
Management Plan. Lands being conveyed to the BLM in the exchange will 
be managed according to the plan that is now being designed for lands 
currently in BLM ownership which surround the proposed exchange 
parcels. The Moab BLM planning team has stated that, in the Colorado 
River corridor, they are working to be consistent with the Three Rivers 
withdrawal signed by Secretary Norton in September 2004. This 
withdrawal protects two hundred miles of Colorado, Green and Dolores 
River corridors and an additional fifty miles of side canyons from 
nuisance mining claims on locatable minerals for twenty years. Moab BLM 
planners have written special management designations into their 
preferred alternative, which they revealed at a Grand County meeting 
this Spring, to protect scenic and recreational values in the river 
corridor.
    Grand Canyon Trust supports the withdrawal of oil and gas leasing 
on BLM lands in the Castle Valley municipal watershed where 5,280 acres 
of SITLA lands are slated to be conveyed to the BLM. The Town of Castle 
Valley has a Sole Source Aquifer designation from the Environmental 
Protection Agency and a Pristine Water designation from the Utah 
Department of Environmental Quality. Recent hydrological studies by the 
Utah Geological Survey show that the aquifer is vulnerable to 
contamination due to fractured geology. We also support oil and gas 
leasing withdrawals on recreational lands in the exchange where mineral 
values are low to negligible.

                                CLOSING

    The Utah Recreational Land Exchange Act of 2006 has a very broad 
coalition of support, from rural Republican county commissioners to 
conservation organizations. In the state of Utah it is rare to have 
consensus of this kind for a public lands management proposal. 
Conservation organizations were involved early on with the design of 
the legislation and the process has been transparent. Our colleagues at 
The Nature Conservancy, Utah Open Lands, Red Rock Forests and Southern 
Utah Wilderness Alliance join us in supporting S. 2788. Grand, Uintah 
and San Juan counties, the Town of Castle Valley, the City of Moab, the 
Governor's Task Force on Outdoor Recreation, Utah Guides and Outfitters 
and tourist dependent businesses in southeast Utah also support the 
legislation. The Grand Canyon Trust believes S. 2788 provides the 
opportunity for a successful legislative land exchange to take place 
and we look forward to that eventual outcome.

    Senator Craig. Thank you very much.
    Now let's turn to Mr. Andrews, associate director, School 
and Institutional Trust Lands Administration, State of Utah. 
John, welcome to the committee.

 STATEMENT OF JOHN W. ANDREWS, ASSOCIATE DIRECTOR, UTAH SCHOOL 
          AND INSTITUTIONAL TRUST LANDS ADMINISTRATION

    Mr. Andrews. Thank you, Mr. Chairman, for the opportunity 
to testify. I'd also like to thank Senator Bennett and his 
staff for their long and tireless efforts in bringing this 
proposal to where it is today.
    The School and Institutional Trust Lands Administration, 
SITLA, manages 3.5 million acres of State lands in the State of 
Utah that are dedicated to the financial support of public 
schools and other public institutions. Most of the State Trust 
Lands in Utah are checkerboarded among BLM lands. That has 
created the significant management problems over the years, 
both for BLM and for the State. The BLM's management objectives 
are multiple use, often including recreation and conservation. 
Our mandate is to provide revenue for the public school system.
    Those conflicts have, as Senator Bennett indicated, created 
a situation where large-scale land exchanges are a necessary 
solution for resolving significant, long-standing problems. 
This exchange is a proposal that meets that goal. As Ms. Kamala 
and other witnesses have indicated, this is the rare situation 
in Utah Public Lands Management where there is a broad 
consensus. The Utah Public Lands are notoriously controversial 
among the various constituencies. We have found unity here.
    Particularly since the time that the House bill was heard 
last September, we have worked for many hours and we greatly 
appreciate the large amounts of time that the Department of the 
Interior, the BLM, the environmental community, and both the 
majority and minority staff on the House side have spent to 
bring this legislation along.
    In particular, since that hearing, we have added 
significant lands to the exchange. We have added lands that are 
valuable open space in the vicinity of the city of Moab. We've 
added lines in the Behind-the-Rocks Wilderness Study Area and 
other scenic areas. Where we did identify lands that might have 
a conflict with threatened and endangered species, we removed 
those from the exchange.
    Similarly, we have added very significant provisions for 
public input and review of appraisal documentation and for the 
creation of resource reports that will permit the relevant 
Congressional Committees and the general public to have review 
of specific resources on the Federal lands that are being 
conveyed. That has been a major change.
    Finally, we have dropped previously controversial language 
dealing with the valuation of conservation lands. We have 
instead incorporated the provisions of the Federal Land Policy 
and Management Act and the associated valuation regulations. 
The result is that we will have a very transparent and 
independent valuation process that will both involve the 
Interior Appraisal Services Directorate and independent 
appraisers. A clear and transparent and independent valuation 
will be the model in this exchange.
    We recognize that there will remain a few minor questions 
and concerns, which I can address, although, to some extent, 
Mr. Calvert particularly has addressed some of the mineral 
valuation issues. But we believe that, even at this point, 
we've come 98 percent of the way.
    There is another reason, though, that there's a broad 
consensus on this exchange and that's the lands that are 
involved. The lands that will be exchanged to the United States 
are truly spectacular. I think that anywhere but in Utah, they 
would, in themselves, be a national park. Our testimony has 
appended to it, and Ms. Kamala has also provided, additional 
photographs that show the outstanding nature of the lands. 
Corona Arch, Morning Glory Arch, they're some of the largest 
free-standing natural arches in the United States.
    At the current time, of course, in school trust ownership, 
the lands are dedicated by Federal law and by the Utah 
Constitution to the production of revenue. We recognize that 
these lands are best suited in Federal ownership and this 
exchange is designed to promote that.
    I would be happy to answer any questions that the committee 
would have with respect to mineral valuation. Our proposal, as 
Mr. Calvert has noted, and Senator Bennett, it's a simple and 
fair solution for complicated problem. It will keep the U.S. 
Treasury whole, for as long as minerals are produced, it will 
keep revenues flowing into the Federal Treasury, as would have 
been the case had the lands had been retained in Federal 
ownership.
    We ask for the committee's support for that provision 
particularly and for the legislation in general. Thank you very 
much.
    [The prepared statement of Mr. Andrews follows:]

Prepared Statement of John W. Andrews, Associate Director, Utah School 
        and Institutional Trust Lands Administration, on S. 2788

    Mr. Chairman, and members of the Subcommittee, thank you for the 
opportunity to testify today. I would also like to thank Senators 
Bennett and Hatch of the Utah Congressional delegation, and their 
colleagues in the House of Representatives, for their work and 
assistance in connection with the legislation now before the 
Subcommittee.
    My name is John W. Andrews, and I am the Associate Director of the 
Utah School and Institutional Trust Lands Administration (``SITLA''), 
an independent state agency that manages more than 3.5 million acres of 
state school trust lands within Utah that are dedicated to the 
financial support of public education.

                       THE PROPOSED LAND EXCHANGE

    I encourage the Subcommittee, and Congress, to act favorably on S. 
2788, the Utah Recreational Land Exchange Act of 2006. This legislation 
is the product of several years of discussions between the State, local 
governments, the environmental community, and federal land managers. At 
a time when most issues relating to Utah's public lands are accompanied 
by controversy and dispute, the proposed exchange is supported by rural 
county governments, various environmental groups, representatives of 
the outdoor recreation industry in Utah, and the Utah legislature. We 
have worked hard to put together an exchange that will be fair and 
transparent financially, workable in implementation, and conducive to 
more effective land management by both state and federal governments. 
We believe that the Utah Recreational Land Exchange Act meets all of 
these goals.
    In summary, S. 2788 authorizes the conveyance to the United States 
of approximately 42,342 acres of Utah state school trust lands and 
minerals within and near Utah's Colorado River corridor, the Book 
Cliffs, and areas near Dinosaur National
    Monument. In return, the State of Utah will receive approximately 
40335 acres of federal lands in eastern Utah with lesser environmental 
sensitivity but greater potential for generating revenue for Utah's 
public education system--the purpose for which Congress originally 
granted trust lands to Utah and the other western states.

             REVISIONS TO PREVIOUSLY-INTRODUCED LEGISLATION

    The proposed Act was originally introduced in 2005 as S. 1135, and 
companion legislation was introduced in the House of Representatives as 
H.R. 2069. The House Subcommittee on Forests and Forest Health held a 
hearing on H.R. 2069 on September 27, 2005. In response to testimony 
from the Department of the Interior (``DOI'') and several environmental 
organizations at that hearing that raised concerns about specific 
provisions of H.R. 2069, the House Subcommittee invited interested 
parties to work with subcommittee staff and the State to attempt to 
resolve these concerns. The committee discussions included both 
majority and minority subcommittee staff, representatives of DOI and 
the Bureau of Land Management (``BLM''), Utah state government, and 
several environmental organizations.
    After multiple meetings and telephonic conferences, and many hours 
of discussions and negotiations, the various parties reached compromise 
legislative language that we believe resolves all of the primary 
concerns raised by DOI and the environmental community in connection 
with H.R. 2069. These compromises are reflected in the proposed 
legislation now before the Senate as S. 2788. In particular, S. 2788 
incorporates the following changes from H.R. 2069:

          (1) S. 2788 drops controversial language providing for 
        exceptions from appraisal standards for lands with 
        ``conservation values'', instead requiring for such lands the 
        use of the same appraisal standards utilized in BLM regulations 
        for land exchanges conducted under the Federal Lands Policy & 
        Management Act (``FLPMA''). These regulations allow the 
        consideration of non-economic values such as scenery, 
        wilderness and other aesthetic factors when determining the 
        value of land, to the extent that such factors add value in the 
        marketplace, without the necessity of special legislative 
        exceptions.
          (2) The revised legislation adds various additional lands to 
        the land exchange package, including state lands requested for 
        transfer into federal ownership by the BLM and the 
        environmental community. These additional state lands include 
        popular recreation lands in Mill Creek Canyon outside Moab, 
        state lands in Mineral and Horseshoe Canyons above the Green 
        River, and lands in the Behind-the-Rocks wilderness study area. 
        Some federal lands were also dropped from the exchange to 
        prevent conflicts with other resource values, such as rare 
        plant populations and wild horses.
          (3) S. 2788 also adds provisions for public notice of the 
        availability of the independent appraisals to be conducted as 
        part of the exchange process, and for the completion of 
        resource reports detailing, for each parcel of land being 
        conveyed out of federal ownership, significant resource values, 
        based on resource information and inventories currently 
        possessed by DOI. These resource reports will also be made 
        available to the public. The exchange legislation does not 
        require NEPA compliance, but the resource report provisions 
        will provide detailed resource information to Congress and the 
        public as this transaction works through the exchange process. 
        The legislation also now contains requirements to notify the 
        relevant Congressional committees and publish in a newspaper of 
        general circulation if any lands are added or subtracted from 
        the exchange during the equalization of value stage of the 
        exchange.
          (4) In response to concerns raised by the environmental 
        community, the revised legislation also contains provisions for 
        the permanent withdrawal from mineral entry of certain of the 
        most sensitive lands being conveyed by the State to the United 
        States. All other lands will be withdrawn pending completion of 
        revised land use plans by BLM to determine appropriate 
        management of the lands.

                     REASONS FOR THE LAND EXCHANGE

    It is worthwhile and necessary to describe the lands that are 
involved in the exchange, although the accompanying photographs make it 
clear that these lands are in many ways beyond description. The 
Colorado River corridor is a uniquely scenic area in a state known for 
its scenic beauty. Huge redrock arches such as Corona and Morning Glory 
arches are found in proximity to the deep canyons carved by the 
Colorado river as it winds downstream from the Colorado border to 
Canyonlands National Park. The area supports thriving recreational 
activities, including whitewater rafting in the Westwater wilderness 
study area and downstream, mountain biking on the famous Kokopelli and 
Slickrock bike trails, and myriad other activities. The importance of 
outdoor recreation in the area to local economies and the state as a 
whole has led the Utah Governor's task force on outdoor recreation to 
designate the area as one of Utah's critical focus areas for promotion 
and protection of recreation opportunities.
    The majority of land in the Colorado River corridor is federal land 
managed by BLM. A notable exception is the Utah school trust lands 
scattered in checkerboard fashion throughout the area. As the 
Subcommittee is aware, state school trust lands are required by law to 
be managed to produce revenue for public schools. Revenue from Utah 
school trust lands--whether from grazing, surface leasing, mineral 
development or sale--is placed in the State School Fund, a permanent 
income-producing endowment created by Congress in the Utah Enabling Act 
for the support of the state's public education system.
    In contrast to state lands, BLM lands are managed for multiple use, 
with an emphasis in this area on recreation and conservation use. 
Limitations on the use of surrounding federal lands, through 
establishment of wilderness study areas, areas of critical 
environmental concern, or mineral withdrawals can limit the usefulness 
of the inheld state trust lands for economic uses such as mineral 
development. Likewise, state efforts to generate revenues from its 
lands through sale of the lands for recreational development and 
homesites have been viewed by federal land managers as conflicting with 
management of the surrounding federal lands. Over the years, disputes 
over access to and use of state school trust lands within federally-
owned areas have generated significant public controversy, and often 
led to expensive and time-consuming litigation between the State of 
Utah and the United States.
    Land exchanges are an obvious solution to the problem of 
checkerboarded state land ownership patterns. Exchanges can allow each 
sovereign--the State of Utah and the United States--to manage 
consolidated lands as each party's land managers deem most advisable, 
without interference from the other. In the last eight years, the State 
of Utah and the United States worked successfully to complete a series 
of large legislated land exchanges. In 1998, Congress passed the Utah 
Schools and Land Exchange Act, Public Law 105-335, providing for an 
exchange of hundreds of thousands of acres of school trust lands out of 
various national parks, monuments, forests and Indian reservations into 
areas that could produce revenue for Utah's schools. Then, in 2000, 
Congress enacted the Utah West Desert Land Exchange Act, Public Law 
106-301, which exchanged over 100,000 acres of state trust land out of 
proposed federal wilderness in Utah's scenic West Desert for federal 
lands elsewhere in the region.
    The hallmark of each of these exchanges was their ``win-win'' 
nature: school trust lands with significant environmental values were 
placed into federal ownership, while federal lands with lesser 
environmental values but greater potential for revenue generation were 
exchanged to the State, thus fulfilling the purpose of the school land 
grants--providing financial support for public education.

                RESPONSE TO LAND EXCHANGE CONTROVERSIES

    More recently, a proposed state-federal land exchange involving 
state trust lands in Utah's San Rafael Swell area failed due to 
questions raised about its financial fairness and environmental 
effects. We recognize that the controversy over the San Rafael proposal 
raised many questions about land exchanges generally. In working to 
develop the current exchange proposal, the State of Utah has worked 
hard to address the issues raised in the aftermath of the San Rafael 
proposal. In particular, we have sought to work closely with local 
governments and citizens, the environmental community, and local BLM 
offices to obtain consensus about the lands to be included in the 
proposed exchange. On the issue of valuation, we are committed to an 
independent and transparent appraisal process that will fully involve 
the Department of the Interior's new Appraisal Services Directorate 
(``ASD'') in developing and reviewing appraisals for the properties 
involved in the exchange. As noted above, since the time that this 
legislation was originally introduced, we have continued to work with 
Congressional staff from both parties, DOI and the BLM, local 
communities, and the environmental community to ensure that any 
questions or concerns are addressed. With the various changes from the 
original legislation, we believe that S. 2788 would authorize and 
direct a fair and equitable land exchange that is clearly in the 
interest of both the citizens of the United States and of Utah's school 
children.

                               VALUATION

    The legislation contemplates that all lands included in the 
exchange will be subject to independent appraisals using the existing 
appraisal standards contained in FLPMA and its implementing regulations 
prior to conveyance, and that the lands to be exchanged will be 
conveyed on an equal value basis. The independent appraisal will be 
subject to review by each party (including the DOI-ASD), and any 
disputes over valuation will then be subject to resolution through 
established dispute resolution mechanisms.
    The legislation contains two valuation provisions that may require 
some further explanation. The first relates to mineral lease revenue 
sharing under the federal Mineral Leasing Act. Certain of the federal 
lands are prospective for oil & gas development, and are currently 
under federal mineral lease. Under section 35 of the federal Mineral 
Leasing Act (30 U.S.C.  191), the federal government is required to 
pay 50 per cent of all bonus, rental and royalty revenue from federal 
lands to the state in which the lands are located. Under Utah statute, 
these revenues are largely distributed from the state Mineral Lease 
Account to local counties to mitigate community impacts of energy 
development. These distributions are a crucial funding source for rural 
public land counties.
    The proposed legislation would keep this revenue stream to rural 
counties intact by adjusting values proportionately to reflect the 
United States' obligation to share 50% of all revenue from the lands. 
Put another way, those federal lands found to have mineral values would 
be valued taking into account the United States' existing statutory 
obligation to pay 50% of the revenue from the lands to the State for 
distribution to the counties. Utah's school trust would collect these 
revenues and distribute them in the same manner as federal mineral 
lease funds, so the school trust would not receive any additional 
benefit from this provision. Similarly, the proposed legislative 
language would be revenue-neutral to the United States, because the 
United States currently retains only 50% of mineral revenue from the 
subject lands.
    There is specific precedent for adjustment of mineral land 
valuation to take into account the preexisting obligation of the United 
States to share revenue with the states under the Mineral Leasing Act. 
For example, section 8(c) of the Utah Schools and Lands Improvement Act 
of 1993, Pub. L. 103-93, provides that if the State shared revenue from 
selected federal properties, the value of the federal properties would 
be adjusted downward by the percentage of state revenue sharing. The 
Utah Schools and Lands Exchange Act of 1998, Pub. L. 105-335, ratified 
an agreement between the State of Utah and the Department of the 
Interior containing similar provisions. State revenue sharing payments 
have also been recognized and protected in land exchange legislation 
involving states other than Utah. See e.g. 16 U.S.C. 46011-3(b)(3) 
(Montana's right to receive cash payment for coal tracts used as 
exchange consideration protected).
    A second mineral issue involves the bill's provisions obligating 
the State to pay to the United States future mineral revenues from 
currently unleased federal lands, in a share equal to what the United 
States would have received had the lands been retained in federal 
ownership. This payment obligation eliminates the need to appraise 
leasable mineral values under those lands, since the United States will 
continue to receive all leasable mineral revenues it would have 
received notwithstanding the exchange.
    Significant portions of the federal lands to be transferred to Utah 
are currently not leased for oil, gas or other hydrocarbon minerals 
(e.g. tar sands, oil shale), but are thought to be prospective for such 
minerals. Appraisals of prospective but nonproducing mineral lands are 
expensive and inherently unreliable due to the many unknowable 
variables involved in determining potential resources and their 
likelihood of production. To avoid the expense and potential 
controversy that could arise from appraisal of these non-producing 
resources, section 5(b)(4) of the proposed legislation (page 9, line 24 
of S. 2788) proposes an alternative means of compensating the United 
States for leasable minerals underlying currently unleased federal 
lands. The lands will be appraised for surface values and for all 
minerals other than minerals leasable under the federal Mineral Leasing 
Act. Upon acquisition of the lands, the State also commits to pay the 
United States all revenue that the United States treasury would have 
received from leasable minerals had the U.S. retained ownership of the 
lands, i.e. 50% of bonuses and rentals, and a share of royalties equal 
to the federal share of production royalties (6.25% in the case of oil 
and gas, less for tar sands and oil shale). The U.S. treasury is thus 
held harmless with respect to the exchange. The State of Utah's school 
trust would also continue to pay the 50% state share to the Utah 
mineral lease account.
    These provisions leave Utah's school trust with a commitment to pay 
the United States and the State of Utah's mineral lease account all 
amounts that could be derived from the lands under federal law. 
However, because the school trust has legal flexibility to issue leases 
for royalty rates greater than permitted under existing federal law, it 
hopes to achieve some economic return from leasable minerals on the 
subject lands based upon this flexibility. This risk is solely borne by 
the Utah school trust; the legislation commits the required payments to 
the United States as a covenant running with the land. The U.S. is thus 
compensated for leasable minerals on the subject lands as if it 
retained ownership (as well as being paid appraised surface values and 
non-leasable mineral values. Again, this provision is revenue neutral 
to the United States.

              POST-EXCHANGE LAND MANAGEMENT AND WILDERNESS

    Substantial portions of the state trust lands to be exchanged to 
BLM are located in wilderness study areas (``WSAs'') created under 
Section 603 of FLPMA, or areas proposed for wilderness in pending 
federal legislation. Other portions are not within proposed wilderness. 
The legislation provides that exchanged lands that lie within existing 
WSAs or other formally-designated federal areas will automatically 
become part of those areas upon conveyance. For other state lands 
exchanged to BLM, some lands recognized by the parties to have special 
significance, as designated on the exchange map, will be withdrawn from 
mineral entry by the terms of the legislation. For all other state 
lands exchanged to BLM, the lands will be withdrawn pending revisions 
of BLM's resource management plans to determine appropriate management 
of the lands. The proposed exchange is not intended as an endorsement 
of any particular configuration of wilderness, which is a matter that 
is for Congress to decide at some future time. Rather, the intent of 
the exchange is to allow BLM land managers to determine, on a landscape 
scale, how best to manage the lands without having to deal with inheld 
state trust lands.

                               CONCLUSION

    S. 2788 represents a significant great step toward simplifying land 
management in Utah, protecting Utah's natural heritage, supporting 
local economies through increased opportunities for outdoor recreation, 
and adequately funding public education. It is the product of public 
outreach and compromise that has led to a better proposal than 
originally crafted. I respectfully urge the Subcommittee to approve it 
expeditiously.
    Thank you again for the opportunity to testify today.

    Senator Craig. John, thank you very much for that 
testimony.
    A few questions of the panel. Mayor, let me turn to you. I 
can see why you and the entire town of Superior are so 
supportive of this exchange. I also note that you will be 
involved in helping the Forest Service identify a new 
campground to replace Oak Flats. You've heard that the Forest 
Service wants to expand the area to find a replacement 
campground from the Globe District to the entire Tonto National 
Forest, as well as their desire to have more time to get the 
campground identified and built. If they can't find a 
replacement area on the Globe District, how would you feel 
about that?
    Mr. Hing. Well, I would strongly disagree moving the 
campground site outside the Globe District. I think the whole 
purpose was that the town was willing to give up the Oak Flats 
area, which was kind of a refuge place for the town, as a 
gathering point for the community. And to see it move further 
away, out of the Globe District, to me, is not--at this time is 
suitable, because the fact is we look at that campground as an 
area that is a gathering point for our community.
    My understanding is that the time when the campground sites 
became an issue, the company showed us the JI Ranch, which was 
spectacular, because of the fact that it was just a few more 
miles up the road, beautiful scenery, and water, which the Oak 
Flats didn't have. And at the time, the council was actually 
torn between two areas. I favored a campground site near the 
town of Superior because the fact is we could develop it 
economically for our community as a place rather than a ``place 
for us just to feel good about.'' And Resolution came back to 
us and said, well, let's do two. I was like, OK, you mean two 
campgrounds? And they said, sure.
    So I'm pleased to say that they're willing to finance two 
new campground sites. To me, that is very amazing. One, a place 
up the road from the Oak Flats area and a place west of town, 
which initially was possibly the Arizona Trail Area, which the 
Governor designated as one of the view points for the State of 
Arizona. But I recently have been working with the U.S. Forest 
Service in that area and they're trying to develop the 
protection of an existing old community that existed west of 
the town, which was called Pinal City or Pinal Town. And 
talking with them, I just suggested, why don't we look at 
moving the campground site near what you want to propose to 
protect, which is the Pinal Town site, and we can run this as a 
project together?
    Knowing that, south of the Pinal Town site is water and 
trees and they call that the Green Gates Area, which is a 
beautiful area also, and to develop that and then border our 
town, the town can work with the U.S. Forest Service in 
managing it. So, to me, to have the idea to move it out of the 
Globe District, I would oppose that, because the fact is, we 
are willing to work with the Forest Service on an adjacent 
campground site near Superior, as well as the town giving up 
Oak Flats, and the JI Ranch seems to be a very suitable spot 
for the replacement.
    Senator Craig. OK. Well, Mayor, thank you for those 
observations. I think they're important for the record.
    Mr. Williams, as I see it, your company has turned 
somersaults and is willing to do back flips to facilitate this 
exchange. You've offered to build roads, trails, campgrounds 
and find an alternative rock climbing area, not to mention the 
number of private parcels you've offered in exchange. Given the 
flexibility your company has shown in working with Senators Kyl 
and McCain and the Congressmen on this proposal and the town, a 
skeptic can conclude that there is something more than copper 
in the ground under Oak Flats campground. I also checked the 
price of copper. So, I understand--and I mean this very 
sincerely--there is substantial values there, again, today. 
What would happen if everything but the Oak Flats Campground 
could be included in the exchange?
    Mr. Williams. Thank you, Mr. Chairman. As I indicated 
earlier--and thank you for those kind words, by the way. As I 
indicated earlier, we consider this to be a high-risk project. 
We do not, in fact, know if there is mineral under the 
campground. That is one of the reasons we seek to explore in 
that area, because of the high-risk nature. And there is high 
financial risk, high technical risk, and there is certainly a 
public safety risk associated with that. We really believe we 
need to have secure title on the entire parcel. I think one of 
the reasons that you see the flexibility we've demonstrated is 
really our commitment to that goal. And therefore we would 
compromise the entire project, I believe, if we were not 
successful in this land exchange.
    Senator Craig. OK. Am I correct that under current law you 
would mine under most of the 3,025 acres other than the Oak 
Campground withdrawal, even if the exchange did not go forward?
    Mr. Williams. There is an option. One of the three options 
available to us certainly would be to file a plan of operations 
with the Forest Service and proceed in that direction. Once 
again, we believe that the secure title to the site really 
gives us the ability to mine. Whether we would mine under the 
full acreage or not is uncertain. We know for certain one 
thing: that we've established a conservation easement along 
significant features, including the Apache Leap, which would 
forever bar any sort of mineral interference with that rather 
notable feature. There are some other aspects of that agreement 
that would make certain that those key natural resources are 
always left in tact.
    Senator Craig. OK.
    Mr. Williams. I wonder if I could just add one other thing, 
if I could.
    Senator Craig. Please do.
    Mr. Williams. I think I misspoke when I described our 
appraisal process. I think I said that the property would be 
appraised as if no minerals were on the properties, and I 
should've said as if no mineral claims were on the property. 
I'd just like to correct that.
    Senator Craig. OK. Well, gentlemen, thank you very much.
    Now let me turn to the Utah Recreational Land Exchange Act. 
Laura, it's my understanding that there is broad support within 
the environmental community on this legislation. Do you and 
your organization feel that the process thus far and the public 
notification provisions of the legislation have been--are 
sufficient for the public to be informed regarding the 
transaction?
    Ms. Kamala. We do now, Mr. Chairman. That has been amended 
since the introduction of H.R. 2069 in the House, and that was 
part of the work that was done in the Subcommittee meetings and 
we're satisfied that it's in good shape now.
    Senator Craig. OK. Should this legislation become law, are 
you satisfied that there will be adequate opportunity for 
additional public review and input as these exchanges are 
finalized?
    Ms. Kamala. Yes. There is a provision in the bill for 
public input when the lands are being conveyed, rolling 
conveyances, and the public will be able to comment during that 
process when the appraisal process is going on and if, to 
equalize valuation, lands will need to be either dropped from 
the map or added. That's a point where we could have continued 
input.
    Senator Craig. OK. Well, thank you for your involvement in 
this.
    John, please explain to the committee the public outreach 
and the process that the--what's the acronym here? How do you 
pronounce it?
    Mr. Andrews. School and Institutional Trust Lands 
Administration, SITLA.
    Senator Craig. SITLA, all right. And the process SITLA has 
performed that brings this land exchange before the Senate.
    Mr. Andrews. We recognized that past land exchange 
proposals have been controversial and one of the controversies 
has been claims that there was not adequate public process. 
Almost 4 years ago, we began community outreach in Grand 
County, UT, where the bulk of the lands are located. We 
convened a community meeting. We involved representatives of 
the environmental community, the Grand Canyon Trust, the 
Southern Utah Wilderness Alliance, the Sierra Club, and just 
plain old interested citizens. It was advertised locally and we 
asked for a round-table, anyone who wanted to attend, could 
attend. We also, of course, brought in interested members of 
the Grand County Council. As we moved forward in those 
discussions over a period of a year or two, we realized that an 
administrative land exchange, under current processes, did not 
and would not work given the scale of what everyone hoped could 
be accomplished. And that was the point at which we went the 
legislative route.
    Once we made that determination, we involved a variety of 
other groups: certainly, the other affected county commissions 
in Utah; our Governor--first Governor Levitt, and now Governor 
Huntsman--have convened the Governor's Task Force on Outdoor 
Recreation, very broadly represented--county commissioners, the 
outdoor industry, everyone from ATV users to wilderness users 
and everyone in between. We have been involved with that group, 
and similar groups had public hearings at the Utah legislature 
and obtained Utah legislative support of this. We've run the 
gamut.
    Senator Craig. Good, good. Could you further explain the 
mineral valuation process relating to the un-leased lands as 
part of the exchange and how they differ from traditional 
mineral appraisals?
    Mr. Andrews. Certainly. Both Senator Bennett and Mr. 
Calvert have also touched on this, but I'll try to clearly 
respond. Traditional mineral appraisals for undeveloped 
speculative minerals can be very, very uncertain. There is no 
way to know what the value of the minerals will be until they 
are produced. That inherently leads to both great expense in 
trying to guess and leads to conflict because the answer is 
unknowable until the production occurs. This bill's provisions 
would provide that the U.S. Treasury would receive--collected 
by the State of Utah and distributed to the U.S. Treasury--all 
revenue that the United States would have received had the 
lands remained in Federal ownership at the current royalty 
rate.
    So, the United States gets X amount in royalties. We would 
make a commitment to pay that identical amount in perpetuity 
for as long as those minerals were produced. In fact, that 
could lead to significantly increased cash-flow to the Treasury 
because of that long-term commitment. I think what Mr. Calvert 
and DOI's testimony recognized is that under traditional 
appraisal methodology, the United States would essentially 
receive zero for any oil shale resources on the lands or any 
tar sands resources on the lands because production of those is 
a number of years out. This would allow them to----
    Senator Craig. That's correct, we don't understand values 
there.
    Mr. Andrews [continuing]. To receive that. That is the 
difference.
    Senator Craig. OK. Your testimony discusses appraisal 
language that tells appraisers to utilize their own regulations 
to consider non-economic values. Can you explain this further? 
Are we asking appraisers to put a value on scenic quality?
    Mr. Andrews. The current Federal regulations provide that 
the appraiser will consider scenic and natural wilderness and 
other values to the extent that those values can demonstrably 
be linked to prices paid for similar properties in the 
marketplace. That is the valuation process that will be used. 
We're essentially doing exactly what the existing BLM 
regulations provide, rather than anything new or different from 
that accepted standard.
    Senator Craig. John, thank you very much.
    To all of you, let me thank you for your presence here and 
to the extent to which you've worked to not only participate in 
preparing this legislation, but also your testimony today. It's 
valuable to the committee and the record as we move forward on 
this legislation. Again, thank you very much and we will accept 
any additional information into the file of the committee on 
these pieces of legislation. The committee will stand 
adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

   Responses of Hon. Mike Johanns to Questions From Senator Bingaman
                s. 2466--southeast arizona land exchange
    Question 1. Your testimony states that the ``Department believes 
the acquisition of the non-federal 1parcels to be managed by the Forest 
Service in is the public interest . . .'' Just to clarify, is it the 
Department's view that the exchange as a whole, including the 
conveyance of National Forest System lands to Resolution Copper, is in 
the public interest?
    Answer. It is the Department's view that the exchange as a whole is 
in the public interest. The National Forest System lands identified for 
exchange are within the ``Globe Copper District,'' a highly mineralized 
area in the State of Arizona of national significance for ore deposits 
containing copper, silver and gold. This area's importance to the 
economic vitality of Arizona is historical and today remains a very 
active mining area, providing a major contribution to the nation's 
mineral production.
    Resolution Copper intends to construct a mine to provide the 
country with copper, which will in turn benefit the community of 
Superior economically. Additionally, there may be a benefit to Gila 
County tax base if the federal land is conveyed into private ownership. 
Most of the non-federal properties which would be acquired have high 
public resource values and would provide benefits in public ownership.
    National Forest System land in the Oak Flat area is not identified 
by the Tonto National Forest as base-for-exchange or otherwise 
considered for disposal. In addition, in 1955 the Forest acted to 
protect the Oak Flat Campground by withdrawing it from mineral entry 
(P.L. 122) under the 1872 Mining Act.
    Question 2. You indicate that it may be difficult to find a 
suitable replacement for the Oak Flat Campground within the Globe 
Ranger District. How much use does the current campground receive and 
how detrimental will it be for public recreational opportunities in the 
area if you are unable to find a suitable replacement campground?
    Answer. Oak Flat Campground is the only campground providing 
overnight single family camping between the Phoenix metro area and 
Globe. The 16 campsites within the campground are not under a 
reservation system, so use figures can only be estimated. The 
campground is used year-round by single family campers and heavily used 
in spring and fall by groups of 50-100 people associated with churches, 
family reunions, and organization such as the Boy Scouts. Most users 
come from the Phoenix metropolitan area. Two permitted commercial 
outfitter-guide operations lead bouldering and rock climbing clients in 
the Oak Flat area. The Phoenix Boulder Blast event is held at Oak Flat, 
drawing 800-1000 people annually. The Central Arizona Trials 
Association (an off highway vehicle organization) uses Oak Flat twice a 
year for events with 40-50 people each. Off highway vehicle users make 
extensive use of the motorized trial system accessible only through the 
Oak Flat area.
    The Tonto National Forest has aggressively sought a replacement 
location for the Oak Flat Campground to meet the needs of users who 
would be displaced should S. 2466 become law. Options are limited by 
terrain and access. Resolution Copper suggested locating replacement 
facilities on one of the non-federal properties (II Ranch) in the 
legislated exchange proposal. However, this location is adjacent to a 
residential area and current residents have voiced their opposition to 
a campground bordering their property.
    There are currently two locations near Superior being considered. 
One, on National Forest System land, would require about one mile of 
access road construction, which would likely cost more than the 
$500,000 identified in the bill for campground replacement. This 
campground location would not provide the same caliber of rock 
climbing/bouldering and off highway vehicle opportunities currently 
available at Oak Flat and may not be accessible during winter months. 
Another site has been located south of Superior that may better meet 
user needs.
    Question 3. In your opinion, if this legislation is enacted in its 
present form, will the exchange be subject to the laws typically 
applicable to land exchanges, including the National Environmental 
Policy Act, the Federal Land Policy and Management Act, the Endangered 
Species Act, and National Historic Preservation Act?
    Answer. While S. 2466 does not expressly exempt this land exchange 
from NEPA, FLPMA, ESA or NHPA, the non-discretionary nature and 
prescribed timeframes preclude the full process typically used to 
analyze and approve a land exchange. The Department does intend to 
fulfill its government to government and NHPA consultation 
responsibilities with affected Tribes and State Historic Preservation 
Officer. This will be achievable due to the amount of fieldwork already 
accomplished related to cultural resources on the federal lands. 
Processing requirements of FLPMA will be met if possible, where not in 
conflict with the Act, and within the limitations of the one year 
timeframe.
    Question 4. The San Carlos Apache tribe has submitted a resolution 
opposing the exchange and I understand that the tribe considers areas 
within the Oak Flats site to be of cultural and religious importance. 
Has the Forest Service consulted on a government to government basis 
with the tribe concerning the proposed exchange? Does knowledge of the 
tribe's concerns change the Forest Service's view of the 
appropriateness of transferring the Oak Flats site out of Federal 
ownership?
    Answer. Since January 2004, the Tonto National Forest has consulted 
with several tribes, including the San Carlos Apache tribe, on a 
government-to-government basis during development of this proposal. The 
tribes (white Mountain Apache, San Carlos Apache, Tonto Apache, 
Yavapai-Apache Nation, Yavapai-Prescott, Fort McDowell Yavapai Nation, 
Gila River Indian Community, Salt River Pima-Maricopa Indian Community, 
and the Hopi and Zuni tribes) were provided copies of the 
archaeological survey report for comment, initiating formal and 
informal consultation that continues.
    The Forest is currently engaged in a series of ongoing meetings 
with elected tribal representatives, cultural representatives, council 
members, and elders to discuss and identify appropriate research 
questions and methods for conducting the next phase of archaeological 
and ethnographic investigation.
    Question 5. Section 5(a)(4) of S. 2466 directs that the value of 
the Federal land conveyed to Resolution Copper shall be determined ``as 
if the land is unencumbered by any unpatented mining claims of 
Resolution Copper.'' Is that standard agency appraisal practice?
    Answer. The Forest Service has appraised a number of mineralized 
properties, either encumbered or unencumbered with unpatented mining 
claims. It is standard agency practice to appraise the property in the 
condition that title will be conveyed from the United States to the 
non-Federal party. The Forest Service appraises mineralized properties 
using the Uniform Appraisal Standards for Federal Land Acquisitions. 
Section D-11 specifically addresses Valuation of Mineral Properties.  
Appraising this specific property considering the proposed language 
cited--above may make the assignment less complex and could result in a 
more reliable opinion of market value.
    Question 6. The bill calls for the United States to convey its 
reversionary interest in the 265-acre Superior Airport tract. Would you 
please describe the reversionary interest and its history?
    Answer. The United States Conveyed the property now known as the 
Superior Municipal Airport to Pinal County in 1952 under authority of 
the Federal Airport Act of 1946 (60 Stat. 170). The deed of conveyance 
contained the following stipulation:

         ``. . .  The property interest herein conveyed shall 
        automatically revert to the Untied States of America pursuant 
        to Section 16 of the Federal Airport Act, supra, in the event 
        that the lands herein described are not developed, or cease to 
        be used, for airport purposes; and the party of the second 
        part, for itself and assigns, agrees by the acceptance of this 
        deed, or the rights granted herein, that a determination by the 
        Administrator of Civil Aeronautics, United States Department of 
        Commerce, or his successor in function, that the lands have not 
        been developed, or have ceased to be used, for airport purposes 
        shall be conclusive of such fact . . .''

    In 1997 Pinal County transferred ownership of the Airport to the 
Town of Superior. The Town has expressed interest in developing the 
parcel for other than airport use. The Forest Service has advised the 
Town that such action would not be consistent with the terms of the 
airport deed. The language in S. 2466 would therefore, be necessary for 
the Town of Superior to make us of the tract
    Question 7a. As I understand it, the copper deposit that underlies 
the Federal land is reportedly a world-class deposit. At the same time, 
Resolution Copper has described the considerable technical and 
financial challenges associated with mining it. Resolution Copper is 
reportedly prepared to invest billions of dollars in the effort.
    Are the agency's uniform appraisal standards and practices well-
suited to accurately value this exchange?
    Answer. The agency's appraisal standards are the Uniform Appraisal 
Standards for Federal Land Acquisitions (UASFLA). The Forest Service 
also has supplemental standards for appraisal of mineralized properties 
that are consistent with the umbrella UASFLA. Whatever opinion of 
market value is approved for agency use will be supported and will be a 
reliable opinion of market value.
    Question 7b. Has the Federal Government ever conducted an appraisal 
of an ore body of this magnitude and complexity?
    Answer. There has been considerable speculation about the 
characteristics of this ore body and the appraisal assignment. The 
requisite mineral reports that must be prepared as part of the 
appraisal assignment will help define both-the magnitude and complexity 
of the assignment. The Forest Service has reviewed appraisals of large-
scale ore bodies that were very complex appraisal assignment.
    Question 7c. Will the appraisal likely be based in part on 
consideration of royalty rates charged on private and/or State lands?
    Answer. Section D-11 of the UASFLA.discusses how a proper royalty 
rate should be derived from comparable transactions and how those data 
must be evaluated in the income capitalization approach. The appraiser 
will seek to abstract royalty rate information from the private market 
and will analyze those data in that context.
    Question 8. Do you believe that S. 2466's provisions in section 6 
governing the conservation easement for Apache Leap ensure adequate 
protection of the cultural, scenic, historic, recreational, and natural 
resources of the Apache Leap area?
    Answer. Section 6 of S. 2466 is not specific in regard to the 
protections provided in the conservation easement.
    However, the scenic resource of Apache Leap, as viewed from a 
distance, will probably be adequately protected by this provision. Some 
recreational interest, although probably not all, will likely be 
protected.
    The conservation easement provisions appear limited regarding 
future protection of cultural, historical, traditionally gathered 
resources and natural resources of the Apache Leap area. The boundaries 
of the conservation easement are not specific. Management principles 
for the easement that call for specifically protection and preserving 
significant natural resources, tribal places, Traditional Cultural 
Properties or archaeological sites are not addressed. Additionally, 
more specific restrictions could be identified to protect these 
resources. The conservation easement allows for development of 
administrative and recreational facilities, including motorized access 
roads, with no stated criteria for their development or placement 
beyond a determination made by Resolution Copper and the easement 
grantee based upon unspecified consultation with the Town of Superior 
and unspecified ``other interested parties.'' If the rationale for the 
conservation easement is to mitigate potential effects of removing the 
parcel from federal ownership and protection, then those parties whose 
interests might be affected by the conveyance should be identified and 
involved in consultations on easement management.
                                 ______
                                 
      Responses of Laura Kamala to Questions From Senator Bingaman

              S. 2788--UTAH RECREATIONAL LAND EXCHANGE ACT

    Question 1. Section 4 of S. 2788 requires the Secretary of the 
Interior to accept an offer from the State of Utah to exchange the 
lands described in the bill ``notwithstanding any other provision of 
law.'' This provision appears to waive many of the laws generally 
applicable to land exchanges, including the National Environmental 
Policy Act, the Federal Land Policy and Management Act, the Endangered 
Species Act and the National Historic Preservation Act, among others. 
Does the Grand Canyon Trust support the waiver of these laws with 
respect to this land exchange? If so, why?
    Answer. As a rule, Grand Canyon Trust does not support the waiver 
of NEPA, FLPMA, ESA, NHPA or any other laws designed to protect natural 
and cultural resources and ensure public participation. In the present 
case, we note that the proposed exemption from these laws affects only 
the selection of the lands for exchange, not their management. The 
process for identifying lands suitable for exchange under S. 2788 has 
had a great deal of public scrutiny and input over nearly three years, 
and that public involvement is extensively embedded in the legislation. 
Groups reviewing and commenting on the process and legislation include 
Grand County, Uintah County, San Juan County, Castle Valley Town, Moab 
City, Governor Huntsman's Task Force on Outdoor Recreation, Utah Open 
Lands, The Nature Conservancy, Utah Natural Heritage Program, Center 
for Native Ecosystems, Utah Wilderness Coalition, Southern Utah 
Wilderness Alliance, Grand Canyon Trust, Utah Guides and Outfitters, 
Outdoor Industry Association, affected ranchers, Grand County resort 
and tourist business owners, Moab Field Office Bureau of Land 
Management and the Utah Division of Wildlife Resources. In the case of 
S. 2788, we believe there has been more than adequate public 
participation and oversight in the selection of lands proposed for the 
exchange. Once lands are exchanged between SITLA and the BLM, the 
agencies will still be required to manage conveyed lands in accordance 
with the above statutes and other applicable laws. For example, SITLA 
is subject to the provisions of the Endangered Species Act with respect 
to threatened and endangered species of animals (we note that our 
organization and others have conducted extensive surveys with respect 
to threatened, sensitive and endangered plants, and determined that no 
such species will be negatively affected by the exchange.) We also 
understand that BLM will in fact engage in a NHPA process in connection 
with the exchange, and SITLA is in any event subject to state-level 
cultural resources protection statutes and regulations that provide a 
process analogous to NHPA.
    Question 2. Your testimony states that S. 2788 ``will protect 
valuable recreational lands, critical watersheds, cultural resources, 
essential wildlife habitat, lands of extraordinary scenic beauty and 
lands in Wilderness Study Area by conveying sensitive state-owned lands 
in the Colorado River Corridor to the Bureau of Land Management.'' Most 
of the lands to be acquired by the United States are not permanently 
withdrawn from oil and gas development and nothing in the bill requires 
the BLM to manage the lands to protect the values you cited in your 
testimony. Why is the Grand Canyon Trust confident that these lands 
will be permanently managed to protect those resources and values?
    Answer. The answer to this question can be found in the fundamental 
reason for the exchange: the BLM will consolidate its management of 
extraordinarily high value recreation lands that are severely 
threatened with private real estate development on SITLA inholdings; 
and SITLA will acquire lands that will generate revenues for its 
beneficiaries without compromising the conservation values we cited in 
our testimony. This is possible because the SITLA lands proposed for 
exchange, despite their attractions for developers, have negligible oil 
and gas resources. This fact has been confirmed by SITLA consulting 
geologists, by the records of all exploratory wells drilled in the 
area, and by the BLM. Conversely, the lands SITLA will acquire are 
either in a town, adjacent to an airport, or in developing oil and gas 
fields, all of which can produce revenue without degrading watersheds, 
wildlife habitat or recreational opportunities.
    The Moab Field Office of the Bureau of Land Management is 
completing an oil and gas management plan as part of their new Resource 
Management Plan. Reflecting the low hydrocarbon potential and high 
recreation values, the Preferred Alternative will either close oil and 
gas leasing (for lands in Wilderness Study Areas) or place a No Surface 
Occupancy stipulation on most of the lands in this exchange. Most of 
the other lands managed by the Moab Field Office will remain open to 
oil and gas leasing and development under the plan. The Utah State 
office of the BLM has approved of the proposed alternatives, the 
Washington, D.C. office of the BLM has approved of the direction of the 
alternatives and the local county government has approved of the 
Preferred Alternative.
    Grand Canyon Trust prefers to have oil and gas lease closures 
provided by S. 2788 on lands proposed for exchange to the BLM, 
specifically a select list of lands under section 6(a)(2)(B); however 
we believe that even without such closures the threat of hydrocarbon 
development on these parcels is minimal compared with the very real 
threat of private real estate development if the lands remain with 
SITLA.
                                 ______
                                 
   Responses of Hon. Lynn Scarlett to Questions From Senator Bingaman

              S. 2788--UTAH RECREATIONAL LAND EXCHANGE ACT

    Question 1. Section 4 of S. 2788 requires the Secretary of the 
Interior to accept an offer from the State of Utah to exchange the 
lands described in the bill ``notwithstanding any other provision of 
law.'' This provision appears to waive many of the laws generally 
applicable to land exchanges, including the National Environmental 
Policy Act, the Federal Land Policy and Management Act, the Endangered 
Species Act and the National Historic Preservation Act, among others. 
Does the Department support the waiver of these laws with respect to 
this land exchange? If so, why?
    Answer. The laws referenced above provide authorities and 
responsibilities to the Executive Branch from Congress for the 
management and disposition of Federal lands and resources. These laws 
govern and limit the discretion of executive actions and decision-
making processes as they relate to Federal land management. However, 
when the Congress directs a conclusive action--such as in this 
exchange--its intent may be to override such authorities and 
responsibilities. The Department does not generally support waiving the 
aforementioned statutes, however, we support the Congress being clear 
in its direction and expectations for the management of the public 
lands. The legislation should be clear where it intends to direct an 
outcome and where it intends the agency to use its discretion. To do 
otherwise may result in confusion for the agency and outcomes that were 
not intended by Congress.
    Question 2a. Your testimony references the Department's policy 
guidance with respect to legislative exchanges and land valuation 
issues and describes the two alternative valuation proposals. You note 
that ``the policy specifically prohibits the use by the Department of 
alternative methods of valuations in appraisals. However the policy 
recognizes there may be times when Congress will direct, or the 
Department will propose, the use of alternative methods of valuation in 
appraisals.''
    Why does the Department's appraisal policy prohibit the use of 
alternative valuation proposals?
    Answer. By Secretarial Order Number 3251, and in accordance with 
Sec. 206 of FLPMA, the Department requires that all real estate 
appraisals must be performed pursuant to the Uniform Appraisal 
Standards for Federal Land Acquisitions or the Uniform Standards of 
Professional Appraisal Practice. Alternative methods of valuation (AVM) 
are inconsistent with these national appraisal standards. To 
incorporate these methods into an appraisal would be misleading. The 
policy specifically describes situations in which Congress might direct 
the use of an alternative valuation method other than or in addition to 
an appraisal. The policy is in place to ensure that no one will be 
mislead into recognizing the results of an AVM as an indication of 
market value. This general policy underscores the importance of 
adhering to applicable appraisal standards in developing applicable 
legislative provisions and to ensure that land transactions are 
conducted with integrity, transparency, and earn public confidence. 
However, the Department also recognizes that in some cases, AVMs may be 
appropriate and has issued an Order, Number 3258, directing how those 
cases should be handled. That order was attached to the Department's 
testimony provided on May 24, 2006.
    Question 2b. What are the disadvantages of using either of the 
alternative methods referenced in S. 2788?
    Answer. There are both advantages and disadvantages associated with 
using either of the AVMs referenced in S. 2788, just as there are 
advantages and disadvantages associated with establishing a value 
strictly derived from the Uniform Standards. The legislative provisions 
in S. 2788 would require the BLM to adjust the appraised value in order 
to reach the desired legislative outcome. As stated in the testimony, 
Sec. 5(b)(4) would require that for Federal lands not under mineral 
lease at the time of appraisal, the lands will be valued without regard 
to the presence of any minerals that are subject to leasing under the 
Mineral Leasing Act of 1920. In exchange for this potential reduction 
in value, the State or its successors in interest to the property would 
agree to pay the United States 50% of whatever bonus or rentals are 
paid to the State for mineral development in the future and to pay an 
amount equal to the Federal royalties that would have otherwise been 
collected by any future mineral development. The benefit of using this 
AVM is that the Federal government would retain a royalty interest in 
minerals, including oil shale, after the conveyance. To the extent that 
oil shale or other mineral resources might not be valued under a 
standard appraisal, this protects the Federal government's potential 
interest in the future development of the resource--even if it is not 
immediately foreseeable and valuable. The disadvantage of using this 
method is that the Federal government will have an obligation in 
perpetuity to ensure that revenues derived from mineral development on 
the property are properly paid in accordance with the Act.
    The second AVM, found in Sec. 5(b)(6)(B), would reduce the 
properties market value (based on an appraisal) by an amount equal to 
what would otherwise be the State's future share under Section 35 of 
the Mineral Leasing Act. The benefit of using this alternative method 
is that it recognizes the equities inherent in the Mineral Leasing 
Act--which does not create a State-share entitlement per se, but 
creates an expectation that revenues from Federal mineral leasing will 
accrue to the State. With that expectation, it is reasonable to 
understand why the State would not want to ``pay'' for a share of the 
royalty stream up front that it would otherwise receive under the 
status quo. The apparent disadvantage to using this method is that the 
overall value of the Federal lands to be conveyed will be less and 
thereby result in fewer acres coming into the Federal estate as part of 
an equal-value transaction. That apparent disadvantage may, however, be 
an equitable outcome if one considers that an appraisal would not 
recognize the ongoing statutory obligation of the Federal government to 
share the future royalty stream that provides value to the property.
    Question 2c. With respect to each of the proposed alternative 
valuation methods, I would like to know whether the Department 
recommends that the Committee approve or reject that method, and why.
    Answer. The Department has not recommended using any specific 
alternative method of valuation because the Department is not the 
proponent of this legislation. In accordance with Secretarial Order No. 
3258, if the Department proposes the application of alternative methods 
of valuation that require Congressional authorization, the Department 
shall expressly describe to the appropriate committees of Congress the 
AMVs applied, and explain how they differ from standard appraisal 
methods. This same obligation arises when providing views to Congress 
on proposals initiated outside the Department, and we have supplied 
that. As stated above, there are benefits and disadvantages associated 
with deviating from the standard methods in both cases. The Department 
recognizes the equities involved, and, as stated in the testimony 
provided on May 24, 2006, the Department could support this legislation 
using these alternative methods of valuation, with a minor modification 
relating to future royalty rates.
    Question 3. Is the requirement in section 5(b) for appraisals to be 
conducted by independent third party appraisers selected jointly by the 
Secretary and the State consistent with the Department's appraisal 
policy?
    Answer. Yes. The Department's policy addresses the use of third-
party appraisals and recognizes that they may assist in achieving 
mutually beneficial outcomes for the Department and proponent. 
Generally, as stated in Order No. 3258, Sec. 4(b), upon request, the 
Department may review a third-party appraisal if: (a) the third party 
consults with the Appraisal Services Directorate prior to the 
initiation of the appraisal on the scope of work and the selection of 
the appraiser, and they agree that the Department is both the client 
for and an intended user of the appraisal; (b) a senior bureau or 
Departmental manager has determined that the underlying land 
transaction proposal comports with applicable missions; and (c) the 
Appraisal Services Directorate has determined that the appraisal was 
prepared by a certified appraiser and meets applicable standards.
    Question 4. In your testimony on S. 2466, the Southeast Arizona 
Land Exchange, you note that the non-Federal party to the land exchange 
should reimburse the Secretary of the Interior for all of the 
Department's exchange-related costs. That bill also requires the 
Secretary of Agriculture to be reimbursed for ``all costs related to 
the exchanges and conveyances, including appraisals and all other 
reviews.'' In contrast, S. 2788 requires the Secretary and the State to 
share third parry appraisal costs equally and contains no provision for 
reimbursement of exchange-related costs. Why is this issue a concern 
with respect to the Arizona exchange but not the Utah one?
    Answer. The relevant distinction between the two bills is that the 
land exchange envisioned in S. 2788 is with a governmental agency of 
the State of Utah while the land exchange envisioned in S. 2466 is with 
a private party.
    Question 5a. Section 2(b) states that the purpose of the bill is to 
acquire ``State trust land with important recreational, scenic, and 
conservation resources for permanent public management and use.'' In 
your testimony you state that the Department has ``serious concerns'' 
with a provision in the bill that would permanently withdraw certain 
acquired State lands from the mineral leasing and mineral materials 
laws.
    If the Federal interest in the land exchange is to acquire lands to 
protect their recreational, scenic, and conservation values, why 
shouldn't those lands be designated for management consistent with 
those values?
    Answer. Some of the lands that the BLM would acquire under S. 2788 
are checkerboard lands. In other words they are sections of 640 acres 
scattered among existing BLM-managed public lands. Managing these 
sections differently from the often identical lands surrounding them 
could be difficult. Furthermore, the BLM is currently engaged in a 
public planning process for the existing public lands which surround 
most of the lands to be acquired. It is through this public process 
that BLM answers questions about appropriate areas for permanent 
withdrawal, and it provides all interested parties an opportunity to be 
heard. The Department believes it is appropriate for these lands to be 
considered in that overall context.
    Question 5b. If the lands are not permanently withdrawn, is it 
possible that the BLM's planning process might identify them as 
appropriate for resource development, or potential future disposal?
    Answer. The BLM's planning process could identify them for any of 
the multiple uses authorized under FLPMA.
    Question 6. Section 6(a) of S. 2788 either temporarily or 
permanently withdraws the lands acquired from the State of Utah from 
the mineral leasing and mineral material laws. However, is it correct 
that the lands could still be subject to future disposal or transfer 
out of Federal ownership, if the BLM desired?
    Answer. The lands could be subject to future disposal or transfer 
if so identified through BLM's planning process.
    Question 7. Please identify which, if any, of the Federal lands 
proposed to be exchanged under S. 2788 have not been identified by the 
BLM as suitable for disposal? If there are any parcels which have not 
been identified for disposal, are any of them managed to protect 
special resources or values, or have other attributes which make them 
unsuitable for transfer out of Federal ownership?
    Answer. Approximately 8,400 acres of the acres identified for 
exchange in the legislation were identified for disposal in the 1985 
Book Cliffs Resource Management Plan. The remaining acres have not been 
identified for disposal, but none of the remaining acres are within 
ACECs or other special BLM designations.
    Question 8. Your testimony briefly identifies the Federal parcels 
to be transferred to SITLA and notes that 2,800 acres are suitable for 
private agricultural development, 80 acres are suitable for private 
development and that ``some'' of the approximately 40, 000 acres have 
high energy potential. Approximately how many acres of BLM lands 
proposed for exchange do you estimate to have high energy potential?
    Answer. Our best estimate is that in excess of 35,000 of the acres 
identified for exchange with SITLA have high energy potential for 
either oil and gas or oil shale and tar sands. It should be noted, 
however, that high potential does not necessarily equate to high 
current market value for the property. This is relevant to the 
discussion concerning oil shale. The contributory value of the oil 
shale resources to the current market value of the property may be 
limited due to the risks and costs associated with developing the 
resource and the unknown timing of that development. These factors may 
be measured in a market value appraisal through an examination of 
comparable properties that have transferred in the market to the extent 
that they exist and provide meaningful data.
    Question 9. Your testimony notes that the under the authority of 
section 206 of FLPMA, the BLM has exchanged several hundred thousand 
acres of land. Does the BLM have adequate authority to complete an 
administrative exchange? Why is this legislation necessary?
    Answer. Many of the provisions of S. 2788 do not conform with the 
requirements of administrative land exchanges including the proposed 
alternative methods of valuation, and the proposed withdrawals.
    Question 10. S. 2788 contains blanks for the map descriptions. Your 
testimony references ``current maps created by the BLM, dated March 16, 
2006.'' I assume these are the maps you are using in describing the 
Federal and State lands to be exchanged. Please provide a copy of these 
maps.
    Answer. Copies of the map dated March 16, 2006, have been provided 
to Senator Bingaman's Committee staff.
    Question 11. Section 6(c) states that the land exchange ``shall be 
considered to be in the public interest under section 206(a) of the 
Federal Land Policy Management Act.'' Does the Department agree that as 
set forth in S. 2788, this land exchange is in the public interest in 
accordance with section 206(a) of FLPMA?
    Answer. Section 206(a) of FLPMA states:

          A tract of public land or interests therein may be disposed 
        of by exchange by the Secretary under this Act . . . where the 
        Secretary concerned determines that the public interest will be 
        well served by making the exchange: Provided, That when 
        considering public interest the Secretary concerned shall give 
        full consideration to better Federal land management and the 
        needs of State and local people, including needs for lands for 
        the economy, community expansion, recreation areas, food, 
        fiber, minerals and fish and wildlife and the Secretary 
        concerned finds that the values and the objectives which 
        Federal lands or interests to be conveyed may serve if retained 
        in Federal ownership are not more than the values of the non-
        Federal lands or interests and the public objectives they could 
        serve if acquired.

    We believe that this exchange meets those requirements.

                S. 2466--SOUTHEAST ARIZONA LAND EXCHANGE

    Question 1. Your testimony notes the Department's concerns with a 
provision in section 8 of S. 2466 which requires the BLM to construct 
the Tam 0-Shanter Access Road. Do you have an estimate of the cost of 
constructing such a road?
    Answer. As we noted in our testimony, we prefer to provide a right-
of-way over BLM-managed lands for the road rather than build the road. 
Our best estimate at this time is that constructing the road as a 
Federal project would cost between $1.2 and $1.5 million.
    Question 2. Based on your testimony, I understand that the 
Department of the Interior will prepare a mineral report for the land 
exchange. Will the Department also be responsible for conducting the 
appraisal of the minerals underlying the Forest Service property to be 
exchanged or is that the Department of Agriculture's responsibility?
    Answer. The Department of Agriculture is responsible for completing 
the mineral report. It is then the responsibility of the BLM within the 
Department of the Interior to review and approve the mineral report 
which provides the final verification for the technical information to 
be used in the appraisal. Ultimately it will be the responsibility of 
the Department of Agriculture to complete the appraisal following 
completion and review of the mineral report.
    Question 3. Section 5(a)(4) of S. 2466 directs that the value of 
the Federal land conveyed to Resolution Copper shall be determined ``as 
if the land is unencumbered by any unpatented mining claims of 
Resolution Copper.'' Is that standard agency appraisal practice?
    Answer. The Bureau of Land Management and the Department of the 
Interior have completed appraisals in recent years that both have and 
have not taken into account unpatented mining claims. Both methods have 
been used and there is not a standard practice.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the amount of material received for this hearing, 
only a representative sample of statements follows. Additional 
documents and statements have been retained in subcommittee 
files.]

Resolution of the Pinal County Board of Supervisors Endorsing the Land 
 Exchange, of Resolution Copper Company Properties, for Properties of 
                   Federal and Non-Federal Ownership

                        RESOLUTION NO. 062205-CC

    WHEREAS, the Pinal County Board of Supervisors has declared one of 
its goals to be the advancement of environmentally sensitive economic 
development; and
    WHEREAS, the Resolution Copper Company has met or will meet or 
exceed the requirements of all federal and non-federal regulatory 
authorities, for the protection of valuable Arizona natural treasures; 
and
    WHEREAS, the growing recreational tourism activities, in the area, 
will not be inhibited or adversely impacted by the land exchange and 
these recreational tourism activities will be supported, by Resolution 
Copper, for a time sufficient to allow for the transition of resources 
and tourism support activities; and
    WHEREAS,the Pinal County Board of Supervisors will direct staff to 
continuously monitor the activities, of resolution Copper Company, to 
assure adherence to the terms of this resolution;
    NOW, THEREFORE, BE IT RESOLVED that the Pinal County Board of 
Supervisors fully supports the land exchange between the Resolution 
Copper Company, of Superior, Arizona and federal and/or non-federal 
lands.
    PASSED AND ADOPTED this 22nd day of June, 2005, by the PINAL COUNTY 
BOARD OF SUPERVISORS.
                                              Sandie Smith,
                                             Chairman of the Board.
                                 ______
                                 
  Resolution of the San Carlos Apache Tribe, San Carlos Apache Indian 
                      Reservation, San Carlos, AZ

                             NO: MAY-06-077

    WHEREAS, the San Carlos Apache Tribe is a federally recognized 
Indian Tribe organized pursuant to Section 16 of the Indian 
Reorganization Act of June 18, 1934 (48 stat., 984); and,
    WHEREAS, the San Carlos Apache Tribe recognizes their inherent 
sovereignty to self-determination and their responsibility as 
protectors of past, present, and future Apache generations and that the 
role of cultural resources, language, and elements of the natural world 
(i.e. air, water, animals, plants) are significant to the existence and 
the spirituality of the Apache, and
    WHEREAS, the San Carlos Apache Tribe recognizes, values, and 
utilizes, traditional Apache resources both on and off the reservation 
and is committed to protecting the spiritual and traditional resources 
in and around Chich'il Bildagoteel (Oak Flat), which lies in the heart 
of T'is Tseban Country. The Oak Flat region is bounded in the east by 
Gan Bikoh (``Crowndancers Canyon''--Devil's Canyon) in the north by Gan 
Daszin (``Crowndancer Standing''--Queen Creek Canyon), and
    WHEREAS, tribal, state, and federal laws, such as the San Carlos 
Apache Tribal Ordinance 76-1 Section 36, Tribal Codes, Arizona Revised 
Statutes 41-846 and 41-864, the National Historic Preservation Act 
(NHPA), the Archaeological Resources Protection Act (ARPA), the Native 
American Graves Protection and Repatriation Act (NAGPRA), the American 
Indian Religious Freedom Act (AIRFA), the National Environmental Policy 
Act (NEPA), and Executive Order 13007, Protection of Indian Sacred 
Sites, were created to protect and preserve cultural and historic 
properties significant to the past, present, and future history of the 
Indeh (Apache), and
    NOW THEREFORE BE IT RESOLVED; that the San Carlos Apache Tribe has 
taken a stand to oppose the Southeastern Land Exchange.
    BE IT FURTHER RESOLVED: that the Indeh (Apache) oppose large-scale 
mining proposed by Rio Tinto's Resolution Mining Company in the Oak 
Flat vicinity, and strongly oppose the land exchange with the United 
States Forest Service enabling this operation.
    CERTIFICATION
    I, the undersigned Secretary of the San Carlos Apache Tribe Council 
hereby certify that the Tribal Council is presently composed of 11 
members, of whom 6 constituting a quorum were present at a Special 
Council meeting hereto held on the 22nd day of May 2006, and that the 
foregoing Resolution No. May-06-077 was duly adopted by a vote of 5 
for; 0 opposed; 0 abstained; of the Tribal Council pursuant to Article 
V, Section 1 (a) of the Amended Constitution and Bylaws of the San 
Carlos Apache Tribe effective February 24, 1954.
                                   Beatrice Hendricks,
                                           Acting Tribal Secretary.
                                 ______
                                 
                              Arizona State Senate,
          Committee on Natural Resources and Rural Affairs,
                                       Phoenix, AZ, March 14, 2006.
Hon. Jon Kyl,
U.S. Senate, Washington, DC.
    Dear Senator Kyl: I write to express my strong support for the 
federal land exchange package you are proposing between the United 
States and Resolution Copper Company of Superior, Arizona. I am deeply 
grateful for your hard work and close attention to this issue, as the 
exchange will be very beneficial to the citizens of the State of 
Arizona.
    As you know, I have been working closely with officials from the 
Arizona State Parks Board in the creation of state legislation, Arizona 
Senate Bill 1550, to work in tandem with your exchange to create a new 
rock climbing state park near the Town of Kearny, Arizona. Located 
approximately 20 miles southeast of the federal. Oak Flat campground, 
Kearny and nearby communities throughout the copper triangle region 
would enjoy economic gains from the potentially high growth in 
recreational tourism. This is a region that is not keeping up with the 
job growth seen throughout the urban areas in our. great state. It 
certainly goes without saying that further exploration and development 
of the copper mine near.Superior in rural Arizona would also bring 
sorely needed opportunities, particularly for our youth.
    The land exchange package you have proposed is a tremendous win for 
both the federal government and the State of Arizona. A significant 
assortment of highly sought after private lands throughout Arizona will 
be obtained by the federal government. A major economic engine will be 
expanded in Superior, and rock climbers and tourists from around the 
world will be welcomed to explore the rugged and beautiful terrain near 
Kearny.
    Thank you again, Senator, for your fine leadership in this vital 
and exchange.
            Sincerely,
                                                Jake Flake,
                                                          Chairman.
                                 ______
                                 
         Arizona Department of Mines and Mineral Resources,
                                          Phoenix, AZ, May 9, 2005.
Bruno Hegner,
Vice President and General Manager, Resolution Copper Company, Phoenix, 
        AZ.
    Dear Mr. Hegner: The Arizona Department of Mines and Mineral 
Resources (ADMMR) is submitting this letter in support of The Southeast 
Arizona Land Exchange and Conservation Act of 2005. There are a number 
of reasons we support this exchange. The following are five of the more 
salient reason.
    First, this land exchange will be of great economic benefit to the 
State. Resolution has already spent $40 million in preliminary 
evaluation and will spend $200 million to complete their exploration 
and engineering phase. Investment in the development of the project 
could easily exceed $2 billion.
    Second, the project will strengthen the Arizona mining industry by 
attracting professional technical staff, as well as miners, and will be 
of great benefit-to the suppliers' network in the State.
    Third, the project will greatly benefit the towns of Superior and 
Globe and the Phoenix metropolitan area. The local area has been 
financially troubled by the closing of the Magma Mine and other copper 
mines in the area. The Resolution mine will initially employ 1,000 
workers and provide 450 permanent, high-paying jobs. ADMMR is pleased 
the company has already undertaken two voluntary remediation projects 
at the existing mine site to protect the environment. Many of the 
adits, tunnels, and other workings in Queen Creek from previous mining 
activity will be closed or gated to retain their function as habitat 
for bats, snakes, and other wildlife.
    Fourth, copper is an essential metal with increasing demand in the 
world economy for electrical and electronic products, and in 
transportation equipment. Arizona supplies 65 percent of the.Nation's 
domestic copper, but the United States is still not self-sufficient. 
Development of the Resolution Copper deposit may remedy that situation.
    Fifth, this land exchange places important riparian lands into the 
public domain. The two main land parcels, the San Pedro and Appleton, 
both serve as migratory stops for birds and also contain mesquite 
bosques and grasslands.
    If you or your staff wishes to contact me, I can be reached at 
(602) 255-3795, Ext. 14.
            Sincerely,
                                              Nyal Niemuth,
                                                   Mining Engineer.
                                 ______
                                 
                                    Office of the Governor,
                                     Phoenix, AZ, February 7, 2005.
Hon. John McCain,
U.S. Senate, Washington, DC.
    Dear Senator McCain: I am writing to voice my support for the The 
Southeast Arizona Land Exchange and Conservation Act of 2005.
    This land exchange would place some of the most beautiful and 
pristine lands in Arizona including important riparian habitat under 
federal protection for conservation and recreation purposes. The lands 
that would be secured by Resolution Copper Company would better 
position the company for the production of the copper ore body, which 
exists 7000 feet below the surface of both private and federal land. 
This is a good exchange for Arizona.
    In recent years, the small Arizona town of Superior has been 
devastated by the deactivation of a nearby copper mine. Families have 
separated and local commerce has almost disappeared and the town is 
left with the unsightly remains of the deactivated mining operation. 
Recently, the United States' largest diversified mining company, Rio 
Tinto, discovered an ore body beneath the existing mine many believe 
could be one of the largest in the world.
    Rio Tinto's American affiliate, Resolution Copper Company, must 
invest $100 million in exploration and engineering activities just to 
determine how the mine can be built and successfully operated. As part 
of the feasibility phase there are a number of outstanding issues they 
must address including where they will obtain the water necessary for 
the mining operation, where the water would be discharged and where 
will they put the tailings from the new mine. Resolution Copper Company 
seems committed to answering these questions and to conducting the 
mining operation in a sustainable manner to minimize environmental and 
economic impacts. To justify making an investment of this magnitude, 
Resolution Copper needs access and control consistent with industrial 
development of the surface lands above the proposed mine.
    Resolution Copper has purchased several unique Arizona properties 
for the purposes of embarking upon a federal land exchange, which are 
contained in the bill. To make this package even more attractive, 
Resolution Copper has agreed that if the private property value exceeds 
the public land value, it will allow the excess value to be used by the 
Town of Superior to secure lands integral to economic development of 
the town and then donate the excess to the United States. The 
legislation ensures that all required appraisals, land surveys, and 
pre-existing inventories, clearances, reviews and approvals relating to 
hazardous materials, threatened and endangered species, cultural and 
historic resources, and wetlands and floodplains be conducted prior to 
the consummation of the land exchange. Additionally, Resolution Copper 
has agreed to exclude current mining claims from the appraisal of the 
federal lands.
    In exchange, the people of the United States and Arizona will 
receive thousands of acres that offer some of the most unique natural 
landscapes, wildlife and cultural values in existence.
    There are clear benefits for the people of Superior, Arizona and 
surrounding communities. The proposed mine development will create:

  <bullet> Nearly 1,000 construction jobs
  <bullet> More than 400 permanent, high-quality technical jobs
  <bullet> Nearly 1,500 service-related positions
  <bullet> Annual wages for hourly staff of approximately $60,000
  <bullet> A much needed economic engine for the community
  <bullet> Financial support for educational, recreational and other 
        community initiatives

    This legislation will minimize the conflicts for the proposed 
industrial development activities and recreational users. Resolution 
Copper has agreed to participate financially in the relocation of a 
local campground, secure a conservation easement for a nearby landmark, 
and provide access to an alternative rock climbing area, a popular 
sport near Superior.
    I have personally met with Resolution Copper's Arizona management 
and I recently made an economic development trip to London, where I 
exchanged views with the top management of Resolution Copper's parent 
company, Rio Tinto. I find their attitudes toward local community 
sustainability and commitment to environmental protection refreshing. I 
am encouraged that several of the most prominent conservation 
organizations in Arizona have endorsed acquisition of these properties. 
Finally, I find it promising that the leaders of Superior, Arizona 
recently passed an enthusiastic resolution of support.
    I urge your support and your co-sponsorship of this legislation and 
look forward to discussing this matter with you directly, or your staff 
can contact my Chief of Staff, Dennis Burke, at 602-542-1498, email 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d0d6c1c6dfd1f4d5ce9ad3dbc29a">[email&#160;protected]</a>
    Thank you for considering this request.
            Yours very truly,
                                          Janet Napolitano,
                                                          Governor.
                                 ______
                                 
 Statement of Jason Keith, Policy Director, The Access Fund, on S. 2466
    The Access Fund, America's largest national climbers organization, 
welcomes the opportunity to submit this testimony for inclusion into 
the public record regarding S. 2466, the Southeast Arizona Land 
Exchange and Conservation Act of 2006.

                            THE ACCESS FUND

    The Access Fund is the only national advocacy organization whose 
mission keeps climbing areas open and conserves the climbing 
environment. A 501(c)3 non-profit organization supporting and 
representing over 1.6 million climbers nationwide in all forms of 
climbing rock climbing, ice climbing, mountaineering, and bouldering--
the Access Fund is the largest US climbing organization with over 
15,000 members and affiliates.
    The Access Fund promotes the responsible use and sound management 
of climbing resources by working in cooperation with climbers, other 
recreational users, public land managers and private landowners. We 
encourage an ethic of personal responsibility, self-regulation, strong 
conservation values and minimum impact practices among climbers.
    Working towards a future in which climbing and access to climbing 
resources are viewed as legitimate, valued, and positive uses of the 
land, the Access Fund advocates to federal, state and local legislators 
concerning public lands legislation; works closely with federal and 
state land managers and other interest groups in planning and 
implementing public lands management and policy; provides funding for 
conservation and resource management projects; develops, produces and 
distributes climber education materials and programs; and assists in 
the acquisition and management of climbing resources. For more 
information about the Access Fund, log on to www.accessfund.org.

                              INTRODUCTION

    Located near Queen Creek Canyon in the Tonto National Forest, the 
Oak Flat Campground area has the distinction of being the location for 
a world-class rock climbing and bouldering destination as well as the 
site of a massive copper ore deposit deep beneath the surface.
    The Southeast Arizona Land Exchange and Conservation Act of 2006, 
S. 2466, is designed to transfer the Oak Flat Campground to Resolution 
Copper Company (RCC) in return for a number of private land parcels in 
Arizona. Being a mining company, RCC will most likely develop Oak Flat 
into a copper mine. Depending on how and when RCC pursues the copper 
ore located several thousands of feet below Oak Flat, such pursuit 
could result in the single largest loss of a climbing resource in the 
history of the United States.
    Due to the Access Fund's negotiations with RCC and the thoughtful 
efforts of the entire Arizona congressional delegation, Senator Kyl 
inserted a placeholder provision entitled ADDITIONAL ROCK CLIMBING 
PROVISIONS in the initial version of the bill, S. 1122. Thanks to 
everyone's continued efforts, we believe that the present version of 
the bill (S. 2466) now contains adequate language requiring the 
establishment of replacement climbing resources. Additionally, the 
Access Fund and RCC have negotiated a recreational use license that 
maintains climbing access to Oak Flat unless mining activities render 
the property unsafe.

              THE OAK FLAT CAMPGROUND AND RECREATION AREA

    The federal government has long acknowledged the outstanding value 
of the Oak Flat area as a recreational resource. In 1955 the Eisenhower 
Administration executed BLM Public Land Order 1229 (20 FR 7336) which 
specifically put this land off-limits to all future mining activity. 
The Nixon Administration subsequently issued BLM PLO 5132 (36 FR 19029) 
in 1971 to modify PLO 1229 and allow ``all forms of appropriation under 
the public land laws applicable to national forest lands--except under 
the U.S. mining laws.''
    The Oak Flat Campground and nearby Devil's Canyon are unique 
recreational sites frequented by bird watchers, climbers, hikers, dirt-
bike riders, campers, canyoneers, and other recreational user groups. 
Within a convenient one-hour drive of Phoenix the 5th largest city in 
the United States--Oak Flat is an irreplaceable recreational asset for 
the millions that live in central Arizona as well as the thousands more 
that travel there from out-of-state.
    Although perhaps best known for its unique rock climbing, bird 
watchers also frequent Oak Flat. Many rare and interesting birds have 
been seen at Oak Flats, including four species, which are on the 
national Audubon Society's ``watchlist'' of species that are declining 
and are of a national conservation concern. Oak Flat Campground is a 
``hotspot'' listed on Maricopa Audubon Society's birding website for 
Arizona.
    At the greater Queen Creek/Oak Flat area there are nearly 3,000 
exceptional climbing routes and ``bouldering problems'' which was the 
site of the world's largest annual outdoor rock climbing competition, 
the Phoenix Boulder-Blast (www.boulderblast.com). At the 2004 event,\1\ 
over 700 climbers from around the world competed and hundreds more came 
just to watch the action and enjoy the matchless natural surroundings. 
Part of what makes Oak Flat special for rock climbing is not only its 
proximity to Phoenix but also the ideal layout of cliffs and boulders 
that lend themselves to both climbing and ``bouldering.'' Oak Flat is 
also one of three climbing areas that are on the ``winter circuit'' of 
climbers that travel year-round.
---------------------------------------------------------------------------
    \1\ The 2005 Phoenix BoulderBlast was cancelled in part because of 
the controversy surrounding the mining proposal.
---------------------------------------------------------------------------
             THE ACCESS FUND'S SAVE OAK FLAT-ADVOCACY ISSUE

    The Access Fund first heard about the potential land exchange in 
2004 and Save Oak Flat has been a leading advocacy issue ever since 
because of the potential to be the largest loss of climbing resources 
in U.S. history. Our Save Oak Flat advocacy effort has included 
numerous action alerts to our membership and a petition drive 
collecting over 1,500 local Arizona signatures. This campaign involved 
many congressional meetings, work with Arizona environmental and 
conservation groups, and the Arizona Mountaineering Club. We also met 
with the Arizona governor's office, the Arizona state legislature, and 
local government executives, as well as with the Tonto National Forest. 
Over the course of the last 2\1/2\ years we also met numerous times 
with RCC and their representatives.
    In response to RCC's mining proposal, in 2004 the Access Fund 
helped found the Friends of Queen Creek (www.friendsofqueencreek.org), 
a nonprofit advocacy organization formed to preserve public 
recreational access to the Oak Flat Campground area with over 1,000 
members. Like the Access Fund, the Friends of Queen Creek is not an 
anti-mining group, but rather advocates for multiple uses of public 
lands in the larger Queen Creek Canyonl0ak Flat area.
    After months of public advocacy and negotiating with RCC to 
maintain some public access to Oak Flat, in May of 2006 with the 
assistance of Senator Kyl the Access Fund and RCC executed a public use 
license for continued recreational access to the Oak Flat parcel and 
two other climbing locations in nearby Queen Creek Canyon.

                 THE OAK FLAT RECREATIONAL USE LICENSE

    The Access Fund's Oak Flat license with RCC exemplifies how 
cooperative negotiations can produce acceptable compromises for public 
land uses that seemingly conflict. In this case, RCC will obtain title 
to a profitable mining parcel while climbers will be allowed continued 
recreational access to Oak Flat and environs. The significant 
provisions of this license are as follows:

  <bullet> RCC will allow public access for bouldering and rock 
        climbing to the Oak Flat parcel, in addition to two other 
        parcels already owned by RCC and used by the public for 
        recreation.
  <bullet> This license is revocable at anytime by either party, but 
        with a provision for license renewal beyond the stated five-
        year term.
  <bullet> The Access Fund will work with the Friends of Queen Creek 
        and RCC to ensure that the terms of the license are complied 
        with and that protocol is followed to manage risk and adjust 
        climbing access.
  <bullet> The Access Fund will also work with the Friends of Queen 
        Creek and RCC to fulfill stewardship projects at Oak Flat and 
        Queen Creek Canyon.

    The Access Fund is encouraged that this agreement will remain in 
place at Oak Flat so long as it is safe for climbing to take place 
commensurate with RCC's exploration and mining activities. Furthermore, 
we hope that Arizona climbers will be able to permanently enjoy 
climbing at The Pond and Atlantis (the two additional parcels also 
included in the license) since they are currently very popular climbing 
areas and not within the scope of BCC's future mining plans.
    Although initially there was significant disagreement between the 
Access Fund and RCC regarding an appropriate compromise for continued 
public use of the Oak Flat parcel, the Access Fund greatly values RCC's 
efforts to address the concerns of climbers. In addition to supporting, 
both conceptually and financially, a new Arizona state park that 
provides new climbing opportunities,\2\ RCC has, more importantly, 
worked hard with the Access Fund to negotiate the terms of the 
recreational use license for Oak Flat. Indeed, RCC agreed that the 
license would have an opportunity for renewal beyond the initial five-
year term.
---------------------------------------------------------------------------
    \2\ S. 2466 provides replacement rock climbing at what will become 
known as Tam O'Shanter State Park. This 2,000 acre park will be 
established for public or recreational purposes, specifically, and as 
authorized by the State legislature, rock climbing and bouldering.
---------------------------------------------------------------------------
                               CONCLUSION

    In short, the Access Fund's mission to maintain climbing access and 
preserve the climbing environment was achieved to the extent possible 
in this challenging situation. This was due, in large part, to the 
willingness of the Arizona congressional delegation, as well as RCC, to 
recognize the value of Oak Flat as a world-class climbing resource and 
not just a source of mineral wealth. While we feel that we have made 
the best of an unfortunate situation (securing temporary public access 
to a popular recreation area that may eventually be lost), credit is 
certainly due to RCC for their willingness to consider the interests of 
the American climbing community. In the future the Access Fund will 
continue to advocate diligently preserving our public resources.
    Accordingly, while the Access Fund does not generally endorse land 
exchanges that dispose of public recreation lands, we are pleased that 
RCC sought to address our concerns by providing replacement climbing 
areas and by entering into a recreational use license that preserves, 
at least temporarily, public access to Oak Flat for climbing and 
bouldering.
    Chairman Domenici and members of the Subcommittee on Forests and 
Forest Health, the Access Fund thanks you for the opportunity to 
provide testimony on the Southeast Arizona Land Exchange and 
Conservation Act of 2006.
                                 ______
                                 
                                    The Nature Conservancy,
                                   Phoenix, AZ, September 24, 2004.
Mr. Bruno Hegner,
Vice President and General Manager, Resolution Copper, Phoenix, AZ.

Re: ``Seven B'' property, Lower San Pedro River, Mammoth, Arizona

    Dear Mr. Hegner: In March of this year, Resolution Copper Mining 
acquired the ``Seven B'' property from BHP Copper, Inc. As you know, 
the 3,073 acres of the ``Seven B'' property contains nearly seven miles 
of the lower San Pedro River as well as over 800 acres of ancient 
intact mesquite bosque representing what is probably the largest 
remaining high-quality mesquite forest remaining in Arizona.
    The riparian habitat associated with the San Pedro River corridor 
through the ``Seven B'' property, along with its adjacent and 
contiguous mesquite bosque, represent the two most important wildlife 
habitats currently remaining in the American southwest.
    The ``Seven B'', according to The Nature Conservancy's ecosystem 
analysis of the lower San Pedro River, and the United States Bureau of 
Land Management's San Pedro River Ecosystem Acquisition Plan is one of 
the three highest remaining priority conservation sites along the 
nearly 90 miles of the lower San Pedro River.
    The riparian corridor through the ``Seven B'' is a very important 
part of what is considered to be one of the most critical and 
irreplaceable migration corridors in the western hemisphere for 
neotropical birds. More than 380 species of birds have been documented 
as occurring along or adjacent to the river.
    Because this parcel contains such a lengthy stretch of the river, 
because it contains what is probably the finest and largest remaining 
mesquite bosque in Arizona, because of its superlative wildlife 
habitat, and because of the property's potential role in the recovery 
of several endangered species, including the southwestern willow 
flycatcher, The Nature Conservancy is strongly supportive of federal 
acquisition of this parcel for conservation purposes.
    If there is anything, we can do to assist you with the management 
or eventual protection of this important parcel, please do not hesitate 
to contact us.
            Sincerely,
                                                 Ken Wiley,
                                      Director of Stewardship (AZ).
                                 ______
                                 
      Statement of Don Steuter, Conservation Chair, Sierra Club--
                    Grand Canyon Chapter, on S. 2466

    On behalf of the Sierra Club's Grand Canyon (Arizona) Chapter, we 
urge you to reject S. 2466, the Southeast Arizona Land Exchange and 
Conservation Act of 2006. Our members enjoy--hike, bird watch, climb, 
etc.--and are concerned about protecting the public lands that are a 
subject of this proposed legislation.
    This land swap bill will allow a foreign-owned mining company, 
Resolution Copper Company (Rio Tinto--55% owner--headquartered in the 
United Kingdom, and Broken Hill Properties--45% owner--headquartered in 
Australia), which acquired the old Magma Mine near Superior, Arizona to 
resume mining in the area, to also acquire Oak Flat Campground, located 
in the Tonto National Forest.
    Oak Flat campground was recognized by President Eisenhower as an 
important area back in 1955, when he signed Public Land Order 1229 
which specifically put this land off limits to future mining activity. 
Oak Flat provides many recreational opportunities for Arizonans and 
others from around the country. Recreational activities in the area 
include hiking, camping, rock climbing, birding, bouldering and other 
recreational activities. The Oak Flat area is the largest outdoor 
climbing area in Arizona and home to the largest outdoor climbing 
competition in the world. Oak Flat is also a key birding area. Four of 
the bird species that have been sighted at Oak Flat are on the National 
Audubon Society's watch list of declining species that are of national 
conservation concern: Black-chinned sparrow, Costa's hummingbird, 
Lewis's woodpecker, and Gray vireo. Because of the significance of this 
area, its history of providing a respite for travelers and those 
seeking relief from the hubbub of the urban environment, the Sierra 
Club is strongly opposed to this land swap.
    S. 2466 is unnecessary and at best, premature. If a land swap is 
deemed necessary, it can be accommodated via an administrative action. 
The benefit of this is that it will have a complete and thorough 
environmental analysis, as required by the National Environmental 
Policy Act (NEPA), and will also include an examination of the 
alternatives. This type of analysis can help the public better evaluate 
whether they are getting a fair exchange and also evaluate the true 
environmental impacts of such an exchange. Often a NEPA analysis can 
identify a less environmentally harmful alternative as well. It is 
clear that Resolution Copper Company (RCC) will benefit enormously from 
this exchange as the company has indicated that this is a rich copper 
vein. It is less clear that the public is getting a fair return on the 
loss of Oak Flat.
    A critical issue that is not addressed by this legislation is the 
value of the lands that RCC will acquire. There is no real discussion 
of the known and anticipated mineral values on the US Forest Service 
(public) lands. RCC should not be allowed to hide behind the 
``Confidential and Proprietary'' language that cloaks the ability to 
evaluate whether or not there is any semblance of a fair exchange. 
Again, this analysis and evaluation is something that can and should be 
done via a NEPA process. How can the Congress, in good conscience, 
approve a proposal when it cannot determine whether or not the public 
is getting ripped off?
    Furthermore, there is no hurry on this proposed exchange. Even if 
RCC started moving forward with plans to mine today, it is unlikely 
they would be ready to mine this copper for at least another five to 
ten years. There is plenty of time to do a thorough analysis and look 
at the alternatives, costs, etc.
    Another reason to hold off or to reject this proposal is there is 
no approved plan of operation for this proposed mine. Without that, it 
is impossible to determine the impacts to the geology, the wildlife, 
including at least one endangered species, or the water. Will it result 
in dewatering Devil's Canyon and destroying its riparian habitat? These 
are all issues which must be addressed prior to allowing this proposal 
to move forward.
    Apache Leap, an important cultural and historical land mark 
overlooking the town of Superior, would become private land and be 
within this proposed mine. While the bill requires that RCC place a 
conservation easement on Apache Leap to prevent its destruction, it 
also removes any liability for RCC if they actually do destroy Apache 
Leap through their mining activity under Oak Flat. This is unacceptable 
and irresponsible.
    Cultural resources associated with the Apache are found at and near 
Oak Flat and it is a traditional tribal use area. For this reason, the 
San Carlos and White Mountain Apache Tribes are also opposing this 
proposed land swap. Through a proper NEPA process, this would also be 
examined and any negative impacts on the Apache properly evaluated and 
mitigated. Less damaging alternatives for the tribes' cultural concerns 
could be determined. There is no mention or attempt to address the loss 
of cultural heritage in this legislation.
    The bill gives RCC the responsibility for hiring the appraisers for 
this land exchange. At a minimum, two independent appraisals should be 
performed, not a special appraisal that is contracted by those who are 
seeking the swap. It is unlikely that RCC's appraiser will deliver an 
appraisal that is unsatisfactory to company.
    While the bill attempts to mitigate the impacts on one group of 
``stakeholders''--some of the climbers--it does not address the larger 
loss to the general public. While this is a common tactic to peel away 
opposition and get people to accept what has been presented as 
``inevitable'', it does not result in good public policy. Whether it is 
hikers, birders, the Apache tribes, or numerous other members of the 
public, this bill does not even consider those issues.
    Finally, it is pretty clear that President Eisenhower believed he 
had protected Oak Flat when he issued the executive order. If an area 
that has been protected from mining and other negative actions for over 
50 years, can be given up so cavalierly, what is next? This sets a 
terrible precedent. S. 2466 should be rejected and the impacts of such 
a major action properly evaluated.
    We would like to have our comments on S. 2466 be made part of the 
official record. If you have any questions regarding this matter, 
please do not hesitate to contact us at (602) 253-8633.
    Thank you for considering or comments.
                                 ______
                                 
 Statement of Roger Featherstone, Southwest Circuit Rider, EARTHWORKS, 
                               on S. 2466

    EARTHWORKS is a non-profit, non-partisan environmental organization 
dedicated to protecting communities and the environment from the 
adverse impacts of mineral development. Our national office, based in 
Washington D.C., provides support to citizens across the country and 
around the world. Our field offices in Arizona and Montana assist 
communities throughout the western United States concerned about the 
impact of mineral development in their backyards.
    EARTHWORKS supports responsible mining policies and practices and 
recognizes that some mining companies seek to operate in a manner that 
protects our environment.
    We appreciate the opportunity to express our view in front of the 
Subcommittee about S. 2466, the Arizona Land Exchange and Conservation 
Act of 2006 (Land Exchange).

                               BACKGROUND

    Resolution Copper Company (RCC)--a wholly foreign-owned subsidiary 
of Rio Tinto and BHP, two of the largest mining companies in the 
world--is potentially planning to develop a deep underground copper 
mine. RCC seeks to acquire Oak Flat, Apache Leap, and surrounding 
public lands for its own use through this land exchange bill. There are 
many significant problems posed by this unusual bill. For example, if 
passed, more than 3,000 acres of the Tonto National Forest will become 
private property and forever off limits to recreationists and all those 
who enjoy public lands. Privatization of this land would end public 
access to some of the most spectacular outdoor recreation and wildlife 
viewing areas in Arizona. If the mine is developed, this land would be 
affected by massive surface subsidence, leaving a permanent scar on the 
landscape among other lasting and ongoing damage.
    The Oak Flat Campground was recognized by the Eisenhower 
Administration as an important recreational resource in 1955, and 
specifically placed off limits to future mining activity. This unique 
area is a world-class natural resource for birding, hunting, hiking, 
camping, rock climbing, bouldering, canyoneering, picnicking, 
responsible OHV driving, and other recreational uses. Oak Flat receives 
tens of thousands of visitors each year. On the eastern border of Oak 
Flat is Devil's Canyon, and the waters of Queen Creek, one of the crown 
jewels of Arizona's state trust lands, with some of the finest 
remaining riparian habitat in the state.
    Oak Flat, Apache Leap, Devil's Canyon, and the surrounding area 
have long been an important cultural site for Western Apaches. The 
Tonto National Forest has discovered at least a dozen archeological 
sites in and around Oak Flat. Apaches continue to use the Oak Flat area 
to gather acorns and pine nuts which are highly valued traditional and 
ceremonial foods. Making Oak Flat private land would forever eliminate 
those Apache traditional cultural and religious uses of that unique 
area. Apaches Leap is an historical land known as the Apache's Masada. 
It is hallowed grounds where many dozens of Apaches leaped to their 
deaths when trapped by the US Army.
    The bill contains no environmental studies or even the most basic 
analyses and opportunity for public involvement afforded by the 
National Environmental Policy Act. Furthermore, RCC has not yet filed a 
mining plan and has not offered any information about (1) what will 
become of Oak Flat, Apache Leap, and environs; (2) where the mountains 
of mining tailings will ultimately reside; (3) where the enormous 
amounts of water needed for mining will come from and be discharged; 
(4) how endangered species (such as the Arizona hedgehog cactus, 
echinocereus triglochidiatus arizonicus) will be preserved; and (5) how 
necessary cultural resources will be protected. Importantly, the bill 
makes no mention of the subsidence that could occur if RCC is allowed 
to mine this area as it intends. Much has yet to still be dealt with in 
terms of environmental considerations.

                                OUR VIEW

    This bill is at best premature. Before we can decide on the merits 
of any exchange, the public must review and debate a plan of operation 
for an actual mine. If after full review of a plan of operations and 
options, there is a decision made to move forward with a mine, only 
then should it be determined if a land exchange is needed.
    For this, and other reasons listed below, EARTHWORKS is opposed to 
the land exchange in its current form. If after review of the mine plan 
it is determined that a land exchange is needed in order for the 
operation to move forward, EARTHWORKS may support a similar bill at 
that time. It is possible for the bill to be re-crafted in a manner 
that would be acceptable to us, but it would take substantial work to 
accomplish.

                           RESPONSIBLE MINING

    EARTHWORKS supports responsible mining. The following themes, while 
not exclusive, are critical for the development of a responsible mine:

  <bullet> Details of the project and potential impacts should be made 
        available to affected communities and area residents in an 
        appropriate language and format, and should be made accessible 
        to the public.
  <bullet> The environmental review and decision-making processes 
        should be transparent and should cover all alternatives 
        (including a worst case scenario and analysis of off site 
        impacts).
  <bullet> The public should have the right to comment on the adequacy 
        of the reclamation and closure plan, the adequacy of the 
        financial surety, and completion of reclamation activities 
        prior to release of the financial surety. Self bonding or 
        corporate guarantees should not be permitted.
  <bullet> Companies should obtain the free, prior, and informed 
        consent of indigenous peoples before exploration begins and 
        prior to each subsequent phase of mining and post-mining 
        operations.
  <bullet> Companies should conduct consultations that are culturally 
        appropriate, using mechanisms and institutions that are 
        recognized by the affected indigenous peoples and community--
        women and men--in the area in which they wish to operate.
  <bullet> Indigenous peoples and local communities should be provided 
        with sufficient resources to evaluate a project in order to 
        decide whether, and how, they would like it to proceed.
  <bullet> Companies should not try to extract a community decision in 
        support of mining (or encourage governments to do so for them) 
        as this may divide communities and create dissent.
  <bullet> The company should provide full disclosure of pertinent 
        information regarding a mining project to all groups within 
        potentially affected communities.

    As I will explain below, the land exchange does not meet any of 
these criteria for responsible mining.
    The Land Exchange fails to make details of the project and 
potential impacts available to affected communities and area residents 
or the public in an appropriate language and format.
    The company should provide full disclosure of pertinent information 
regarding a mining project to all groups within potentially affected 
communities.

                                ANALYSIS

    The purported purpose of the land exchange is to facilitate the 
construction of an underground mine by Resolution Copper Company (RCC). 
But to date, the company has not provided full disclosure of any 
information regarding a potential mining project. Even if the public 
objects, the exchange is mandated by Congress and could not be undone.
    The land exchange bill does little to ensure that the land trade 
will fairly compensate the American public for the loss of Oak Flat and 
Apache Leap. The bill requires that an appraisal be completed within 
one year, yet the company itself will have no idea of the full value of 
the minerals that are now held in the public trust. While the company 
says in the press that the deposit they wish to mine is worth billions 
of dollars, the land they wish to trade is only worth a few million. 
The taxpayers deserve a full return on the minerals taken from public 
lands.
    There is no mandate that RCC build a mine if the exchange were to 
be approved. If the company decides not to mine, Rio Tinto and BHP 
would be able to enter into the real estate development business. If 
this bill passes, the land will be private land, allowing mining 
companies to sell the land for condominiums or golf courses. Rio Tinto 
is currently planning a massive housing development on its mine land 
outside of Salt Lake City that could house as many as 500,000-600,000 
people. BHP is planning a large subdivision for 3,500 at its mine site 
near San Manuel. There is nothing to stop RCC from using this bill as a 
grab of public land under the guise of mining.
    The Land Exchange Bill fails to require environmental review. 
Therefore, there will be no decision-making process that discusses 
impacts or alternatives.

                                ANALYSIS

    If the Land Exchange becomes law, Arizona statutes would govern any 
mine that may be built under Oak Flat / Apache Leap. Arizona state law 
does not require a NEPA analysis of the project and alternatives.
    The bill does not call for any alternatives analysis to look at the 
suitability of acquisition of the lands involved in this land exchange. 
An alternatives analysis would enable the public to fully understand 
what it is giving up and what it may gain in the exchange.
    There is no analysis in the bill of the impacts on the land traded 
out of public ownership, including impacts from mining or other uses of 
the land on adjacent lands.
    There is plenty of time to undertake the full public review of any 
possible mine under Oak Flat and Apache Leap. Full public review and 
input would have shown that the area is critically important to Western 
Apache and others--a point that is being glossed over in the current 
rush to approve the exchange.
    The public should have the right to comment on the adequacy of the 
reclamation and closure plan, the adequacy of the financial surety, and 
completion of reclamation activities prior to release of the financial 
surety. Self-bonding or corporate guarantees should not be permitted.

                                ANALYSIS

    There is no discussion about reclamation or closure of a mine in 
the bill. If the land were privatized, Arizona state law would allow 
the company itself to insure the cost of reclamation. This type of 
self-guaranteed bond leaves the taxpayers vulnerable if the mining 
company is to go bankrupt. We should learn from the example of the 
bankruptcies of Asarco and other mining companies. Without cash up 
front for reclamation, the taxpayer would be left responsible for 
reclamation costs.
    Companies should obtain the free, prior, and informed consent of 
indigenous peoples before exploration begins and prior to each 
subsequent phase of mining and post-mining operations.
    Companies should conduct consultations that are culturally 
appropriate, using mechanisms and institutions that are recognized by 
the affected indigenous peoples and community women and men in the area 
in which they wish to operate.
    Indigenous peoples and community women and men should be provided 
with sufficient resources to evaluate a project in order to decide 
whether, and how, they would like it to proceed.

                                ANALYSIS

    The bill fails on all of these principles. Neither the company nor 
the law makers that have sponsored this bill have made any attempt to 
meaningfully consult affected indigenous peoples. In fact, in spite of 
being made aware of indigenous people who were available to testify in 
front of this Committee, none were invited by the Committee to do so.
    Companies should not try to extract a community decision in support 
of mining (or encourage governments to do so for them) as this may 
divide communities and create dissent.

                                ANALYSIS

    RCC has gone to great lengths in this bill to attempt to 
accommodate several interest groups. The bill bends over backwards to 
provide incentives for rock climber support of the bill. The bill's 
sponsors have offered parcels of land that would benefit only certain 
conservation organizations. Yet, the bill locks other groups out of 
areas traditionally used by the public. Not only would Native Americans 
be locked out of traditional-use areas, but so would recreationists and 
birdwatchers. Such a divide and conquer strategy of talking to and 
appeasing only certain special interest groups is not the way to 
conduct good public policy.

                                SUMMARY

    There is no need for a land exchange in order for RCC to move 
forward with plans to mine on public land. The 1872 Mining Law, which 
governs hard rock mining on public land, makes it clear that RCC has 
the ability to build a mine on public land. Of the 183 major hard rock 
mines in the US that have opened since 1975, 137 have operated on 
public land.
    The real solution is to put this land exchange bill on hold and ask 
RCC to submit a Plan of Operation to the U.S. Forest Service so that an 
Environmental Impact Statement can be written to cover all the 
alternatives in the project. RCC has stated that it will not be ready 
to mine for at least 10 years, giving the Forest Service and the public 
plenty of time to scrutinize the mine plan and come up with a solution 
that benefits the mining company, recreationists, and the traditional-
use tribal interests.
    Unfortunately, this land exchange bill leaves many affected parties 
out of decision-making process. The bill takes the decision from the 
many and puts it in the hands of a few, undercutting good decision-
making that would involve and benefit the public and surrounding 
communities. Rather than working out the details behind closed doors, 
RCC should allow for full disclosure and scrutiny. This will allow any 
environmental issues--such as subsidence, water use and pollution 
issues--to be dealt with early on in the process. It will also allow 
RCC to fully consult with the tribes and other constituencies that will 
be affected by the exchange. There seems to be only one reason this 
bill is being rushed through the process--the companies know that the 
only way to get what they want is to circumvent America's tried and 
true public process by asking Congress to mandate a quick fix.
    This land exchange bill would set a chilling precedent, allowing 
for the revocation of similar land withdrawals such as parks, 
recreation areas, and wildlife refuges. Public lands such as Oak Flat 
that are set aside for recreation should remain protected for future 
generations. This land exchange bill would sacrifice the interests of 
Arizonans, and all Americans, to benefit a mining company. Twenty years 
from now--when the mine ceases operation and the mining jobs once again 
leave--what will be the fate of these landscapes? We strongly urge you 
to protect these public lands for the public's future use and preserve 
the unique opportunities for Arizonans that the Oak Flat area provides.
    Recently the public has spoken loudly on several occasions about 
keeping America's public lands public. This is just another land grab 
under the guise of mining. Don't let this happen. There is time to do 
this right.
                                 ______
                                 
      Statement of Curt Bradley, Center for Biological Diversity, 
                         Tucson, AZ, on S. 2466

    We urge you to not approve S. 2466, the Southeast Arizona Land 
Exchange and Conservation Act of 2006.
    Resolution Copper Company (RCC) has desires to mine copper more 
than 7,000 feet below Oak Flat Campground and Apache Leap just east of 
the Town of Superior, Arizona. In order to avoid compliance with 
federal environmental and cultural laws RCC is attempting to acquire 
these public lands.
    We are opposed to this land exchange for several reasons. First, 
this area was specifically withdrawn from mining activity by President 
Eisenhower in 1955. Since then the public has enjoyed the spectacular 
Queen Creek Canyon and Apache Leap for their outstanding biological, 
cultural, and recreational values. Queen Creek Canyon has perennial 
pools of water that sustain life for many species of birds, plants, and 
animals. This riparian area is significant in a state where over 90% of 
the riparian areas have already been lost.
    Second, we believe that mining activities in such a sensitive area 
should be subject to our nation's environmental laws. By transferring 
this area out of public domain, RCC is attempting to avoid public 
oversight of their operations. The block fault mining operation that 
RCC is proposing will consume vast amounts of water. Will the water 
withdrawals affect nearby riparian areas and the species that depend on 
them? Where will the contaminated waste water be dumped? Where will the 
waste rock go? These questions won't be adequately answered if RCC is 
allowed to avoid our environmental laws.
    Third, the Apache Leap is a significant cultural resource. It is an 
area of cliffs where the Apache warriors jumped to their deaths to 
avoid capture by the U.S. Cavalry. I accompanied members of the San 
Carlos Apache Tribe to the Leap and can attest to the many cultural 
artifacts that are present there. This area is still in use by the 
Apache for traditional uses and would be lost if it were transferred to 
the private holdings of a mining company.
                                 ______
                                 
                              Arizona Native Plant Society,
                                          Tucson, AZ, May 19, 2006.
Members of the U.S. Senate,
U.S. Senate, Washington, DC.

Re: S. 2466, the Southeast Arizona Land Exchange and Conservation Act 
of 2006

    Dear Senators: The mission of the Arizona Native Plant Society 
(AZNPS) is to promote knowledge, appreciation, conservation, and 
restoration of Arizona's native plants and their habitats. The AZNPS 
Conservation Committee is concerned that the proposed Southeast Arizona 
Land Exchange and Conservation Act of 2006 would impact the area in 
general, but more specifically, the habitat for the Arizona hedgehog 
cactus (Echinocereus triglochidiatus), a federally-listed endangered 
species.
    We are opposed to any legislative land exchange that would give 
Resolution Copper control over Oak Flat Campground. A legislated land 
exchange bypasses public participation in a process that is virtually 
giving away public lands for destructive uses. We have not witnessed 
true reclamation of lands used for mining and milling and have little 
faith that Resolution Copper would or could accomplish this.
    Oak Flat campground was recognized by President Eisenhower as an 
important recreational resource as far back as 1955, when he signed 
Public Land Order 1229 which specifically put this land off limits to 
future mining activity. Oak Flat Campground is well-known as an area of 
important bird habitat. On the eastern border of Oak Flat is Devils 
Canyon, one of the crown jewels of our state trust lands with some of 
the finest remaining riparian habitat in Arizona.
    Please do not approve this destructive bill that would destroy an 
important piece of America's ecological heritage.
            Sincerely,
                                 Carianne Sienna Funicelli,
                                                Conservation Chair.
                                 ______
                                 
           Statement of Lainie Levick, Tucson, AZ, on S. 2466

    I am writing to urge the Subcommittee to NOT approve the 
Southeastern Arizona Land Exchange and Conservation Act of 2005. This 
act would give Resolution Copper Company (RCC), a foreign-owned mining 
company, public lands that have been withdrawn from mining activity 
since 1955, for the purpose of developing a mine without environmental 
oversight.
    The lands that RCC would receive are extremely important for 
wildlife, cultural and recreational values. Furthermore, the area 
contains rare perennial waters. In Arizona, over 90% of our riparian 
areas have been destroyed due to development. A mine here would not 
only devastate existing springs and streams, it would adversely impact 
surrounding water resources. With our increasing population, water 
quantity and quality issues are becoming major concerns. It is well 
known that mines frequently cause surface and ground water 
contamination.
    Losing these resources to a foreign mining venture is simply not in 
the best interests of the citizens of this country. It is especially 
disturbing that, if RCC gets these lands, they can proceed with their 
project without any opportunity for public input and very little, if 
any, environmental impact analysis. This bill includes no provisions 
for environmental or hydrologic studies to determine the potential 
impact of the mining project. In addition, there are no standards that 
would ensure that RCC would operate an environmentally responsible 
project.
    I urge you again to reject this land exchange bill. It would set a 
terrible precedent to allow mining on lands that had previously been 
withdrawn from mineral entry due to their important biological, 
cultural and recreational values.
                                 ______
                                 
  Resolution Endorsing the Locally Developed User Agreement Resolving 
   Recreational Use Conflicts Within the Hoover Wilderness Planning 
                            Addition (West)

                         RESOLUTION NO. R05-060

    WHEREAS, in the 1984 California Wilderness Act (the ``Act'') 
Congress designated approximately 49,000 acres of land within the 
Humboldt-Toiyabe National Forest as the Hoover Wilderness Planning 
Addition (the ``Planning Addition''); and
    WHEREAS, the Planning Addition is located within the borders of the 
County of Mono; and
    WHEREAS, the Act directed the Forest Service to study the Planning 
Addition and make a recommendation to Congress as to whether or not it 
should be made a part of the National Wilderness System; and
    WHEREAS, the Forest Service conducted an analysis of the Planning 
Addition and made a recommendation to Congress as to the desired 
management o the area. However, Congress has not yet taken action with 
respect to that recommendation; and
    WHEREAS, during the more than twenty years since that time, 
controversy and conflict has existed as to the various recreation uses 
which should take place within the Planning Addition. Those conflicts 
are most intense in the winter when snowmobilers and cross-country 
skiers vie for use of the area; and
    WHEREAS, a group of local recreational users representing both the 
snowmobile and cross country skiing perspectives met over a period of 
more than five months this year, along with two members of this Board, 
to try to develop a management recommendation for the Planning Addition 
that would meet the needs of all future users without dwelling on past 
conflict; and
    WHEREAS, while difficult compromises had to be made on both sides, 
the group succeeded in developing an agreement setting forth management 
recommendations for the Planning Addition, which they have titled the 
``Locally Developed User Agreement Resolving Recreational Use Conflicts 
within the Hoover Wilderness Planning Addition (West) (the 
``Agreement''); and
    WHEREAS, in recognition of the time, effort, and energy which these 
local users have invested in the process, and acknowledging the 
difficulty of the task they set out to accomplish, the Board of 
Supervisors desires to endorse the Agreement and recommend that it be 
carried to the Congress by Mono County's Congressman Buck McKeon.
    NOW, THEREFORE, BE IT RESOLVED that the Board of Supervisors of the 
County of Mono hereby endorses the ``Locally Developed User Agreement 
Resolving Recreational Use Conflicts within the Hoover Wilderness 
Planning Addition (West)'' and recommends that Congressman Buck McKeon, 
in consultation with the drafters of the Agreement, take those steps 
necessary to convert the agreement into Legislation to be presented to 
the United States Congress.
    PASSED, APPROVED and ADOPTED this 2nd day of August, 2005, by the 
following vote, to wit

          AYES: Supervisors Bauer, Cecil, Farnetti , Hazard & Hunt
          NOES:
          NONE
          ABSENT: NONE
          ABSTAIN: NONE

                                                 Byng Hunt,
                                                             Chair.
                                 ______
                                 
Resolution of the Board of Supervisors of the County of Inyo, State of 
  California, Regarding Proposed Legislation Expanding the Wilderness 
System on the Inyo National Forest and Bureau of Land Management Lands 
    Managed by the Bishop Field Office in the Eastern Sierra Region

                         RESOLUTION NO. 2002-34

    WHEREAS, this Board of Supervisors has considered public input, 
both written and verbal, on various proposals to designate additional 
Inyo National Forest and Bureau of Land Management Bishop Resource Area 
lands as Wilderness; and
    WHEREAS, the has been wide public discussion in Inyo County 
regarding proposals to expand the Wilderness System in the Eastern 
Sierra region; and
    WHEREAS, the residents of Inyo County, through the participatory 
and inclusive processes of the Inyo 2020 Forum, identified the 
protection of agricultural lands and access to public lands as 
priorities for action, as well as a desire to increase citizen 
involvement to ensure that decision making at all levels of government 
reflect an understanding of local residents and their concerns; and
    WHEREAS, the 2001 Inyo County General Plan Update Goals and 
Policies Report identifies policies to preserve and protect a variety 
of recreation opportunities, appropriate access to resource managed 
lands, current and future extraction of mineral resources and we of 
public land for agricultural operations; as well as goals to provide 
for a balanced approach of resource protection and recreation and 
resource use of lands in Inyo County; and
    WHEREAS, continued access to public lands and the maintenance of 
land uses on public lands such as recreation, grazing, packing, and 
mining are important components. of the social and economic health of 
Inyo County and its communities; and
    WHEREAS, this Board of Supervisors has a role in the process of 
determining changes to public land designations, the nature of public 
land access, or public land management prescriptions in Inyo County; 
and
    WHEREAS, this Board of Supervisors cannot support the April 26, 
2002 Discussion Draft of the proposed ``California wild Heritage 
Wilderness Act of 2002,'' or future iterations or revisions of this 
proposed legislation, without adequate protection of the overall 
environmental, social, and economic character of Inyo County.
    NOW, THEREFORE, BE IT RESOLVED that, the following concerns and 
issues be addressed in considering the April 26, 2002 Discussion Draft 
of the proposed ``California Wild Heritage Wilderness Act of 2002'' or 
future iterations or revisions of this proposed legislation expanding 
the Wilderness System in Inyo County:

    1. Provide opportunities to obtain local consensus and support for 
any changes to public land designations in bye County and address the 
concerns of residents and public land users;
    2. Ensure, through prior economic analysis, that Inyo County's 
communities and businesses will not be adversely impacted by changes to 
public land designations;
    3. Protect existing recreation, grazing, packing, mining, research, 
archeological and cultural uses on federal lands, including access;
    4. Protect private property rights; including vested water rights, 
and ass to private land inholdings and other lands that may be affected 
by adjoining federal land acquisitions;
    5. Ensure there is no net loss of privately owned property in Inyo 
County as a result of expanded wilderness designations, and
    6. Ensure there is no net loss in revenues to local governments 
necessary to provide and maintain essential public facilities and 
services,
    BE IT FURTHER RESOLVED, that this Board of Supervisors directs 
staff to actively represent the County's issues and concerns throughout 
the legislative process, particularly in the Congressional committee 
mark-up, hearings and amendment processes,
    PASSED AND ADOPTED THIS 7th DAY OF MAY, 2002, BY THE FOLLOWING 
VOTE:

          AYES: Supervisors Arcularius, Bear, Lent, Hambleton and 
        Dorame
          NOES: --0--
          ABSTAIN: --0--
          ABSENT: --0--

                                          Linda Arcularius,
                                                       Chairperson.
                                 ______
                                 
   Resolution of the Board of Supervisors, County of Inyo, State of 
 California, Supporting the Amargosa Wild and Scenic River Designation 
    Proposal, and the Protection of Inyo County Road Issues and the 
  California Department of Transportation's Ability to Maintain State 
                               Route 127

                         RESOLUTION NO. 2004-51

    Whereas, the Amargosa River begins its journey In the desert 
mountains bordering Death Valley National Park, where along its nearly 
200-mile journey, the seasonal flow of the Amargosa is fed by 
streamside springs as its winds its way above and below ground to 
Badwater. California in Death Valley National Park, making a j-shaped 
turn, ending just 50 miles from its origin near the communities of 
Tecopa and Shoshone in Inyo County: and
    Whereas, the Amargosa River canyon has been inhabited for over 
10,000 years as evidenced by the artifacts still found along the river, 
such as ``sleeping circles,'' mortar and pestles, fire stones, 
petroglyph carvings, and other artifacts which are protected by federal 
law but are often ruined or stolen by thoughtless as of vandalism and 
theft; and
    Whereas, the waters of the Amargosa (Spanish for bitter) sustain a 
wide array of fish, wildlife, and streamside plants, including 
threatened and endangered species, like the Southwest willow flycatcher 
and the yellow-billed cuckoo, two sensitive fish species, a rich 
variety of Mafia including reptiles, insects & mammals, as well as 
diverse plant life which inhabit the river canyon; and
    Whereas, for thousands of years, the Amargosa River has eroded 
through layers of sedimentary and volcanic rock, as well as colorful 
clay deposits creating remarkable cliffs and scenic desert landscape, 
and where in nearby layers of volcanic ash fossilized foot prints of 
mastodons, camels, and early horses have been identified, as well as 
the discovery of bones of ancient elephants, which has led this area to 
be called ``the Shoshone Zoo;'' and
    Whereas, the locals have nicknamed this area of Inyo County the 
``gateway to Death Valley'' since many of the 1.7 million visitors to 
the National Park continue their travels into the Tecopa/Shoshone area 
to enjoy the variety of recreational opportunities like hiking, biking, 
exploring, birdwatching which are available as a result of the rich 
diversity of the Amargosa Canyon; and
    Whereas, the Bureau of Land Management has Identified a 26-mile 
stretch of the Amargosa River between Shoshone and Tecopa eligible for 
National Wild & Scenic River Status because of its outstanding scenic, 
historic, cultural, geological, paleontological, ecological and 
recreational values; and
    Whereas, receiving ``wild and scenic'' designation will protect 
this Malt extraordinary resources for human use now and for future 
generations, it will enhance opportunities for tourism and sustainable 
economic development, as well as being the first desert river in 
California to achieve this level of protection; and
    Whereas, it is imperative that State Route (SR) 127 be maintained 
by California Department of Transportation (Caltran) in order to 
provide safe reliable travel in that part of the County; and
    Whereas, it is imperative that the Amargosa Wild & Scenic River 
Proposal address Inyo County local road requirements, maintenance and 
Improvement needs; and
    Whereas, Inyo County fully supports Caltran's comments regarding 
the Amargosa Wild and Scenic River Proposal Identifying their 
requirements to ensure that SR 127 continues to provide a safe and 
reliable transportation route for users of SR 127.
    Now, therefore, be it resolved, that the Board of Supervisors of 
the County of Inyo My supports the Bureau of Land Management's Amargosa 
Wild and Scenic River Proposal to protect a 20-mile stretch of the 
Amargosa River in the Shoshone/Tecopa area of Inyo County.
    Now, therefore, be It furor resolved, that Inyo County supports the 
efforts of the California Department of Transportation to maintain SR 
127 as a safe and reliable route in the southeastern portion of Inyo 
County.
    Passed and Adopted by the Inyo County Board of Supervisors this 
19th day of October, 2004, by the following vote of the Board of 
Supervisors:

          AYES: Supervisors Arcularius, Bear, Williams, Hambleton and 
        Dorame
          NOES: --0--
          ABSTAIN: --0--
          ABSENT: --0--

                                 Carroll M. Hambleton, Jr.,
                                                       Chairperson.
                                 ______
                                 
                                   Trout Unlimited,
                                   Public Lands Initiative,
                                       Arlington, VA, May 24, 2006.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.

Hon. Ron Wyden,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Craig and Senator Wyden: Please accept these written 
comments for the May 24th Subcommittee hearing record regarding S. 
2567, the Eastern Sierra Rural Heritage and Economic Enhancement Act.
    Trout Unlimited (TU) is the nation's largest coldwater fisheries 
conservation organization dedicated to the protection and restoration 
of our nation's trout and salmon resources, and the watersheds that 
sustain those resources. TU has more than 160,000 members, including 
more than 12,000 in California, organized into 450 chapters in 38 
states. Our members represent a small portion of the more than two 
million licensed anglers in California. You may be aware that sport 
fishing contributes more than $2 billion annually to the state's 
economy.
    TU supports the provisions in S. 2567 that would designate 40,000 
acres of land as wilderness because such designation will help preserve 
and protect the extraordinary hunting and fishing opportunities and 
outdoor heritage of the Eastern Sierra Nevada.
    In particular, S. 2567 will provide enhanced protection for three 
rivers which are very important to anglers, the West Walker River, the 
East Fork Carson River, and the Stanislaus River. These rivers rank 
among the finest trout fisheries in California and our members place 
very high value on the trout habitat and angling opportunities provided 
by these three rivers.
    The East Fork Carson, designated a State Heritage Trout Water, 
hosts a small population of the rare Lahontan cutthroat trout. The 
Lahontan cutthroat, currently listed as threatened under the Federal 
Endangered Species Act, is native only to drainages in the eastern 
Sierra. The East Fork Carson also is designated a State Wild Trout 
Water, with a blue ribbon reach downstream of Markleeville where trophy 
rainbows can be caught.
    A portion of the West Walker River, from its headwaters to the town 
of Walker, is currently designated as a federal Wild and Scenic River. 
The lower reaches of the West Walker (before it exits California) are 
known for their trophy-sized rainbow trout, and two State Wildlife 
Areas are centered around the upper West Walker.
    The Middle Fork of the Stanislaus River is one of the most fertile 
fishing streams along the west slope of the Sierras, and is designated 
a State Wild Trout Water. The Stanislaus' cold, clean water--one of the 
principal conditions required for good salmonid habitat--flows from 
lands either abutting or incorporated in the 640 acres of land proposed 
for addition to the Emigrant Wilderness.
    It is a well established scientific precept that protection of the 
upper watershed is critical to the downstream ecological health of a 
river. The headwaters of the West Walker, East Fork Carson, and Middle 
Fork Stanislaus rivers originate in or flow through the 40,000 acres of 
land that would be designated as wilderness if S. 2567 is enacted into 
law.
    Thank you for considering these comments.
            Sincerely,
                                              Sam Davidson,
                                      California Field Coordinator.
                                 ______
                                 
    Statement of Peter Downing, Legislative Director, Southern Utah 
                    Wilderness Alliance, on S. 2788

    These comments are submitted on behalf of the Southern Utah 
Wilderness Alliance with regard to S. 2788, ``The Utah Recreational 
Land Exchange Act of 2006.'' This legislation was introduced last year 
as S. 1135 and more recently as S. 2788. We are pleased that the 
Committee is taking up land exchange legislation that would enable 
public acquisition of many spectacular Utah wild lands. We believe that 
the recently reintroduced version of the legislation, S. 2788, contains 
many significant conservation improvements from S. 1135. Our comments 
highlight conservation and recreation aspects of the legislation. We 
support the committee's effort to fully vet the other aspects of the 
legislation, including the exchange methodology, valuation, and effect 
on existing laws.
    We have yet to see the final legislative map, but have worked 
closely with the State of Utah's School and Institutional Trust Lands 
Administration (SITLA) and other stakeholders on preliminary maps. We 
will carefully review the final map as it will profoundly affect which 
parcels are traded to SITLA, acquired by BLM, protected from mineral 
entry, protected from oil and gas development, and incorporated into 
wilderness study areas. The map will also provide important information 
about the timing and process for exchanging the parcels.

                          UTAH LAND EXCHANGES

    The Southern Utah Wilderness Alliance and its over 13,000 members 
across the nation are committed to ensuring that the public has the 
opportunity to cherish and enjoy the rare and uncommon natural 
landscapes found throughout the State of Utah for generations to come. 
The Southern Utah Wilderness Alliance, for the past twenty years, has 
been deeply involved in an effort to designate deserving public lands 
of the Colorado Plateau and West Desert regions of Utah as part of the 
National Wilderness Preservation System. Helping the American public 
appreciate and preserve Utah's remarkable natural landscape and natural 
heritage is a critical part of our ongoing effort to achieve the goal 
of lasting conservation for Utah's wild treasures.
    The Southern Utah Wilderness Alliance supports the concept of BLM 
acquiring State lands that are located within areas proposed for 
wilderness designation. Today, the State owns about 3.5 million acres 
of largely isolated square-mile blocks on BLM lands throughout Utah. 
Many of these parcels are located within proposed wilderness units and 
may be inconsistent with broader public conservation goals for that 
landscape and SITLA's obligation to generate revenue for its public 
school systems. In this case, land exchanges can benefit both the state 
education and public land conservation.
    Two land exchange bills in prior Congresses have helped maximize 
conservation potential for certain BLM lands while helping satisfy 
SITLA's economic and development objectives. In 1998, all 175,000 acres 
of state lands in the Grand Staircase-Escalante National Monument were 
transferred from state to federal ownership in exchange for financial 
compensation and less sensitive federal land parcels outside of the 
newly designated monument.\1\ In 2000, Congress passed similar 
legislation exchanging over 100,000 acres of state land from proposed 
wilderness areas in Utah's West Desert.\2\ Both initiatives were strong 
positive steps for wilderness protection and for Utah's schoolchildren.
---------------------------------------------------------------------------
    \1\ P.L. 105-335
    \2\ P.L. 106-301
---------------------------------------------------------------------------
    At the same time, the never-enacted San Rafael Swell land exchange 
legislation, H.R. 4968 introduced in the 107th Congress, exposed 
problems that can occur in land exchange legislation and the need for 
carefully reviewing land exchange legislation.

                       PURPOSE OF THE LEGISLATION

    The Utah Recreational Land Exchange Act of 2005 would direct the 
Bureau of Land Management (BLM) to enter into a land exchange with 
SITLA. As we understand this legislation, roughly 40,000 acres of BLM-
owned land (and subsurface rights) would be exchanged for roughly 
40,000 acres of SITLA-owned land (and subsurface rights).
    The Act states that, ``it is the purpose of this act to further the 
public interest by . . . acquiring State trust land with important 
recreational, scenic, and conservation resources for permanent public 
management and use.'' The public would relinquish ``Federal land that 
has limited recreational and conservation resources.'' While the 
legislation does not provide lasting wilderness protection, we think 
that S. 2788 has the potential to achieve its stated purpose of 
providing the public with lands important for their conservation, 
scenic, and recreation values if the map and text are sufficiently 
explicit about the fate of the BLM-acquired lands.
    The findings in S. 2788 reflect our view that many regions in and 
around the Colorado River corridor, the Books Cliffs, and Dinosaur 
National Monument possess significant natural and conservation values. 
These findings recognize wilderness study areas and citizens proposed 
wilderness areas as significant considerations in making the land 
exchange. The findings also acknowledge that development of State owned 
land within these recreationally significant areas ``may be 
incompatible with managing the area for recreational, natural, and 
scenic resources.''
    Rather than frustrate both the State's financial mandate and the 
federal government's conservation efforts by maintaining the status 
quo, S. 2788 allows for a mutually beneficial land exchange. We believe 
the legislation's purpose can be realized in concert with the State's 
goal of maximizing revenue from its State Trust Lands provided lands 
designated for State acquisition are located in areas appropriate for 
development.

              STATE LANDS IDENTIFIED FOR CONVEYANCE TO BLM

    The original legislation S. 1135 and the House companion H.R. 2069 
reference a map for the land exchange dated February 9, 2005. S. 2788 
does not use the February 9, 2005 map. The bill proposes several 
undated maps that are not yet available. We appreciate that SUWA was 
given an opportunity to have input on draft maps in recent months, but 
we have not yet seen a final versions of those maps. We hope the final 
maps can be made available as soon as possible. We would urge the 
Committee to leave the hearing record open until the official 
legislative maps have been released so stakeholders can amend their 
testimony pending review of the maps.
    We support the acquisition of state-owned lands as identified on 
the original February 9, 2005 map referenced in S. 1135. In large part, 
lands identified for acquisition by the BLM lie along the beautiful and 
scenic Colorado River corridor northeast of the town of Moab, Utah. 
Additional non-federal lands are located in the vicinity of Dinosaur 
National Monument and the Book Cliffs proposed wilderness.
    We believe that the lands and subsurface rights proposed for public 
acquisition do a great deal to further conservation and recreation in 
some very spectacular Utah landscapes.
    The vast majority of state-owned lands identified in the 
legislative map are located within areas proposed for wilderness under 
the Utah Wilderness Coalition's wilderness proposal, introduced in this 
Congress as America's Red Rock Wilderness Act (H.R. 1774/S. 882). The 
legislation's findings recognize the significance of the ``multiple 
wilderness study areas and proposed wilderness areas.'' The recreation 
and conservation values of these lands are also evidenced by the fact 
that many of the lands to be acquired by the BLM are located within 
viewsheds of Arches National Park and Dinosaur National Monument.

        BLM LANDS IDENTIFIED FOR CONVEYANCE TO THE STATE OF UTAH

    The BLM lands identified for conveyance to the State do not 
conflict with proposed wilderness areas of America's Red Rock 
Wilderness Act. We appreciate that Senator Bennett's legislation does 
not propose to convey to SITLA BLM lands that are proposed for 
wilderness designation.

                           EXCHANGE OF LANDS

    Since the ``Utah Recreational Land Exchange Act'' would be a 
legislative rather than administratively directed land exchange, 
Section 4 contains a variety of directives related to initiating the 
exchange and timing of the exchange. We recognize that many millions of 
acres of State-owned land are scattered throughout Utah and that SITLA 
is seeking certainty in this exchange. That may be the general reason 
behind including the provision in Subsection 4(a) ``Notwithstanding any 
other provision of law . . . .'' We would urge the committee to examine 
the practical effect of the language in Sec. 4(a) on this exchange.
    We also realize that a timely exchange can benefit both 
conservation goals and the State's development priorities. Phasing of 
the parcels is generally described Section (4)(b)(2), however this 
language needs to be fleshed out on the map. SUWA will review the map 
for its phasing instructions and would urge the committee to do so as 
well. Our hope is that valuable conservation parcels are appraised and 
conveyed in a timely manner. We want to avoid a situation in which BLM 
fails to acquire valuable conservation lands because the parties cannot 
agree on an appraisal value.

            EXCHANGE VALUATION, APPRAISALS, AND EQUALIZATION

    Language has been added in Subsection 5(c) in response to 
suggestion from conservation groups about improved transparency in the 
equalization process and better public notice and public review.
    The original equalization language of S. 1135 allowed only the 
removal of BLM parcels from the exchange if the value of the selected 
SITLA parcels was greater than the value of the selected federal 
parcels. It did not grant BLM the authority to select additional 
federal land to convey to BLM to equalize the value. S. 2788 has added 
language that allows BLM to select additional lands to convey to SITLA 
until the value of the federal land and SITLA land is equal. Section 
5(c)(A) appears to require any BLM lands traded to SITLA meet the 
following criteria: the federal lands are mutually selected by the 
Secretary and SITLA; and the Secretary has identified the federal lands 
for disposal in a resource management plan. It is unclear if both of 
these criteria must be met, or if this language allows either criteria. 
As such, we would urge the committee to review the intent and effect of 
this provision.
    We favorably note Section 5(c)(3) which adds better opportunities 
for public review of the exchange if parcels are added or removed from 
the exchange. We would recommend clarification to ensure that valuable 
public conservation lands, such as those within America's Red Rock 
Wilderness Act, are not conveyed out of public ownership as a result of 
the equalization process.

              STATUS AND MANAGEMENT OF LAND AFTER EXCHANGE

    In addition to selecting lands that provide for public conservation 
and recreation, SUWA supports management and administration for BLM-
acquired lands that help achieve this goal. We urge the committee to 
approve language in the bill that would permanently withdraw BLM 
acquired lands from oil and gas leasing. We also urge the committee to 
work on language that would grant BLM acquired parcels of lands within 
wilderness study areas the statutory wilderness study area protection 
those lands deserve.

Mineral Entry Withdrawal
    We support the improvements in Sec. 6(a)(2)(A) and Sec. 6(a)(2)(B) 
that help support the conservation and recreation objectives of the 
legislation.
    Sec. 6(a)(2)(A) withdraws all federally acquired land from oil and 
gas leasing and development for the later of two years or the 
completion of the Moab Field Office resource management plan. This is a 
reasonable short term approach to ensure that lands newly acquired by 
the BLM are not immediately turned over for oil and gas leasing, but it 
would not provide lasting protection for the many valuable conservation 
lands BLM would acquire.
    We are pleased that a more lasting form of protection is provided 
in Sec. 6(a)(2)(B) for certain lands identified on the legislative map. 
This subsection seeks to permanently withdraw parcels identified on the 
legislation map from all forms of mineral entry. We have not yet seen 
the legislative map, so it is not possible to know what affect this 
language will have on lands proposed for BLM acquisition. We hope the 
final map will acknowledge the conservation and recreation benefits of 
protecting the proposed wilderness lands along the Colorado River, 
Arches National Park, Dinosaur National Monument, and the Castle Valley 
water shed. We urge the committee to review this language to determine 
if it achieves the desired goal of preserving these lands for 
conservation.
    Achieving this protection is an important conservation priority as 
many conservation lands are under intense pressure from oil and gas 
leasing. During the past several years BLM has repeatedly proposed to 
lease recreationally and naturally significant wilderness quality lands 
for oil and gas exploration and development. On February 18, 2004, for 
example, the BLM offered 23 parcels located in close proximity to 
Dinosaur National Monument for oil and gas leasing. Four of those 
parcels were located within Diamond Mountain--an area originally 
proposed for BLM acquisition in the February 2005 map--and two were 
located within Moonshine Draw proposed wilderness area. Five proposed 
lease parcels actually touched the boundary of Dinosaur National 
Monument. The BLM failed to analyze the potential site-specific impacts 
of leasing and development of these parcels prior to offering the 
parcels for oil and gas leasing. These parcels were protested by SUWA 
and other conservation organization, and BLM denied these protests on 
September 30, 2005.
    In another example, in September 2004, the BLM proposed to lease 
lands bordering the lower segment of the Green River, a waterway 
renowned for back country river running opportunities. Further, in May 
2005 the BLM proposed to lease public lands outside ``Parowan Gap''--a 
literal treasure trove of Native American rock art--in southwest Utah. 
BLM denied a protest filed by SUWA and other conservation organizations 
for both the September 2004 and May 2005 lease sales. In August 2005, 
the BLM proposed to lease 3,200 acres of lands within eyeshot of 
Canyonlands National Park.
    The BLM has shown that it is willing to lease areas that are rich 
in conservation and recreational values. Given that S. 2788 proposes 
the exchange to further public conservation and recreation priorities, 
we urge the Committee to ensure this goal is met by ensuring the 
legislative map adequately protects conservation lands from new oil and 
gas leasing. SUWA has enclosed letters from concerned citizens of Moab 
urging that the lands in question be withdrawn from oil and gas 
leasing.
    The withdrawal of the BLM proposed acquired parcels would be 
consistent with earlier actions taken by the Department of the Interior 
to preserve BLM lands along the Colorado River for conservation and 
recreation. On September 11, 2004, Interior Secretary Norton signed an 
order protecting roughly 112,000 acres of scenic public land located 
along the Colorado, the Dolores, and Green Rivers from new hard rock 
mining claims. Many of the SITLA lands contemplated for BLM acquisition 
in S. 2788 are located in the area affected by Secretary Norton's 
moratorium on new hard rock mining claims. Protecting the BLM proposed 
acquired parcels from future oil and gas leasing would add to the 
Department's earlier conservation order.

Wilderness Study Area Protection
    From the February 2005 map it appears that 16 parcels are either in 
or directly adjacent to existing wilderness study areas. S. 2788 states 
that the administration of lands acquired by BLM, ``shall become part 
of, and be managed as part of, the Federal administrative unit or area 
in which the land is located.'' \3\ This language does not give 
sufficient direction to the BLM to ensure that such parcels will be 
incorporated into the wilderness study area in which they belong. 
Therefore, we urge the committee to work out additional language that 
would more explicitly direct BLM to designate parcels in and directly 
adjacent to WSAs as wilderness study areas.
---------------------------------------------------------------------------
    \3\ Sec. 6(a)(1)
---------------------------------------------------------------------------
Public interest Provision
    Section 6(e) contains language stating that the land exchange 
``shall be considered to be in the public interest under section 206(a) 
of FLPMA. It is unclear that the effect of this language would be on 
this exchange, the future administration of the lands involved in the 
exchange, or future land exchanges in Utah. Therefore, we would urge 
the committee to review this language.

                               VALUATION

    SUWA does not have special expertise on valuation methodology. Sec. 
5 sets forth a lengthy valuation and exchange process. We urge the 
Committee to review this language and consult with the Department of 
the Interior to fully vet these provisions.

                               CONCLUSION

    The Southern Utah Wilderness Alliance is hopeful that we will be 
able to support the legislation when all components of the bill are 
available. We have yet to see the final map and that is a piece of 
crucial information that we must carefully review. We will be paying 
particular attention to how well the map protects conservation and 
recreation lands from oil, gas, and mineral development. Overall, we 
feel that this exchange is a noteworthy example of how diverse 
stakeholders can work constructively together. SITLA, in particular, 
has worked to ensure that all stakeholders are given a fair chance to 
be involved. As a result, the legislation before the committee reflects 
months if not years of hard work by many different stakeholders. We 
look forward to making progress on this important land exchange bill.
                                 ______
                                 
    Statement of Janine Blaeloch, Director, Western Lands Project, 
                         on S. 2788 and S. 2466

    The Western Lands Project is a non-profit, membership organization 
founded in 1997 to conduct research, outreach, and advocacy for reform 
in federal land exchange policy. We also scrutinize a broad range of 
projects that propose to sell, give away, or relinquish public control 
of public lands. We have submitted testimony to this committee and 
corresponded with individual members many times regarding congressional 
land exchange and conveyance proposals.
    Today we submit our concerns regarding both S. 2788 and S. 2466.

          S. 2788, UTAH RECREATIONAL LAND EXCHANGE ACT OF 2006

    Our organization has reviewed 3 previous legislative proposals for 
large land exchanges between the BLM and Utah School and Institutional 
Trust Lands Administration (SITLA). These were the Utah Schools 
Exchange of 1998, the West Desert trade of 2000, and the doomed 
Federal-Utah State Trust Lands Consolidation Act (San Rafael Swell 
trade) of 2002. We raised substantial concerns about these 
transactions, including problems with the land appraisal methodologies 
used; site-specific problems with lands that would be relinquished by 
the United States; and circumvention of the Federal Land Policy & 
Management Act (FLPMA) and National Environmental Policy Act (NEPA).
    We were deeply involved in scrutinizing the 2002 San Rafael Swell 
land exchange, which ultimately failed due to manipulations in the 
appraisals that would have cost federal taxpayers an estimated $117 
million. The uproar over that project led to an audit by the Interior 
Inspector General; a scathing report on Interior appraisal practices by 
the Appraisal Foundation; and a complete re-structuring of Interior's 
appraisal division. There was also a steady stream of bad press for all 
involved.
    The present proposal essentially came out of the ashes of the San 
Rafael debacle, so it is disappointing to note that so few lessons have 
carried over from that experience. The substantive bill language in S. 
2788 begins in Section 4 with a full waiver of any other law that might 
apply to this land exchange--certainly not an auspicious beginning. 
Relevant laws that come to mind in this case would be the Federal Land 
Policy & Management Act (FLPMA) the National Environmental Policy Act 
(NEPA), the Endangered Species Act, and the National Historic 
Preservation Act.
    FLPMA is intended to protect the public by ensuring equal value and 
mandating a public interest determination for any land trade. Equally 
importantly, FLPMA provides a deliberative resource management planning 
(RMP) process by which public lands ``suitable for disposal'' are 
identified. Land exchange proposals such as this one that do not adhere 
to the RMP may trade away lands that are not at all suitable for 
disposal.
    The NEPA process mandates analysis and disclosure of environmental 
impacts, helping both the public and decision-makers understand what is 
being lost and gained in a land exchange, and how it relates to other 
projects. The error of bypassing this analysis has been proven many 
times. The San Rafael Swell bill stated outright that no sensitive 
resources would be traded out of public hands, and without NEPA 
analysis, one had to simply take the sponsors' word. However, local BLM 
staff released an internal analysis of the public parcels that showed 
the public would in fact be losing significant T&E species habitat, 
wetlands, and paleontological and cultural resources.
    NEPA also provides for the analysis of alternatives--an element 
that is particularly well-suited to land exchanges, because it has the 
potential to shape an exchange proposal into something that really 
works for both parties. In addition, the public involvement process 
under NEPA is a more predictable and accessible than that which is 
provided through the legislative process.
    The Western Lands Project submitted testimony against the House 
version (HR 2069) of the present bill, noting that HR 2069 replicated 
virtually every major flaw in the San Rafael proposal. We note that 
some of the egregious provisions in HR 2069 have been excluded from S. 
2788, including a special appraisal methodology allowing the use of 
conservation sales/purchases as comparable sales for the appraisals. 
That provision was in direct conflict with the Uniform Appraisal 
Standards for Federal Land Acquisition (UASFLA) and mimicked one of the 
worst elements of the corrupt San Rafael Swell deal.
    Unfortunately, two unacceptable appraisal-related provisions have 
been carried over into SR 2788 in Section 5. One calls for the joint 
selection of a third-party appraiser, which flies in the face of the 
hard-won appraisal reforms coming out of the San Rafael proposal. 
Appraisals should be performed by the Appraisal Services Directorate--
the very entity that was created post-San Rafael both to shield 
Interior Department appraisers from political pressure and to ensure 
adherence to proper standards. To circumvent that structure and the 
reform it represents is at least counterintuitive and at most a 
betrayal of the public interest.
    The second harmful appraisal-related provision has to do with the 
mineral valuation of unleased federal land and the disposition of 
royalties. This language is not clear, but it appears to preemptively 
erase mineral value on federal land traded to SITLA that is likely to 
yield SITLA a high return from minerals in the future. In any case, 
this language does not belong in the bill because it amends an 
appraisal process that is already outlined in UASFLA.
    The second-to-last provision in the bill is a statement that the 
land exchange ``shall be considered to be in the public interest,'' a 
cavalier declaration that can only stem from utter denial of the 
problems attendant to past land deals between the U.S. and SITLA.
    In light of past experience with BLM-SITLA land exchange proposals, 
we believe that the BLM should exchange land with SITLA only through 
the administrative (agency) process and under FLPMA and NEPA. 
Regrettably, SITLA has proven time and again that it will squeeze every 
advantage it can from these deals, with custom-designed provisions and 
constant pressure to expedite. SITLA would no doubt say that is its job 
for the people of Utah, but if the agency wants to make a deal with the 
American public it should learn to follow the rules rather than make up 
its own.
 s. 2466. southeast arizona land exchange and conservation act of 2006
    A primary problem with S. 2466 is that there does not seem to be 
any public benefit driving the exchanges or conveyances in the bill. 
The purpose of the bill is to give Resolution Copper possession of a 
prized piece of public land--everything else in the bill is apparently 
designed to try to make that action seem less harmful.
    It is particularly alarming that the land Resolution Copper covets 
is currently protected from mining under an Executive Order issued 50 
years ago that would be nullified with the signing of this bill--
although one would not know that from the bill, because it does not 
mention it. As too often happens with legislated land exchanges and 
conveyances, yet another piece of public land ``permanently'' protected 
is being put on the block because a private interest has use for it.
    We understand that some interest groups agreed to suspend their 
opposition to the trade of Oak Flat or even come out in support of this 
legislation in exchange for public acquisition of parcels that met 
their specific interests. It should be noted that a proposal that 
serves a small cadre of ``stakeholders'' is not necessarily one that 
serves the public at large, particularly considering that the stealth 
removal of the protective Executive Order could have implications for 
public lands everywhere.
    The bill contains numerous special provisions that are apparently 
intended to demonstrate Resolution Copper's public-spiritedness--but 
which actually leave the impression that the company stands to make so 
much money on mineral extraction at the Oak Flats that it can afford to 
be magnanimous. These provisions include appraisal changes that 
eliminate the discount in value that would normally occur on the Forest 
Service land as a result of unpatented mining claims on the land and 
the proposed conservation easement.
    The bill also has Resolution paying virtually all of the costs. On 
one hand (and all other issues aside), this is only fair, since the 
public should not be paying for land deals that are designed to benefit 
a private party. On the other hand, Resolution having equal say in 
selection of an appraiser and also paying for the appraiser does not 
bode well for an impartial valuation.
    The bill also contains sales of federal land to the Town of 
Superior, none of which can be said to serve any broader public 
interest. One is a 30-acre cemetery conveyance, but it is not clear 
whether the parcel is entirely occupied by a cemetery or other future 
uses might be anticipated on some of the land.
    The second sale is of a reversionary interest covering land at the 
Superior airport. The airport land was originally conveyed to Pinal 
County by the Forest Service under an old statute aimed exclusively at 
providing land for community airports. (Pinal later conveyed the land 
to Superior). Now, the reversionary clause--a mechanism designed to 
protect the public interest--would be nullified, giving the town free 
rein to sell or develop the land for private economic development. The 
town would also be allowed to purchase up to 181 additional acres of 
federal land near the airport.
    None of this would be done through the NEPA/FLPMA process. Rather 
than having a full analysis of what the public would win or lose in the 
bill, we are presented with a fait accompli consisting of what 
Resolution and a few groups have shaken hands on.
    Because the impetus behind this bill is not the public interest but 
Resolution Copper's interest, it is doubly important that we have the 
benefit of the analysis, disclosure, and deliberation these statutes 
provide.
    Thank you for your consideration of these comments.
                                 ______
                                 
                                      Moab, UT, September 26, 2005.
Chairman and Ranking Member,
Subcommittee on Forests and Forest Health, House Resources Committee, 
        U.S. House of Representatives, Washington, DC.

Subject: Utah Recreational Land Exchange Act of 2005--H.R. 2069

    Greetings from Moab, Utah: I am resident of Moab, Utah and would 
like to urge you to approve the Utah Recreational Land Exchange Act of 
2005. The land near Moab and the Colorado River, which is to be 
acquired, is stunningly beautiful and each section is uniquely 
different. The proposed acquisition contains natural arches (``Little 
Rainbow Bridge'' aka Corona is just one example), towering spires 
(Fisher Towers), and permanent free-flowing creeks (Mill Creek) as well 
as beautiful red rock vistages.
    I have been a trail maintenance volunteer for the BLM Moab Field 
Office for the past 5 years, and have worked trails in or near at least 
3 of the proposed land acquisition areas thus I am familiar with the 
land, its value to the community and to all who come to Moab and to 
enjoy it.
    Since the land is to be acquired under the title of 
``Recreational'', it seems to me that any mineral rights should be 
withdrawn forever. The land is priceless if it is maintained for 
recreation. If the trade goes forward without protection, and then the 
land is leased for mineral extraction, the entire purpose of the land 
exchange is lost.
    Thanking you in advance for protecting this land for us and for 
future generations.
            Sincerely,
                                                  Virginia Carlson.
                                 ______
                                 
                                      Moab, UT, September 26, 2005.
Chairman and Ranking Member,
Subcommittee on Forests and Forest Health, House Resources Committee, 
        U.S. House of Representatives, Washington, DC.
    Dear Chairman and Ranking Members: As a long-time resident of Moab, 
Utah, I have long been involved in public lands issues. Moab is the 
nearest town to many of the lands being acquired in the Colorado River 
land exchange bill. I would like to express my strong support for the 
bill, however, I am concerned that the current language does not 
actually assure conservation of the lands acquired by the Bureau of 
Land Management (BLM).
    BLM has been aggressively leasing public lands in Utah for energy 
development, especially around Moab and Dinosaur National Monument. The 
current bill does nothing to protect the acquired lands from being 
nominated and leased for drilling. Such drilling activities would make 
no sense for the parcels being acquired by BLM in this exchange, given 
the nature of the parcels themselves and the surrounding lands, many of 
which are already in Wilderness Study Areas or lands inventoried by BLM 
as possessing wilderness characteristics. Additional assurances are 
needed to protect publicly acquired land from oil and gas drilling and 
mining.
    Please include provisions In the bill that assure lands acquired 
under the legislation for public conservation and recreation purposes 
be protected from oil, gas, and mineral development.
            Sincerely,
                                           Wayne Hoskisson.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
